<html>
<title> - OVERSIGHT HEARING ON THREATS, INTIMIDATION AND BULLYING BY FEDERAL LAND MANAGING AGENCIES, PART II</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





THREATS, INTIMIDATION AND BULLYING BY FEDERAL LAND MANAGING AGENCIES, 
                                PART II

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, July 24, 2014

                               __________

                           Serial No. 113-82

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                 ________
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-873 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                      
                          
                          
                          
                          
                        
                          
                         
                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Raul R. Labrador, ID                 Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Louie Gohmert, TX                    Rush Holt, NJ
Doug Lamborn, CO                     Madeleine Z. Bordallo, GU
Paul C. Broun, GA                    Gregorio Kilili Camacho Sablan, 
Tom McClintock, CA                       CNMI
Cynthia M. Lummis, WY                Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Jared Huffman, CA
Jason T. Smith, MO                   Vacancy
Vance M. McAllister, LA              Peter A. DeFazio, OR, ex officio
Doc Hastings, WA, ex officio

                                 ------                                
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                                    CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 24, 2014..........................     1

Statement of Members:
    Grijalva, Hon. Raul, a Representative in Congress from the 
      State of New Mexico........................................     2
    LaMalfa, Hon. Douglas, a Representative in Congress from the 
      State of California........................................     1
    Pearce, Hon. Steve, a Representative in Congress from the 
      State of New Mexico........................................     5
        Prepared statement of....................................     6

Statement of Witnesses:
    Dunn, Blair, Attorney, Albuquerque, New Mexico...............    39
        Prepared statement of....................................    41
    Gerber, Grant A., Esq., Commissioner, Elko County, Nevada....    17
        Prepared statement of....................................    18
    Lopez, Jose Varela, New Mexico Cattle Growers' Association, 
      Santa Fe, New Mexico.......................................    44
        Prepared statement of....................................    46
    Lucero, Mike, Rancher, Jemez Pueble, New Mexico..............    58
        Prepared statement of....................................    59
    Perkins, James D., Sheriff, Garfield County, Utah............     8
        Prepared statement of....................................     9
    Pollock, Leland, Commissioner, Garfield County, Utah.........    12
        Prepared statement of....................................    14
    Rardin, Hon. Ronny, Commissioner, Otero County, New Mexico...    35
        Prepared statement of....................................    37
    VeneKlasen, Garrett O., Executive Director, New Mexico 
      Wildlife Federation, Santa Fe, New Mexico..................    52
        Prepared statement of....................................    53

Additional Materials Submitted for the Record:
    Cox, Spencer J., Lieutenant Governor, State of Utah, July 17, 
      2014, Letter submitted for the record......................    71
    Johnson, Buster D., Supervisor District III, Mohave County 
      Board of Supervisors, Lake Havasu City, Arizona, July 19, 
      2014, Letter submitted for the record......................    73
    Kortlander, Christopher, Founding Director, Custer 
      Battlefield Museum, Garryowen, Montana, July 22, 2014, 
      Letter submitted for the record............................    73
    List of documents submitted for the record retained in the 
      Committee's official files.................................    75
    Parkin, Drew O., Escalante, Utah, Prepared statement of......    69
    Reyes, Sean D., Attorney General, State of Utah, July 23, 
      2014, Letter submitted for the record......................    72
                                     


 
OVERSIGHT HEARING ON THREATS, INTIMIDATION AND BULLYING BY FEDERAL LAND 
                       MANAGING AGENCIES, PART II

                              ----------                              


                        Thursday, July 24, 2014

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 1324, Longworth House Office Building, Hon. Doug LaMalfa 
presiding.
    Present: Representatives McClintock, Lummis, Tipton, 
LaMalfa; Grijalva, and Garcia.
    Also Present: Representatives Pearce and Stewart.
    Mr. LaMalfa. The subcommittee will come to order. The 
Chairman notes the presence of a quorum.
    Under Committee Rule 4(f), opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee so that 
we can quickly hear from our witnesses in time today. However, 
I ask unanimous consent to include any other Members' opening 
statements in the hearing record if submitted to the Clerk by 
close of business today. Hearing no objection, so ordered.
    I will also ask unanimous consent that Members not on the 
subcommittee or the full committee be allowed to sit at the 
dais and take part in the proceedings. Without objection, so 
ordered.

STATEMENT OF HON. DOUGLAS LaMALFA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. LaMalfa. Today we have Part II in our oversight series 
on, ``Threats, Intimidation, and Bullying by Federal Land 
Management Agencies.'' During Part I of the hearing, the 
committee heard firsthand accounts of mistreatment by the hands 
of Federal officials seeking to extort the witnesses into 
relinquishing their property rights. In the case of one of the 
witnesses, the Supreme Court, in Wilkie v. Robbins, said 
Congress has not provided victims of Federal bullying a legal 
recourse to seek a remedy for damages.
    In Part II of this hearing, we will hear other accounts of 
mistreatment of American citizens who have been subjected to 
abusive behaviors by Federal officials. These firsthand 
accounts, like those examined in Part I, will give the victims 
of abusive conduct by a Federal land managing official a chance 
to tell their story to Congress.
    Their testimony will show that status quo agency oversight 
policies and procedures are inadequate for addressing or 
deterring employee abuses, and may instead embolden 
overreaching or malicious employee behavior, with little risk 
of retribution for their actions.
    In many cases, citizens who refuse to surrender their 
constitutional rights have been subject to a pattern and 
practice of threats and intimidation. Government agencies, 
through individual and collective efforts, are actively using 
land designations and restrictions, prompted mainly by radical 
environmental groups, to curtail multiple use on Federal lands.
    State and local governments have been subjected to threats, 
lack of cooperation, and numerous unfair or heavy-handed 
tactics, which threaten public safety and threaten the 
livelihoods of communities, especially those in public land 
states. These actions are creating unnecessary tension with 
individual citizens, state and local units of government, and 
even local law enforcement.
    Congressional oversight and legislative solutions are 
necessary to provide an effective check on Federal officials 
who abuse their regulatory powers. Today's hearing will 
continue the committee's work to fashion a legislative solution 
that will give targets of abuse by Federal land management 
employees the opportunity to seek a just remedy.
    I am eager to hear the panel of witnesses today, and I hope 
Members on both sides of the aisle will listen to their 
accounts of what happened to them so we can work together in 
fashioning our remedy to these abuses.
    I would like now to turn it over to our Ranking Member, Mr. 
Grijalva, for his opening statement.

 STATEMENT OF HON. RAUL GRIJALVA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Grijalva. Thank you, Mr. Chairman. I also want to thank 
Chairman Bishop for holding this hearing today. As was stated, 
this is our second hearing on intimidation and bullying by 
Federal land management agencies. But I do not think anyone in 
this room wants to simply point fingers or make an unfounded 
accusation. The issue should be improving relationships, and 
that improvement is a two-way street that requires dialog and 
partnership, not name-calling and disengagement.
    Unfortunately, like the first hearing on this subject, the 
administration was not invited to testify. We will not be able 
to hear their perspective or have them respond directly to the 
witnesses in order to find solutions and common ground. Their 
presence would have made this a much more useful hearing and 
better use of this committee's time.
    Instead, this afternoon will be an echo chamber of 
complaints and hand-wringing. We will hear testimony on the 
range of issues, from the Endangered Species Act to accusations 
that the BLM is turning southern Utah into a police state.
    However, I would also like to say that all Federal 
employees, regardless of rank and position, should have and 
should uphold a high standard of professionalism to provide the 
best possible service to the public, and I think we could all 
agree that the vast majority act in a professional and 
courteous manner. Unfortunately, like any company, 
organization, or government, there will be instances where 
employees do not live up to that standard, and they must be 
held accountable.
    Today's hearing will be an opportunity to hear from 
individuals who have grievances with the Federal land managers 
and law enforcement personnel. As we hear from today's 
witnesses, I think it is important to remember that these 
incidents should not be seen as a reflection of all the public 
land management agencies and their employees.
    Today's witnesses will describe disputes they have had with 
BLM and the Forest Service over grazing permits, water rights, 
and law enforcement, among other issues. Keep in mind, BLM 
administers 18,000 grazing permits and less 155 million acres, 
and the Forest Service administers nearly 8,000 grazing permits 
on roughly 90 million acres, the vast majority of which are 
managed without complaints or incidents.
    It is the responsibility of the Federal land managing 
agencies and their employees to protect the land that is the 
property of the entire American people. With such a broad 
directive, the opinions on how to do so are endless.
    In some of these cases, disagreement in policy is perceived 
as overreach of authority, and the land managers who, under 
law, carry out the policies are considered threatening and 
bullying. It is important to see these examples for what they 
are, a matter of difference in policy opinion, and we must not 
lose sight of that.
    Mr. Chairman, thank you, and with that I yield back the 
balance of my time.
    Mr. LaMalfa. Thank you, Mr. Grijalva.
    We will now hear from our panel of witnesses, but at this 
time I would like to yield to the gentleman from Utah, Mr. 
Stewart, who would like to make some introductions of them.
    Mr. Stewart. Thank you, Mr. Chairman. I appreciate the 
opportunity to sit before your committee for at least part of a 
day. I am on the Appropriations Committee now, but I am on the 
Interior Subcommittee, and these issues are very, very dear to 
me. And I think they are really important, and this hearing is 
very important. So thank you for that.
    I would like to introduce two of your panelists today, who 
happen to be not only from the State of Utah but from my 
District, and in addition to introducing them, maybe make a 
brief comment on the topic of the hearing.
    First, I am pleased to introduce Sheriff James D. Perkins, 
or as his friends call him, Danny. Sheriff Perkins has been in 
service to Garfield County for a total of 27 years in law 
enforcement. He was a deputy for more than 20 years, and was 
then chosen to serve as the Sheriff of Garfield County in 
January of 2007, and he has continued to serve Garfield County 
as sheriff ever since.
    Sheriff Perkins is actively involved in the drug task 
force, and strives to keep drugs out of Garfield County. And 
Danny is devoted to the people of the community, there is no 
question about that.
    I would also like to introduce a good friend, Commissioner 
Leland Pollock, who has been a Commissioner of Garfield County 
for the last 3 years. He and I have known each other for about 
that amount of time, and I have not met anyone in my role in 
Congress who has impressed me more.
    It has been my pleasure to work with him closely on a 
number of different issues since coming to Congress, and he is 
a genuine public servant who puts first the specific needs of 
his constituents in what are really some of the most rural 
parts of our Nation.
    He understands the impacts of Federal ownership on land and 
how that can affect real people in his community, and he is 
committed to finding solutions to improve the lives of the 
people in Garfield County as those who come to visit this very, 
very beautiful part of the state.
    Then, Mr. Chairman, if I could divert just briefly and talk 
a little bit about the subject at hand that the committee has 
chosen to hold this hearing. I feel like it is a timely and 
very important topic.
    If you would refer to the slides, and I show you these 
slides, at first glance you might look at those and think, 
well, that is some scene from some war zone, maybe Afghanistan 
or Iraq or something similar to that. But actually, that is not 
true. Those are Interior Department agency employees, and those 
pictures were actually taken in the western United States 
within the last 6 months or so.
    I have been disturbed over the past several months as I 
have learned more and more about the level of militarization 
occurring within many Federal agencies, and I mean almost every 
Federal agency, but also, unfortunately, including Department 
of the Interior agencies.
    When I see agents with helmets, with shields, with hard-
plated body armor, with grenades, and in some cases grenade 
launchers and M4 carbines, my assumption is that they are 
military or possibly with the Department of Justice. As it 
turns out, the National Park Service has a number of what they 
call special event tactical teams, and they look an awful lot 
like what we would consider SWAT teams. There are also BLM 
officers with a surprising amount of firepower.
    I recognize that officers need to be able to protect 
themselves, and in some cases they are in very rural and lonely 
parts of the state or of the Nation, and they need to be able 
to protect themselves in situations that may be unpredictable. 
And I want them to be able to protect themselves.
    But what concerns me is when you see these type of very 
heavy-handed SWAT-like teams, with non-DOJ agencies being used 
as the tip of the spear for Federal law enforcement. I am not 
sure that having these teams scattered across dozens of Federal 
agencies is the most efficient use of resources. I think it is 
heavy-handed, it is intimidating to the American people, and I 
think it harms the sense of trust that is so important to be 
established between American citizens and the Federal 
Government.
    I have introduced a bill to address some of these concerns. 
If the Interior agencies have SWAT teams or SET teams or 
whatever they might be called, we ought to know of their 
existence and have a better justification from the agencies for 
why they are necessary and when and how they are used. And I am 
hopeful that this committee hearing will help cast some light 
on that.
    With that, I thank our witnesses for being with us today. 
And Mr. Chairman, I yield back my time.
    Mr. LaMalfa. Thank you to the gentleman from Utah.
    Also, I would like to introduce the third member of this 
panel today. Please take the dais as your name is called. It is 
Mr. Grant Gerber, a Commissioner from Elko County, Nevada. So 
welcome, sir. Thank you for joining the panel.
    I would also like to pause here for a moment before we 
start with testimony. Our colleague, the gentleman from New 
Mexico, Mr. Pearce, would like to acknowledge and make 
introductions of the second panel. You will remain where you 
are until the first panel is finished, but Mr. Pearce is on a 
limited time frame.
    So I would ask unanimous consent for the committee to do 
so.
    Mr. Pearce.

 STATEMENT OF HON. STEVE PEARCE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Pearce. Thank you, Chairman LaMalfa and Ranking Member 
Grijalva, members of the subcommittee. I appreciate your 
holding this hearing today on Federal agencies which intimidate 
and bully private citizens. I asked the Natural Resources 
Committee in May of this year to conduct a hearing on this 
topic as it relates to Otero County, New Mexico, which is in my 
District.
    I appreciate the subcommittee looking into the issues as 
well as inviting the people on the ground who deal with the 
Forest Service every day. I am proud to call Otero County 
Commissioner Ronny Rardin a personal friend.
    I would also like to thank Jose Varela Lopez of the New 
Mexico Cattle Growers' Association, Attorney Blair Dunn, and 
Mike Lucero, all for making the journey all the way from the 
Land of Enchantment to the Nation's capital for today's 
hearing. Our National Forests are real treasures to the people 
of New Mexico. We in southern New Mexico know conservation 
better than any outside special interest group or bureaucrats 
in Washington.
    However, in recent years we have seen a sharp downturn for 
the worse from Federal land management agencies. Balance is no 
longer the order of the day, but instead, agencies look to 
implement a narrow special interest-led agenda. BLM is slow-
walking oil and gas drilling applications. The Forest Service 
only puts up minimal acreage for necessary thinning projects. 
Grazing is improperly stopped because of faulty science. Public 
access to public lands and resources is being cut off.
    The situation in Otero County began this spring, when the 
U.S. Forest Service began construction of a pipe fence that 
directly impacted the water rights of ranchers in the Agua 
Chiquita riparian area of the Lincoln National Forest. This was 
done to maintain the habitat of the meadow jumping mouse before 
the mouse was even listed as endangered.
    The Service claimed that the construction of this fence 
would not impact the ranch owners who own the water because 
their cattle can move through two small fence openings. Imagine 
trying to herd a large number of cattle through a 10-foot-wide 
opening in a fence. Bureaucrats and special interest groups 
treat that as a solution. I believe it is a shell game.
    Had the Forest Service actually consulted with the Office 
of the State Engineer, the agency which oversees water rights 
in New Mexico, the Forest Service would have learned what my 
office learned within 24 hours of contacting the State 
Engineer: the Goss family has adjudicated water rights in the 
Agua Chiquita dating back to the 1880s. The fact that an agency 
would make the claim that water rights do not exist when they 
clearly do is an example of the Federal Government's arrogance 
and attempt to bully our local ranchers into submission.
    The Forest Service also claims to accommodate ranchers by 
saying that the trenches near the Agua Chiquita allow water to 
flow under the fences. New Mexico, like much of the West, has 
been in a drought since 2011, and water does not flow through 
these trenches unless a heavy downpour occurs.
    The New Mexico State Supreme Court has ruled that an 
individual with water rights has the ability to move the water 
to the cattle through trenches or pipelines, yet the Forest 
Service refuses to allow the pipeline.
    The Court of Federal Claims sided with the Goss family in a 
similar case 4 years ago. The actions of the Forest Service 
have made it nearly impossible to move the water to the cattle, 
violating the law and violating the findings of two different 
courts.
    Despite the bullying by the Federal Government, the county 
attempted to mediate this dispute with the U.S. Attorney's 
Office. When my office asked to attend this meeting for our 
constituents, the U.S. Attorney and the Forest Service 
threatened to cancel it, leaving one to wonder why an elected 
official is being excluded.
    At this meeting, the Forest Service and U.S. Attorney 
refused to compromise. They would not even agree to not lock 
the gates on the fence until the issue could be discussed more 
thoroughly and resolved.
    I am afraid that this is only the opening salvo from 
Federal agencies attempting to further restrict access to water 
and other vital resources in the West. The Environmental 
Protection Agency is attempting to regulate virtually every 
ditch in the United States under the Clean Water Act.
    The Forest Service believes it has a right to regulate 
ground water it does not own, including ground water underneath 
lands it does not own, as well as the power to review state 
water rights applications. The arrogance and the bullying by 
Federal agencies must stop. This is not some theoretical 
argument. It is about our culture in the West and our 
livelihood. It is about the economy of southern New Mexico and 
other western states.
    Chairman LaMalfa, Ranking Member Grijalva, and members of 
the subcommittee, I would like to once again thank you for 
allowing me to speak here on this issue today. I look forward 
to reading the testimony, and I have a more complete statement 
that I would like to submit for the record, with unanimous 
consent.
    [The prepared statement of Mr. Pearce follows:]
 Prepared Statement of Hon. Steve Pearce, a Representative in Congress 
                      from the State of New Mexico
    Chairman Bishop, Ranking Member Grijalva, members of the 
subcommittee: thank you for conducting this hearing today on Federal 
agencies' intimidation and bullying tactics of private citizens. I 
asked the Natural Resources Committee in May to conduct a hearing on 
this topic as it relates to Otero County, New Mexico. I appreciate the 
subcommittee looking into these issues, as well as inviting the people 
on the ground who deal with the Forest Service every day. I am proud to 
call Otero County Commissioner Ronnie Rardin a personal friend. I'd 
also like to thank Jose Varela Lopez of the New Mexico Cattle Growers' 
Association, Attorney Blair Dunn and Rancher Mike Lucero for making the 
journey all the way from the Land of Enchantment to our Nation's 
capital for today's hearing.
    Our National Forests are a real treasure to the people of New 
Mexico. We in southern New Mexico know conservation better than any 
outside special interest group or bureaucrats in Washington. Sportsmen 
require access to public lands to hunt and fish. Tourists need the 
ability to move their vehicles along roads, and recreational 
enthusiasts must be able to bring boats and OHVs to truly enjoy 
everything that our forests have to offer. And our ranchers, often 
surrounded by Federal lands and checkerboarding, require rights of way 
and grazing permits that they pay for. Allowing such varied forms of 
access helps to achieve the necessary balance that protects our lands 
and economic interests.
    However, in recent years, we've seen a sharp turn for the worse 
from Federal land management agencies. Balance is not the order of the 
day, but instead agencies look to implement a narrow special interest-
led agenda. BLM is slow-walking oil and gas drilling applications. The 
Forest Service only puts up minimal acreage for necessary thinning 
projects. Grazing is abruptly stopped because of faulty science. Public 
access to public lands and resources is being cut off.
    The situation in Otero County began this spring when the U.S. 
Forest Service began construction of a pipe fence that directly 
impacted the water rights of ranchers in the Agua Chiquita riparian 
area of the Lincoln National Forest. This was done to maintain the 
habitat of the meadow jumping mouse--before the mouse was even listed 
as endangered. The Service claims that the construction of this fence 
would not impact ranchers who own the water because their cattle can 
move through two small fence openings. Imagine trying to herd a large 
number of cattle through a 10 foot-wide opening in a fence. Bureaucrats 
and interest groups treat that as a solution--I believe it's a shell 
game.
    Had the Forest Service actually consulted the Office of the State 
Engineer, the agency which oversees water rights in New Mexico, the 
Forest Service would have learned what my office learned within 24 
hours of contacting the State Engineer: the Goss family has adjudicated 
water rights in the Agua Chiquita dating back to the 1880s. The fact 
that an agency would make the claim that water rights do not exist when 
they clearly do is an example of the Federal Government's arrogance and 
an attempt to bully our local ranchers into submission.
    The Forest Service also claims to accommodate ranchers by saying 
that trenches near the Agua Chiquita allow water to flow under the 
fences. New Mexico has been in a drought since 2011, and water does not 
flow through these trenches unless a heavy downpour occurs. The New 
Mexico State Supreme Court has ruled that an individual with water 
rights has the ability to move the water to their cattle. The Court of 
Federal Claims sided with the Goss ranch in a similar case 4 years ago. 
The actions of the Forest Service have made it nearly impossible to 
move the water to the cattle, violating state law.
    Despite the bullying by the Federal Government, the county 
attempted to mediate this dispute with the U.S. Attorney's Office. When 
my office asked to attend this meeting, the U.S. Attorney and Forest 
Service threatened to cancel it, leaving one to wonder why an elected 
official is being excluded. At this meeting, the Forest Service and 
U.S. Attorney refused to compromise. They would not even agree to not 
lock the gates on the fence until this issue could be discussed more 
thoroughly, and resolved.
    I am afraid that this is only the opening salvo from Federal 
agencies attempting to further restrict access to water and other vital 
resources in the West. The Environmental Protection Agency is 
attempting to regulate virtually every ditch in the United States under 
the Clean Water Act. The Forest Service believes it has the right to 
regulate groundwater it does not own, including groundwater underneath 
lands it does not own, as well as the power to review state water 
rights applications. The arrogance and bullying by Federal agencies 
must stop.
    This is not some theoretical argument. This is about our culture 
and livelihood. This is about the economy of southern New Mexico and 
the West as a whole.
    Chairman Bishop, Ranking Member Grijalva and members of the 
subcommittee, I would like to once again thank you for holding this 
hearing today. The legislative branch exists in part to conduct 
oversight of executive agencies. It is time to exercise that power, and 
rein them in.

                                 ______
                                 

    Mr. LaMalfa. Thank you, Mr. Pearce. We appreciate having 
you here today.
    Let's proceed, then. We have our three witnesses from the 
first panel in place. Like all of our witnesses, your written 
testimony will appear in the full hearing record, so for this 
portion I ask that you keep your oral statement to 5 minutes. 
And that will be governed, of course, by the green light, the 
yellow, and then finally the red. Things get pretty heated with 
the red, so we ask that you adhere to that, much like a 
stoplight.
    So with that, first up we will have Sheriff Perkins.

 STATEMENT OF JAMES D. PERKINS, SHERIFF, GARFIELD COUNTY, UTAH

    Sheriff Perkins. Thank you. I would like to thank Chairman 
Bishop, Ranking Member Grijalva, and the members of the 
subcommittee. Thank you for inviting me to testify in this 
oversight hearing.
    I am James D. Perkins, Jr., Sheriff of Garfield County, 
Utah. In my more than 27 years of law enforcement experience, I 
have worked closely with many different Federal law enforcement 
agencies. I would like to focus today on what I see as a 
system-wide failure by the Bureau of Land Management law 
enforcement to accomplish its mission.
    If we had time, I could talk all afternoon, giving you 
example after example of problems I have experienced with BLM 
law enforcement. My written testimony includes nine examples 
that will give this subcommittee an idea of some of the 
difficulties we face. And I would like to talk today about 
three examples in particular.
    But before I begin, I want to make sure that you understand 
that I absolutely recognize the critical role that Federal law 
enforcement agencies play in my county. Garfield County is more 
than 85 times the size of the District of Columbia. About 93 
percent of our county is managed by the BLM, Forest Service, 
and National Park Service. So coordinating with each other is 
not optional.
    We have a long record of working hand-in-hand with Federal 
agencies, like the FBI, the DEA, Immigration and Customs 
Enforcement, the Forest Service, and the National Park Service. 
I am proud of the many successful operations and investigations 
we have done jointly. We may not agree on everything, but we 
work together for one main reason: our relationships are based 
upon mutual respect. And that is where BLM law enforcement has 
been different.
    My first example shows exactly how BLM law enforcement 
views our relationship. While I was attending a drug task force 
meeting in Cedar City, Utah, a BLM law enforcement officer told 
me point blank that he really did not care about any authority 
that I had as the Garfield County Sheriff. He told me that he 
did not feel like he had to coordinate anything through my 
office. His statement left me speechless. This attitude of lack 
of respect, which I find reaches through many levels of BLM law 
enforcement, is what I believe is the cause of the problem.
    Another example of attitude happened during a search and 
rescue operation. We received a call that a party was overdue, 
and a search and rescue team needed to be sent. In these kinds 
of life-and-death emergencies, time is of the essence, and we 
need as much help as we can get to locate the vehicle to give 
us a starting point for the search.
    I asked one of the dispatchers to call the BLM law 
enforcement officer that is located in the middle of our county 
to help in the search. The frustrated dispatcher told me, 
``Sheriff, it is a waste of time. If he will answer the phone 
or we do get in touch with him, all he is going to tell us he 
is off duty or he is out of hours.''
    My last example involves a complaint I received from a BLM 
field manager located in Escalante, Utah. On the night before 
the elk hunt was open, a BLM law enforcement officer posted 
``Road Closed'' signs on a road that was actually open to the 
public. The BLM field manager received complaints about the 
illegal road closures, and he went to the area and started to 
remove the ``Road Closed'' signs.
    The BLM law enforcement officer confronted the field 
manager and threatened to arrest him. He even stepped back and 
placed his hand on his service weapon. The field manager told 
me that he felt like his life was in danger.
    These examples are not isolated incidents. They happen all 
the time, and not only in Garfield County. I have included in 
my written statement letters from the Western States Sheriffs 
Association, Utah Sheriffs, and Nevada State Sheriffs to be 
included in the official record.
    Years ago we had similar problems with the Forest Service 
law enforcement, but we were able to resolve them. Dave 
Ferrell, the Director of Law Enforcement for the Forest Service 
based here in Washington, took the time to come to Garfield 
County personally and meet with me. Our discussion resulted in 
both a change in attitude and personnel, and the problems have 
resolved themselves.
    I am confident that we could do the same with the BLM if we 
had the chance. Until then, BLM law enforcement will continue 
to cause problems for the Sheriff's Office, first responders, 
residents, visitors, and the local economy.
    Again, I appreciate the opportunity to testify before you 
today, and I will be happy to answer any questions.
    [The prepared statement of Sheriff Perkins follows:]
 Prepared Statement of Sheriff James D. Perkins Jr., Garfield County, 
                                  Utah
    Thank you Chairman Bishop, Ranking Member Grijalva, and members of 
the subcommittee for this opportunity to testify in this oversight 
hearing. My name is James D. Perkins, Jr., Sheriff of Garfield County, 
Utah. I have worked in law enforcement for more than 27 years and have 
significant experience in working with many different Federal law 
enforcement agencies. I would like to focus my testimony today on what 
I see as a system-wide failure by the Bureau of Land Management (BLM) 
law enforcement to accomplish its mission.
    If we had the time, I could take all afternoon giving the 
subcommittee example after example of problems that I have experienced 
with BLM law enforcement and its lack of coordination with local law 
enforcement. I've included several examples in this testimony that will 
give the subcommittee an idea of some of the difficulties that BLM law 
enforcement has created for Garfield County--examples that affect not 
only the Sheriff's Office, but also our first responders, residents, 
and visitors.
 need and history of local and federal law enforcement coordination in 
                            garfield county
    Before I begin, I would like to give you some background on 
Garfield County to explain why coordinating law enforcement activities 
with Federal agencies is so critical. Garfield County is more than 85 
times the size of the District of Columbia. Including me, the Sheriff's 
Office employs only six full-time deputies across the county to cover 
more than 3.3 million acres. Our law enforcement activities on public 
lands create a significant strain on our manpower and resources as we 
routinely are required to conduct emergency search and rescue 
operations and narcotic interdictions. We are often required to enlist 
the help of local volunteers, state police, and multi-county task force 
personnel.
    Our law enforcement mission is made significantly more difficult 
because of the composition of the land ownership in our county and the 
number of people from home and around the world that come to see the 
beautiful landscape. About 93 percent of the area within Garfield 
County is managed by Federal agencies. We are home to three national 
parks, the Glen Canyon National Recreational Area, Dixie National 
Forest, and the Grand Staircase-Escalante National Monument. Combined, 
these areas receive more than 1.5 million visitors each year. With this 
number of people and overlapping jurisdictions, coordinating with 
Federal agencies is not optional.
    Accordingly, we have a long record of working hand-in-hand with 
Federal agencies like the Federal Bureau of Investigation (FBI), the 
Drug Enforcement Administration (DEA), Immigration and Customs 
Enforcement (ICE), the Forest Service, and the National Park Service. I 
am proud of the many successful joint operations and investigations 
that we have done. I have battled the Mexican Cartel as they moved 
their illegal marijuana growing operations into my county. I have 
worked with the FBI on a kidnapping case where I arrested the suspect 
in my jurisdiction. I have worked alongside DEA and FBI agents on an 
attempted assassination case where one of our local Adult Probation and 
Parole Officers was the target. While exercising a search warrant on 
this investigation, one of the suspects was shot. Because of the 
coordinated efforts of all the agencies involved, including Federal 
agencies, no law enforcement officers were injured during this 
operation.
    As these examples show, I absolutely recognize the critical role 
that Federal law enforcement agencies play in my county. While we do 
not agree on everything, we are able to work together because our 
relationships are based on mutual respect. I respect the role of each 
of these agencies to enforce Federal law within their jurisdictions, 
and they respect my role as sheriff and the chief state law enforcement 
officer of the county.
    Notably absent from these examples is any joint work with law 
enforcement from the BLM. It's because there is none. And that is what 
I want to focus on today, because I see this lack of coordination--
rather, their refusal to coordinate--as a system-wide failure that 
needs to urgently be addressed.
lack of coordination and inappropriate behaviors of blm law enforcement
    BLM's attitude toward coordinating with local law enforcement is 
summed up best by a conversation I had with a BLM law enforcement 
officer while we were attending a drug task force meeting in Cedar 
City, Utah. He told me point blank that he really didn't care about any 
authority that I thought I had as the Garfield County Sheriff, and that 
he did not feel like he had to coordinate anything through my office. 
This statement left me speechless at the time, and, in my experience, 
it is representative of the lack of respect that BLM law enforcement 
has for local law enforcement. This lack of respect and choice to 
ignore the Garfield County Sheriff's Office makes my job significantly 
more difficult because the BLM is the largest land manager in Garfield 
County.
    This refusal to coordinate, coupled with a lack of any meaningful 
oversight, has created a perfect environment where the abuse of Federal 
law enforcement powers can occur. We have had complaints of BLM law 
enforcement stopping people under the pretext of enforcing state law, 
and they have refused to provide me with documentation of their 
authority or jurisdiction to do so. They have detained people 
completely outside of BLM's jurisdiction on land managed by the Forest 
Service, illegally closed roads, and interfered with county emergency 
medical technicians, wasting time and resources. Local residents and 
visitors who feel they have been wronged by BLM law enforcement have 
little recourse but to come talk to me. The following examples are from 
a cross-section of these complaints, and I can assure that they are not 
isolated incidents. They happen all the time, and not only in Garfield 
County. I would note that the first is from a complaint that I 
received, not from a visitor or resident, but rather from a local BLM 
field manager.

    I received a complaint from a BLM field manager located in 
Escalante, Utah. On the night before the mule deer hunt was to open, a 
BLM Law Enforcement Officer posted road closed signs on roads that were 
actually open to the public The BLM field manager received complaints 
about the illegal road closures so he went to the area to investigate 
and remove the signs. The BLM law enforcement officer confronted the 
field manager as he was removing the signs and threatened to arrest 
him. The BLM Law Enforcement Officer stepped back and placed his hand 
on his duty weapon. The BLM Field Manager stated that he felt like his 
life was in danger.

    <bullet> Several visitors to Garfield County told me that they 
            would never return because of the way they were treated by 
            BLM law enforcement. These tourists were visiting the Grand 
            Staircase-Escalante National Monument and wanted to see a 
            rock formation that was off the road. They parked their 
            motorcycles off the roadway, within the county right-of-
            way, which is perfectly legal. When they returned, they 
            were met by a BLM law enforcement officer, who threatened 
            them with a citation and the impoundment of their bikes for 
            not leaving them in the roadway.

    <bullet> I have received complaints from citizens that live in 
            Escalante, Utah. They reported that while they were on 
            Forest Service property, a BLM law enforcement officer 
            pulled them over for no apparent reason. The officer 
            questioned them about what they were doing and they felt 
            like they were being bullied. I contacted the District 
            Forest Service Ranger in charge of the area and asked him 
            if he had requested that the BLM law enforcement patrol on 
            Forest Service property. He advised me that he had not and 
            that he was also upset because he had received other 
            complaints of similar activity. I contacted the BLM 
            sergeant in law enforcement that is responsible for this 
            area. This sergeant made excuses for the BLM law 
            enforcement officer's actions and stated that they would 
            get back to me. The sergeant eventually got back with me 
            and advised me that the alleged allegations had taken place 
            prior to her attaining the rank of sergeant, therefore they 
            would not investigate. This didn't make any sense to me but 
            that was the answer they provided.

    <bullet> Garfield County Emergency Medical Service Director, Tammy 
            Barton, reported to me that on three different occasions, a 
            BLM law enforcement officer showed up on the scene of 
            medical and search and rescue emergencies. The BLM officer 
            refused to check in or sign the sign in sheet at the 
            Incident Command, as is normal protocol. He took it upon 
            himself to walk through the scene where an airplane 
            accident was located within a State of Utah right of way. 
            On another occasion, it was required to carry a patient out 
            of a remote area to a landing zone where a medical 
            helicopter could land to pick up this patient. The Incident 
            Commander knew that carrying out the patient would take 
            several hours. The BLM officer demanded that a helicopter 
            be called immediately. Not only did the BLM officer again 
            refuse to check in with the Incident Command, but he also 
            took it upon himself to dispatch a helicopter to the scene 
            after being told by the Incident Commander to wait until 
            the patient could be carried out and was closer to the 
            landing zone area. The medical helicopter arrived at the 
            landing zone and sat there idling for approximately 4 
            hours. This resulted in the pilot having to return back to 
            his station, get fuel, switch out pilots, and then return 
            to the scene. This not only wasted time and money but 
            further endangered the patient.

    <bullet> I received reports from local ranchers that BLM law 
            enforcement officers were seizing their empty protein 
            supplement tubs as soon as the cattle had emptied them. The 
            BLM law enforcement officer would take possession of the 
            tubs and threaten the local ranchers with littering 
            citations. I contacted the BLM's Special Agent in Charge 
            and expressed my concern over the officer confiscating the 
            tubs. I explained that the ranchers used these tubs for 
            many different purposes after they were empty and certain 
            types of tubs were returnable for a rebate when purchasing 
            more of the protein. I told him that it was improper for 
            the officer to remove these tubs and that the ranchers were 
            not abandoning them. The Special Agent in Charge uncaringly 
            laughed it off.

    <bullet> It was reported to my office that additional roads had 
            been illegally closed in the Spencer Flat area on the Grand 
            Staircase-Escalante National Monument. I proceeded to this 
            area and found a large pile of limbs, logs, and rocks 
            blocking access to this road. I received a report that a 
            BLM law enforcement officer was seen with limbs and logs in 
            the back of his vehicle in the area. The Monument's manager 
            was contacted and he advised me that this road had been 
            illegally closed. I questioned the local BLM law 
            enforcement officer that was implicated and he denied any 
            involvement. However, to date there have been no other road 
            closures of this nature.

    These examples trouble me a great deal, especially where tourism is 
affected. Tourism is the lifeblood of Garfield County's economy. While 
we have received many similar reports from visitors, I have to wonder 
how many others have simply chosen to leave the county and not return.
    Another area where a lack of coordination is very evident is in 
search and rescue operations on the Grand Staircase-Escalante National 
Monument. In recent history, we have had a number of fatalities for a 
lot of different reasons. I honestly cannot remember the number of 
people I have witnessed whose lives were nearly ended and then saved by 
Garfield County Sheriff's Office, Garfield County Search and Rescue, 
and use of the Utah Department of Public Safety (DPS) helicopter.
    But these efforts are costly both in manpower and financial 
resources. From April 13, 2013 to March 11, 2014, I have spent a total 
of 469.75 hours of search and rescue time rescuing individuals. This 
does not count any training time for search and rescue--this is actual 
time spent on searches. From July 2, 2013 to April 29, 2014, I have 
38.6 hours of use on the DPS helicopter. The helicopter's rate is 
$1,700 an hour, which means the cost during that period for the 
helicopter is $65,620.
    Yet I have not received a single minute of help or assistance from 
any BLM officer, nor have I received one penny of assistance for search 
and rescue reimbursements from the BLM. Although search and rescue is 
primarily the sheriff's responsibility, the BLM does have an obligation 
to assist when requested. I think that it is time that the Bureau of 
Land Management stepped up and helped with these responsibilities. They 
also need to help with manpower and financially for the individuals 
that visit the Grand Staircase-Escalante National Monument and other 
BLM grounds.
    Although my dispatchers have attempted to contact BLM law 
enforcement for assistance in search and rescue operations, there 
always seems to be an excuse for why they can't help. It has risen to 
the point where my dispatchers have become completely frustrated with 
BLM law enforcement. Recently, we received a call that a party was 
overdue and a search and rescue team needed to be sent. In these kinds 
of life and death emergencies, time is often of the essence, and we 
needed as much help as we could get to locate the vehicle to give us a 
starting point for the search. I asked one of my dispatchers to call 
the BLM law enforcement officer that is located in the middle of our 
county to help with the search. The frustrated dispatcher told me, 
``Sheriff, it's a waste of time! If he will answer his phone or we do 
get in touch with him, all he is going to tell us is that he is out of 
hours or he is off duty.''
                         resolving the problem
    I mentioned in the beginning that my office has excellent working 
relationships with other Federal law enforcement agencies. This has not 
always been the case, but we have always been able to work through 
these issues so we can do our jobs effectively. For example, several 
years ago we had incidents, similar to those I've discussed above, 
happening with the Forest Service Law Enforcement from our area. Dave 
Ferrell, Director of Law Enforcement for the Forest Service, took the 
time to fly from Washington, DC to personally meet with me in Garfield 
County. Our discussions resulted in both a change of attitude and 
personnel, and the problems have resolved themselves. In fact, I am in 
the process of deputizing two Forest Service law enforcement officers, 
in addition to the three Bryce Canyon National Park Rangers I have 
deputized since I became sheriff in 2007.
    I am confident that if we had the opportunity to engage with the 
BLM constructively, in a spirit of working together, we could resolve 
the problems. We are open to any opportunity to work toward resolution 
with the BLM, and would appreciate any help the subcommittee could 
provide in our efforts. Oversight hearings like this give us a voice 
that is often overlooked, and the evidence that has been submitted to 
the subcommittee without doubt provides sufficient justification for a 
change in the status quo.
    Again, Mr. Chairman, I would like to thank the subcommittee for 
this opportunity to testify before you, and would be happy to answer 
any questions.

                                 ______
                                 

    Mr. LaMalfa. Thank you, Sheriff. We appreciate it.
    Now we will move to Commissioner Pollock from Garfield 
County, Utah as well.
    Five minutes, please.

  STATEMENT OF LELAND POLLOCK, COMMISSIONER, GARFIELD COUNTY, 
                              UTAH

    Mr. Pollock. Thank you, Mr. Chairman, Ranking Member 
Grijalva. My name is Leland Pollock. I am a Garfield County 
Commissioner. I chair the Utah State Association of Counties' 
Public Land Committee. I sit on a national Public Land 
Committee for the National Association of Counties.
    And if you will indulge me for a moment, we have some 
teenage TARS members. If I could just have them stand. Thank 
you. They are with us coincidentally.
    What I am going to get into today, very seldom do we come 
back here and offer solutions. But I do have one solution to 
this problem. Contracting when it comes to BLM law enforcement 
is critical. That is where relationships are forged. And 
relationships in the West, believe me, are everything. In rural 
areas, good relationships can be the difference between life or 
death, really literally.
    Now, a couple of years ago--and by the way, these are not 
partisan issues, a good friend of mine, State Director Juan 
Palma of the BLM--he has nothing to do with the law enforcement 
side; he is the State Director--he was working with me to 
establish a contract.
    This contract would have allowed our sheriff to deputize 
BLM employees, let the BLM law enforcement officers use all our 
resources, use our dispatch, and basically protect his safety 
as well as the safety of the county. These cooperative 
agreements pay the counties, the rural counties, to offer law 
enforcement, and they are a huge savings to the agency, no 
matter what agency it is.
    A prime example of how well this works is in Kane County, 
on the popular Grand Staircase National Monument. You all have 
heard of that. We share that monument with Kane County. They 
had an agreement similar to the one that the State Director and 
myself had worked out, and it was working beautifully. You can 
talk to the locals on the ground from either side, the BLM, the 
local sheriff, anybody you want to talk to, and this is the way 
to do it. OK?
    Unfortunately, I do not share that same relationship with 
the State Director of Law Enforcement. It is not because I do 
not want to. It is because it is impossible. Unfortunately, as 
well, this State Director of Law Enforcement canceled all of 
the contracts in the entire State of Utah.
    Now, you have for the record a letter from our Lieutenant 
Governor stating how imperative it is for the state to get 
those contracts reestablished, and we are not just talking 
about fiscally. We are talking about safety for the entire law 
enforcement system. Now, going forward, also, if you look at my 
statement, you are going to find a NACO Sheriffs Resolution, 
which means every county in the United States supports 
contracts with the local sheriff.
    Every county in the United States--this was passed on 
through my committee and through NACO, the National Association 
of Counties--every county in the United States also supports 
him as the chief law enforcement officer. He has been told many 
times by the BLM law enforcement side that he is not the chief 
law enforcement officer of the county. This is a paradox that 
needs to be fixed, and you all have the power to fix that.
    Now, we sometimes in the West and in Utah--some of you 
folks back here may think that we are anti-government, and that 
is just not the case. We are reaching out today as well as we 
will back in Utah to try to forge relationships, to try to work 
through these issues.
    What I am recommending here today is that we start with 
contracts. These contracts work all across the West, and they 
are vital to what we do on the ground. And they are a much 
greater help, believe me. And a good man, Juan Palma, State 
Director of BLM in Utah, knew that when he tried to forge and 
enter into an agreement with Garfield County.
    But also, I want to bring one point up really quick. I am 
running out of time. It is kind of unnerving to me that the 
state director can work on an agreement with a local county 
commissioner, and the law enforcement side has the authority to 
override that. That is troubling.
    Anyway, thank you for your time. And Congressman Stewart, I 
know you went through a lot to be here today, and you are very 
much appreciated in the great State of Utah, believe me.
    [The prepared statement of Mr. Pollock follows:]
    Prepared Statement of Leland F. Pollock, Garfield County, Utah 
                              Commissioner
    Chairman Bishop, Ranking Member Grijalva and members of the 
committee: my name is Leland Pollock, and I am a County Commissioner 
from Garfield County, Utah. I also serve as a member of the National 
Association of Counties Public Lands Committee and have been designated 
by my fellow commissioners in Utah as the Chairman of the Utah 
Association of Counties Public Land Steering Committee.
    Garfield County is a scenic rural area roughly the size of 
Connecticut. Ninety-three percent of the land base is under Federal 
ownership, and I believe we are the only U.S. county that contains 
portions of three National Parks (Bryce Canyon, Capitol Reef and 
Canyonlands). We are also home to significant portions of the Glen 
Canyon National Recreation Area, the Dixie National Forest, the Grand 
Staircase-Escalante National Monument, two BLM field offices, and a 
small segment of the Fish Lake National Forest.
    I grew up cherishing the lands in Garfield County as the son of a 
Park Service employee. An ex-marine, my father worked for Bryce Canyon 
National Park. My father's employment was outside strict law 
enforcement responsibilities, but because of his military experience, 
he was often called upon to assist NPS officers--especially in the most 
volatile situations. I observed with my own eyes proper methods for 
protecting and serving the people of the United States.
    I am here today to testify on two issues regarding BLM law 
enforcement activities that have moved away from a public service 
philosophy: (1) polarization of BLM law enforcement personnel/bullying; 
and (2) cancellation of cooperative law enforcement agreements between 
BLM and local governments.
    As a preface to my remarks I want to inform you that Garfield 
County has a cooperative and productive relationship with National Park 
Service and U.S. Forest Service law enforcement personnel. Things are 
not always perfect, but we work with them within the confines of the 
law and with honest consideration for the public. I also want to let 
you know we enjoy a very positive and productive relationship with Juan 
Palma, Utah's State BLM Director. We meet and talk on the phone 
frequently; and he has been attentive to our requests and has responded 
expeditiously and appropriately within his authority. Unfortunately, we 
cannot make the same statement regarding BLM law enforcement personnel. 
Discussing BLM law enforcement operations is my purpose today.
    This is not our first attempt to resolve issues of bullying, 
intimidation and the lack of integrity exhibited by BLM law enforcement 
agents. We have tried locally, and earlier this spring Utah's 
Lieutenant Governor convened an executive level meeting to discuss law 
enforcement on Federal lands in Utah. The meeting was attended by the 
Lieutenant Governor Spencer Cox, Utah's Attorney General Sean Reyes, 
the Regional Forester, the Regional Chief of Law Enforcement for the 
Forest Service, Utah's State BLM Director, BLM's Chief of Law 
Enforcement, and numerous Federal, state and local leaders. The meeting 
was open, cooperative and productive, except for the participation of 
the BLM's Chief of Law Enforcement. The Lieutenant Governor of Utah 
caught BLM's Chief of Law Enforcement in a lie and exposed in his 
deception. His arrogant behavior lacked integrity and was illustrative 
of his department's unacceptable culture.
    Our concerns/complaints are not just a matter of hurt feelings. The 
policies of BLM's Chief of Law Enforcement have cost Garfield County 
real dollars. Last year Garfield County and the Utah State BLM Director 
worked out a cooperative agreement providing Garfield County Sheriff's 
office a contract for law enforcement on BLM land. The BLM was to 
reimburse the county a set amount that would have resulted in 
significant savings to the Federal Government. The County--with BLM 
concurrence--hired law enforcement staff, acquired vehicles and 
equipment, provided training and proceeded with implementation of the 
agreement. Contrary to the State BLM Director's orders and without 
concurrence, BLM's Chief of Law Enforcement canceled the agreement 
leaving Garfield County with a significant budget shortfall and staff 
operating in an area without an agreement. We are befuddled how one 
individual can override a State Director and negatively impact an 
entire county with impunity.
    We need your help to correct these serious problems. Let me address 
the two issues cited above:
             polarization of blm law enforcement personnel
    Over the past decade or so we have observed and experienced an 
increasing hostility from BLM's officers. I am confident you are aware 
of recent, highly publicized actions involving BLM agents. But you may 
not be aware that much of the frustration by everyday citizens has 
resulted from lack of professionalism by local BLM officers. Some 
equate BLM's law enforcement operations to bullying and intimidation.
    Submitted under separate cover is a list of actions that illustrate 
BLM's heavy handed authority. Three additional examples from only one 
BLM unit in Garfield County illustrate the problem.

    Example 1. BLM law enforcement officers have been known to block 
open public roads asserted under Revised Statute 2477 and maintained by 
Garfield County with rocks, logs and debris. Such actions constitute a 
Class B Misdemeanor under Utah law.

    Example 2. Immediately prior to a big game hunt authorized under 
Utah Law by the Utah Division of Wildlife resources, a BLM agent placed 
road closed signs in several county roads that accessed the hunting 
area. The BLM land manager heard about the problem and took a field 
trip to investigate. The land manager reports that during the 
investigation he was harassed and intimidated by the law enforcement 
officer. At one point the officer put his hand on his gun in an effort 
to discourage the land manager from continuing. This was a direct 
threat to an individual with management authority in the officer's own 
agency.

    Example 3. BLM requested the county's help to install an 
underground waterline to serve wildlife, livestock, recreation and 
other public interests. The county offered to put the waterline in a 
county road to minimize any disturbance on Federal land. A BLM back 
country ranger observed county equipment being transported to the 
jobsite and followed county crews for more than 20 miles. When the 
county crews stopped the BLM officer got out of his vehicle and walked 
behind crew members harassing and interrogating them. Some crew members 
became so upset they returned to their vehicle to cool down. This 
occurred on a project where the county was donating thousands of 
dollars of equipment time and a road easement just to help BLM.

    The cumulative effect of BLM law enforcement is disheartening, 
especially when I know we have good relationships with other agencies. 
Dispatchers have been rebuffed so many times by BLM agents that the 
county only contacts them as a last resort and with little hope for 
assistance.
cancellation of cooperative law enforcement agreements between blm and 
                           local governments
    As mentioned above, we have a positive and healthy relationship 
with many Federal agencies and especially with Juan Palma, Utah BLM 
State Director. We have worked with Mr. Palma to develop a cooperative 
law enforcement agreement similar to those executed for neighboring 
counties; and he is supportive of moving forward in accordance with 
Federal law. However the Chief of Law Enforcement for BLM has 
unilaterally canceled contracts which has reduced coverage and 
increased costs.
    The Federal Land Policy Management Act (FLPMA) states that the 
Secretary of the Interior shall contract with local law enforcement to 
the greatest extent possible for law enforcement services on public 
lands. Typically, BLM has cooperated with local county sheriff 
departments to enforce state, local, local BLM laws on Federal land. 
Yet lately, BLM has refused to enter into such contracts due to 
resistance from BLM's Chief of Law Enforcement.
    Earlier this spring Utah's Lieutenant Governor took steps to 
develop cooperative agreements and contracts in accordance with Federal 
law. The BLM agent in charge opposed such contracts but agreed to 
provide some additional information. However, to date--4 months later, 
no communication has been received from him and no improvement has 
occurred in BLM's heavy handed actions.
    This testimony is not intended to only document complaints. We 
offer a simple solution: comply with FLPMA by contracting with local 
law enforcement to the greatest extent possible for law enforcement 
services on public lands. This may require direction to BLM's Chief Law 
Enforcement Officer, but it is compliant with Federal law and is 
supported by local BLM leadership. Such contracts will also cut Federal 
administrative costs, provide better service and increase public safety 
at a time when fiscal constraints demand more efficiency. This may 
require Congress clarifying the authority of BLM State Directors.
    We are hopeful that after careful consideration, the BLM will take 
appropriate steps to better coordinate law enforcement with local 
governments in Utah and BLM law enforcement will enter into contracts 
as directed by Federal law. Thank you for the opportunity of speaking 
today.

                       NACO Sheriff's Resolution
                                  2013

Issue: Local Law Enforcement on Public Lands

Proposed Policy: NACO urges all federal land management agencies to 
recognize and respect sheriffs (or the chief local law enforcement 
officer) in public land counties as the primary and chief law 
enforcement officer of the entire county. Federal agencies should 
execute cooperative agreements with counties to ensure fair and prompt 
federal payment of compensation for additional local law enforcement 
activities desired of sheriffs, and federal agencies submit their 
agents for deputization and accountability under local sheriff 
authority and control.

Background: Federal land counties are frequently impacted by lack of 
coordination from federal law enforcement officers. Federal officials 
fail to recognize the County Sheriff's role as the chief law 
enforcement officer within his/her jurisdiction; and, often, federal 
officers undermine local law enforcement efforts by usurping local 
authority in violation of established law. Counties are also forced to 
expend limited local funds to perform uncompensated law enforcement 
functions on federal land. This resolution is needed to encourage 
federal agencies to: a) recognize the sheriff's role as the chief law 
enforcement officer; b) work cooperatively with local government to 
coordinate law enforcement functions on federal land in accordance with 
established law; and c) develop cooperative agreements to compensate 
local government for services provided on federal land and to establish 
clear lines of authority.

Fiscal/Urban/Rural Impact: There will be limited fiscal impact for 
urban areas. Rural areas, especially public land counties, can expect 
greater coordination with federal law enforcement officials, reduced 
duplication of effort, and increased funding resulting from cooperative 
agreements and clearly defined roles. Citizens will reap the benefits 
of more efficient responses to problems, reduced cost by eliminating 
duplication, a streamlined approach to law enforcement issues, and 
greater efficiency of all levels of government.

                                 ______
                                 

    Mr. LaMalfa. Thank you, Commissioner Pollock.
    At any moment, votes will be called on the House Floor for 
a series of votes, amendments, et cetera. So we will just work 
through this as we can here.
    Mr. Gerber, you are up next, Commissioner Gerber.

STATEMENT OF GRANT A. GERBER, ESQ., COMMISSIONER, ELKO COUNTY, 
                             NEVADA

    Mr. Gerber. Thank you, Mr. Chairman, members of the 
committee. I certainly appreciate the opportunity to come here 
today and represent my constituents in Elko County and 
represent many of the people in Nevada that are concerned. I 
believe this hearing regarding threats, intimidation, and 
bullying by Federal land management agencies is very 
appropriate at this time.
    I am a fourth generation Elko County resident. Our family 
settled there in the mid-1800s, and I have been cowboying in 
that county since the 1940s. I am 72 years old. I served in 
Vietnam. Our family, besides having a ranch, we had a hunting 
camp for over 30 years.
    But a major change has occurred in Elko County. The BLM and 
Forest Service agents are operating so far different than they 
did when I was a boy and as I grew up. At that time,, they were 
friendly. They came to the ranch. We worked with them. But over 
the years, that has changed.
    They are predominately from outside the area and do not 
develop connections with the locals, and many of them start off 
with a belligerent attitude, even a commanding presence. They 
are especially offended if anyone opposes any Federal 
Government actions. And the worst are the Federal law 
enforcement agents that arrogantly announce that they are not 
governed by Nevada law but can enforce it if they choose.
    Now we have been informed, without notice or hearings, that 
the BLM has determined that two more BLM law enforcement agents 
are necessary to control the people in Elko County. It is 
unacceptable to us, to have additional people imposed on us 
without our consent.
    I am going to give you two quick examples of our problem. 
In the fall of 2012, three minors on their day off went up to 
cut wood on Spruce Mountain. They cut the wood, and after they 
came off the mountain, they stopped to readjust their loads.
    They looked back, and here was a pickup flying down the 
road at them, and one of the minors said they were getting air 
as it came. And this BLM agent jumped out. He had two guns on 
him. He had a flak vest on him, dark glasses. He was 
belligerent. He told them that he was giving them a ticket for 
cutting wood in a wilderness study area.
    They protested and said, ``We've got permits here, and we 
were not on a wilderness study area.'' But because of the cost 
of driving 300 miles to Reno to contest it, and having to go 
down twice and hire an attorney, it would have cost them 
thousands of dollars to protest it.
    So I heard about it and offered to represent them for free. 
And we got a ways into it, and I looked at the maps, and the 
law enforcement agent from the BLM was on the wrong mountain. 
To get to where he said the wilderness study area was, you had 
to go down the valley and up on the mountain on the other side. 
He did not know where he was. These people are, many of them, 
very unprofessional. They do not even know where they are.
    We got that case dismissed, but only after he had called 
them and given them false information about when the hearing 
was going to be, and that it had been dismissed. And we got 
that on their telephones.
    But the most egregious is down at Battle Mountain at this 
point. In that district, the Battle Mountain BLM Manager, Doug 
Furtado, has been threatening, intimidating, and bullying the 
citizens down there. That Battle Mountain District covers a 
huge amount of the State of Nevada. It goes down and connects 
up with Clark County.
    In Clark County, the BLM has succeeded in eliminating all 
50 of the ranchers. There are no more ranchers on that 
district, according to the BLM regulations. The only one left 
standing there, is in their mind, still there illegally. In the 
Battle Mountain District, Mr. Furtado is attempting to do the 
same thing. In the last 2 years, he has eliminated over 10,000 
head of cattle grazing on that district.
    I was contacted, and volunteered to help these ranchers for 
free to see if we could change things. There are six families 
that this spring were given an order that--oh, I have run out 
of time. That's what happens with attorneys.
    [Laughter.]
    Mr. Gerber. But this is an issue that is clearly wrong, and 
we have to make changes, and we have to make them quickly.
    Thank you very much. I would be happy to answer questions.

    [The prepared statement of Mr. Gerber follows:]
   Prepared Statement of A. Grant Gerber, Commissioner, Elko County, 
                                 Nevada

    My name is Grant Gerber. I am an Elko County Commissioner and a 
fourth generation descendant of ranchers that settled in Elko County, 
Nevada in the mid 1800s.
    For over 35 years I have been serving as an attorney working on 
Federal Land issues.

    A major change has been occurring in Elko County. When I was a boy 
and as I grew the few Federal Agents were mainly local or from rural 
areas and fit in well with the local area. They knew the people and 
worked cooperatively. Now the Federal Agents are predominantly from 
outside the area and do not develop connections with the locals as was 
done previously. Many start off with a belligerent attitude, even a 
commanding presence. They are especially offended if anyone opposes any 
Federal Government actions. The worst are the Federal Law Enforcement 
Agents that arrogantly announce that they are not governed by Nevada 
law, but can enforce it if they choose. Now we have been informed that, 
without notice or hearings, the BLM has determined that two more BLM 
Law Enforcement Agents are necessary to control the people in the Elko 
area. All of this is resulting in less use of Federal Lands by citizens 
as the citizens become afraid of being accosted and berated.

    That has to change. Following are the most recent egregious 
examples in northern Nevada.

    In the fall of 2012, three miners, on their days off, drove their 
pickups onto Spruce Mountain to cut winter wood. When they drove off of 
the mountain with the wood they cut they stopped to adjust their load. 
Suddenly, a pickup came flying down the road after them. One of the 
miners said it was coming so fast that it was catching air over the 
bumps in the road. The pickup slid to a stop and a man jumped out with 
two guns, flak vest, radio, tazer, handcuffs and with his pants tucked 
into jump boots. He belligerently announced that he was giving them a 
citation for cutting wood on a BLM Wilderness Study Area. When the 
miners told the agent that they had permits to cut and that they did 
not cut on a Wilderness Study Area, he would not listen. The agent told 
them that it was a Federal offense and not to contest the citation 
because the Federal Government always won. He gave each of the miners 
tickets of $275. A boy was in one of the pickups and he was so 
intimidated that it made him cry.

    The miners knew that they had not been on a Wilderness Study Area 
but it was going to cost them thousands to drive to Reno 300 miles away 
to Federal Court twice and hire an attorney to defend themselves. 
Additionally, they would miss at least 3 days of work. For these 
reasons, they decided to pay the fees and cut their losses. I heard 
about the situation and met with the miners. I told them that I had a 
criminal attorney friend in Reno and we would represent them for free. 
We reviewed the maps of the area and confirmed that the agent, Mr. Brad 
Sone, did not know where he was. He was on the wrong mountain! He cited 
the miners for cutting wood in a Wilderness Study Area on a mountain 
that was over 7 miles away down, across a valley and up the other side.

    Before the preliminary hearing Mr. Sone called the miners and told 
them the date of the hearing had been changed. One of the miners called 
the court and learned that Mr. Sone had not told them the truth, that 
the date had not been changed. Then the agent called the miners again 
before the trial and told them the case had been dismissed. Again the 
miner called and learned that the case had not been dismissed. I do not 
practice criminal law, but criminal attorneys have told me that Sone's 
calls were illegal at worst, and if not illegal it was inappropriate 
for the arresting officer to contact the cited citizens. The agent had 
already intimidated them and now was continuing to intimidate and 
mislead them.

    In Battle Mountain, Nevada the Battle Mountain BLM Manager Douglas 
Furtado has been ``threatening, intimidating and bullying.'' He has 
used BLM Law Enforcement to attempt to intimidate people from 
exercising their First Amendment rights of petition, speech, assembly, 
press and prayer. The Battle Mountain District over which Mr. Furtado 
presides is huge. It covers from Clark County in the south to I-80 in 
the north covering Nye County, (the largest county in the Nation), 
Eureka County, Lander County and Esmeralda County. Mr. Furtado has been 
eliminating much of the grazing in the Battle Mountain BLM District. 
Over 10,000 cattle have been removed in just the last 3 years. On one 
area alone, in June 2013, Furtado removed all 900 cattle that had been 
grazing each year for over 140 years. And in 2014 he did not allow any 
of those 900 cattle to graze even though the grass was over 2 feet high 
on much of the range. Because of these drastic grazing reductions the 
fire danger is excessive. Millions of animals have burned because of 
the management practices of the BLM and these actions by Mr. Furtado 
will result in the burning of millions more. Before the huge BLM 
reductions in grazing there were few fires. If Mr. Furtado succeeds in 
eliminating all the cattle in his district he will join the Clark 
County BLM District as ``cattle free''. In the 1980s there were over 50 
ranchers with grazing rights in the Clark County District. Now there 
are no cattle authorized to graze on that district.

    In March of 2014 I volunteered, for free, to help the ranchers in 
the Battle Mountain District reverse the unfair, illegal and morally 
corrupt practices of Douglas Furtado that were threatening millions of 
animals, destroying the lives of ranch families, harming the mining 
industry, hurting hunting and recreation and causing great harm to the 
economy. In working on this project I have learned many things about 
Mr. Furtado. He is vindictive and conniving. He has developed one 
tactic to an art form--``voluntary non-use.''

    In April a petition was created and passed throughout northern 
Nevada to have Mr. Furtado removed. Mr. Furtado sent a BLM law 
enforcement officer to the local hardware store where there was a 
petition to have him removed on the counter. The BLM Agent informed the 
store owner that it was a Federal offense to threaten or harass a BLM 
official. He then left the store for a few minutes, but then went back 
in and took photos of the petition. Steve P. Seldin, the store owner 
stated, ``The officer appeared to be dressed as though he were going to 
war over seas, with black jacket, guns, etc. Only thing he may have 
needed to complete the uniform would be a steel helmet.''

    A GRASS MARCH/COWBOY EXPRESS was then organized to take the 
petition asking for Mr. Furtado to be removed to Governor Sandoval 320 
miles on horseback. At the end of the ride the BLM had an agent there 
taking pictures of the participants. Many of those participants were 
intimidated because they rely on Federal Grazing Rights that Mr. 
Furtado controls.

    Following are some issues that I am investigating as a result of my 
work with the ranchers in the Battle Mountain District. This 
investigation is ongoing and far from complete. I will supplement my 
testimony at this hearing with the results of this investigation.
                           voluntary non-use
    That phrase is supposed to mean that the holder of the grazing 
right has voluntarily decided not to graze an area. Mr. Furtado has 
gone to ranchers and asked them to take ``voluntary non-use'' for part 
of their grazing. If they refuse or argue he then tells them that he 
will give them 100 percent cuts. So they then agree to the ``voluntary 
non-use.'' Other districts in Nevada use this tactic, but are much more 
subtle when doing it. The rancher that is intimidated into taking 
``voluntary non-use'' is then afraid to complain about it because they 
did it ``voluntarily.''

    One rancher is reported to have asked Mr. Furtado if the BLM would 
please remove some of the horses that were overrunning the range as 
required by Congress. Mr. Furtado is reported to have told him that he 
would not remove any horses until he had removed all the cattle from 
the Battle Mountain District.

    In February of 2014 Mr. Furtado announced to six extended ranching 
families, the Tomera, Filippini and Mariluch families that they would 
not be allowed to turn any cattle out on Mount Lewis during 2014. Their 
10-year grazing licenses authorized them to turn out over 2,000 head of 
cattle in March. They argued with Mr. Furtado, but he refused to budge. 
I prepared a petition demanding that Mr. Furtado be removed from his 
position as the Battle Mountain BLM Manager. That petition now has many 
signatures and is continuing to gain signatures. Some of the ranchers 
have refused to sign because of fear of retaliation by Mr. Furtado.

    On May 17 a GRASS TOUR of Mount Lewis was conducted with Nevada 
State Senator Pete Goicoechea, Assemblymen John Ellison and Ira Hansen, 
the Lander County and Elko County Commissions. There were over 200 
citizens on the tour that saw the grass that was over 2 feet high. This 
information was published in the newspapers along with the announcement 
that a GRASS MARCH would go from Elko to Battle Mountain on May 26 and 
a COWBOY EXPRESS would then go from Battle Mountain to the Capital in 
Carson City to deliver petitions to Governor Sandoval requesting that 
Mr. Furtado be removed. The Washington BLM office sent a representative 
to review the condition of the range and immediately after he came Mr. 
Furtado met with the ranchers and agreed to let them graze their cattle 
in 2014. So finally 2\1/2\ months after they should have had their 
cattle out on the mountain they began turning cattle out. But Mr. 
Furtado's actions had caused them hundreds of thousand of dollars of 
loss. And because the low country was not grazed off when it should 
have been there is a tremendous amount of fuel that has now turned 
brown and is ripe to burn threatening the lives of tens of thousands of 
animals and the rancher's cattle.

    It is to the credit of the Washington BLM that Mr. Furtado was 
required to turn the cattle out, but immediately he began a program of 
intimidation to justify his earlier decision to not allow any cattle to 
graze on Mount Lewis in 2014. I am researching that intimidation and 
will supplement this testimony with that information. As a part of that 
intimidation Mr. Furtado took Ms. Fite of Western Watersheds on a tour 
of Mount Lewis and refused to allow any of the ranchers to participate.

    To shed further light on the tactics of Mr. Furtado and help the 
public to understand the great threat to wildlife because of the 
increased fire danger and the great harm he has caused and is causing 
to the ranchers, miners, hunters, recreationist and the economy a GRASS 
MARCH/COWBOY EXPRESS will leave Carson City to Washington, DC on 
September 29, 2014 crossing the continent in approximately 20 days. It 
will be the fastest crossing of the Nation on horseback in history. A 
horse and rider will lope 5 miles and then pass the petitions asking 
for the removal of Mr. Furtado to another rider who will then lope 5 
miles.

    If everyone in Nevada, all County Commissions, the Nevada State 
Legislature and the Governor and even all of Congress wanted to remove 
Mr. Furtado it could not be done without an impeachment proceeding. Mr. 
Furtado works for the Executive Department and the Executive Department 
is the only entity that can remove him. That is an intolerable 
situation. There has to be local control and the only way that can be 
accomplished is for the Federal Government to transfer the BLM lands to 
the states. If Mr. Furtado was an employee of the State of Nevada he 
would have been removed in 2012 or 2013 and certainly by this time in 
2014.

    The BLM law enforcement agents in Nevada report to Salt Lake City 
and there is no local input. And the BLM is very reluctant to 
investigate stories of abuse. When the Elko County Commission 
considered the woodcutting incident the BLM was outraged and said the 
miners should have taken their complaint to the BLM. At an Elko County 
Commission meeting in the spring of 2013 the BLM said they would 
investigate the incident. But the investigation was not begun until the 
spring of 2014 and is proceeding very slowly. The investigator from 
California is starting to ask the right questions, but so much time has 
passed, over 14 months, that when the report does come out it will be 
an old story. Contrast that with what would have occurred if the 
citation had been issued by an Elko County Sheriff's Deputy. Because 
the Elko County Sheriff is an elected official and answers to the 
citizens of Elko County the Sheriff would have done an immediate 
investigation and taken appropriate action. If he found the officer had 
acted improperly he would have either disciplined him or fired him and 
that information would have been public. There is no corresponding 
accountability within the BLM. Even if the BLM, after this delayed 
investigation, finds that the agent acted improperly the BLM will keep 
any actions it takes secret to protect the reputation of the BLM.

    On January 9, 2013 a delegation of the leadership of BLM law 
enforcement from Salt Lake City came to the Elko County Commission 
meeting and proposed a Memorandum of Understanding that would give the 
BLM Law Enforcement Agents the ability to cite for Elko County 
ordinances and Nevada State law. The Commission was opposed. The 
delegation then went on to explain that it really did not matter what 
Elko County did the BLM was going to enforce Elko County and Nevada 
State Law if the BLM decided to do so, including citing drivers on Elko 
County roads, Nevada State Highways and I-80 because those roads and 
highways passed through BLM lands.
    In 1930 Gandhi began the Salt March that eventually gained freedom 
for the citizens of India. He said that it was the inalienable right of 
Indian citizens to have freedom and enjoy the fruits of their toil. 
Likewise the citizens of Nevada have the inalienable right to freedom 
and the fruits of their toil. The combined might of the BLM, especially 
BLM law enforcement and BLM Managers like Mr. Furtado are deriving 
Nevadans of their freedom and the fruits of their toil.

    Congress must act to restore freedom.

Enclosures:

Exhibit A: Hansen Letter

Exhibit B: Mariluch Letter

Exhibit C: Seldin Letter

                               Exhibit A

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Exhibit B

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                Exhibit C

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                
                                 

    Mr. LaMalfa. Thank you, Mr. Gerber. You heard the buzzer go 
off here, so votes are underway. But I think we have enough 
time to do one question on each side before we have to recess 
for a little while to go do Floor votes. So we want you to 
stick around. You have traveled, and we want to have the chance 
to do the full round of questions, if you would like.
    So I will recognize myself for 5 minutes here, and ask 
Commissioner Pollock, and Sheriff Perkins you can jump in as 
well, but we want to know what the impact is on your Garfield 
County budget as a result of the enforcement contracting 
agreement with BLM falling through.
    Sheriff Perkins. I am going to take just a few seconds, and 
then give it to Commissioner Pollock.
    One of the impacts is going to be--I have another example 
where I actually have had people tell me that they will never 
return to my county because of the way they were treated by BLM 
law enforcement for simple things that they did that were not 
illegal. They parked their motorcycles in the borrow pit and 
walked over to a rock cropping, and were threatened with a 
citation and impoundment of their bikes. And these people are 
good people.
    Mr. LaMalfa. Could you elaborate on that? They parked their 
motorcycles--how was that?
    Sheriff Perkins. Sorry. The borrow pit is a part of the 
county road right-of-way where the water drains.
    Mr. LaMalfa. For those that are watching, so you are 
talking there is a roadway and there is the edge of the road 
where it is lower. That is the borrow pit?
    Sheriff Perkins. That is the borrow pit, yes. They parked 
their bikes down there so they did not leave them on the 
roadway, and they walked over to a rock cropping. When they 
came back, this is when they were met by this BLM ranger and 
told they should have left their bikes on the roadway.
    Mr. LaMalfa. In the middle of the road?
    Sheriff Perkins. Well, on the edge of the road or on the 
roadway. They were threatened with a citation----
    Mr. LaMalfa. Is it a narrow road?
    Sheriff Perkins. No. It is a two-lane road. It is a dirt 
road.
    Mr. LaMalfa. Is it a paved road? A dirt road?
    Sheriff Perkins. A dirt road, but two lanes. Wide enough 
for two vehicles.
    Mr. LaMalfa. So there was other traffic that might be 
coming, trucks and cars?
    Sheriff Perkins. Absolutely. It is a busy road.
    Mr. LaMalfa. Logging trucks? Larger vehicles?
    Sheriff Perkins. Tourists. It is down the Hole-in-the-Rock 
Road, if you are familiar with the area.
    Mr. LaMalfa. So the average person might think it is wise 
to pull your machine off and park it----
    Sheriff Perkins. Absolutely. You would not want to leave 
anything in this roadway.
    Mr. LaMalfa. OK. And the gentleman was cited for that?
    Sheriff Perkins. He was not cited. He was threatened with a 
citation. They told me that they were bullied and mistreated, 
were their exact words. So that affects our economy a great 
deal, when people will not return to our beautiful county 
because of the way that the law enforcement treated them.
    Mr. Pollock. Thank you, Sheriff. Fiscally, you have to 
remember--let me frame this a little bit and put it into 
perspective; 93 percent of our county is federally owned; 3\1/
2\ percent is state. So we have 3\1/2\ percent of that county 
to tax; 87 percent of that revenue goes to the school district.
    So we can operate our county for 16 days from property tax 
revenue. So I am glad you asked that question. These contracts 
would have been vital. And again, this is nobody's fault on the 
State Director's behalf. He came down. I spent a full day with 
him on the monument. And he could see the problem.
    And we worked out a cooperative agreement verbally, and he 
would have carried through on this. This man has integrity. He 
would have carried through on a contract that I believe was 
$120,000 a year to cover another county deputy and provide 
additional services from all deputies. They would have been at 
his disposal.
    So we hired a deputy in good faith. Now, when we hired this 
deputy, bear in mind he is still working for us. So we have the 
deputy, the additional deputy, which is needed. Whether it can 
be afforded or not is questionable. Now, bear in mind, property 
tax is how most counties survive. We survive from 
intergovernmental revenue.
    So from a budgetary standpoint, things like this are very 
troubling to me.
    Mr. LaMalfa. Thank you.
    Mr. Gerber, would you like to touch on that subject as it 
affects Nevada?
    Mr. Gerber. Yes. We have just done some recent studies, and 
the cost of the Federal Government is in the multi, multi 
millions. And that is why it is imperative that these lands be 
transferred from the Federal Government to the states so that 
we can survive, not just for the reasons that we have about the 
intimidation and the bullying.
    But if the Federal agents were not there and it was state 
agents, we would do well, if county sheriffs could take care of 
things. But as a result of this, we have situations like in 
Battle Mountain, where the agent came at the request of the 
Battle Mountain manager and intimidated a store owner that had 
a petition there, saying that if there was any threats to 
Federal agents, he would be arrested. And it was purely done 
for intimidation purposes. There are those kinds of 
intimidation things we cannot accept.
    Mr. LaMalfa. Thank you to our panelists. I will recognize 
Mr. Grijalva for 5 minutes.
    Mr. Grijalva. Thank you, Mr. Chairman. I am just going to 
ask some questions for clarification, some of the 
inconsistencies that I want clarified or at least explained. We 
make a lot of decisions based on conjecture in this body 
sometimes.
    On the issue in which we have BLM being, based on the 
experiences in Garfield and Nevada, categorized as an 
organization that--the generalization is this is system-wide, 
that it occurs everywhere. I think that is a leap too far for 
me in terms of conjecture. I think data for this committee, and 
verifiable examples that the agency has a chance to respond to, 
and the Members can deliberate and see what they feel, I think 
would be the appropriate way to go.
    But in terms of just clarification, Commissioner Pollock, 
Garfield County, as I understand it, passed a resolution 
declaring that Federal law enforcement authority--I am assuming 
specifically BLM--is not recognized in the county.
    Now, if the county chooses not to recognize Federal 
authority, why the advocacy for Federal funding? That is where 
there is some inconsistency. Either you recognize the 
legitimacy of the Federal Government in the sense of law 
enforcement in this instance, and want to be a partner and deal 
with the contractual issues that have been brought up, or you 
do not. Am I misreading that resolution and your statements?
    Mr. Pollock. No, Ranking Member. Actually, I am glad you 
asked that question. That resolution, believe me, was a last 
resort. That resolution has just been passed. What that 
resolution is doing is protecting our citizens. Now, I have 
been nice enough not to speak of the bullying going on, but I 
am going to give you a couple of examples.
    Mr. Grijalva. No. That is OK. I only have 5 minutes. But I 
wanted to get to the specific question I asked you, about the 
inconsistency.
    Mr. Pollock. The inconsistency? That is fine, and I can 
deal with that. If the BLM would like to come forward and forge 
a relationship and sign contracts, absolutely. We would recant 
that resolution. But bear in mind, a resolution is not a legal 
document. When we have to----
    Mr. Grijalva. OK. I was going to bring up that next. But it 
is a formalized opinion by the----
    Mr. Pollock. Absolutely. It is what we have to do in 
extreme situations. And believe me, Congressman, this is an 
extreme situation. These are not partisan issues. And if the 
BLM would like to forge something by way of contracts, not just 
with Garfield but the entire State of Utah--and it is not just 
Garfield County that has created these resolutions; four other 
counties have done the same and followed suit.
    Believe me, it is a last resort. And I really do not think 
there are inconsistencies simply because we reached out to try 
to resolve this. We tried to resolve this.
    Mr. Grijalva. Do you believe that based on Utah State law, 
that that provides Garfield County, Mr. Commissioner, with the 
authority to operate roads within the National Parks and the 
National Monuments?
    Mr. Pollock. You mean as far as maintain, Congressman?
    Mr. Grijalva. Operate. Yes.
    Mr. Pollock. Yes. We are already doing that. We maintain 
them as we speak. If we did not maintain them--their budgets 
have been cut to the point we have to maintain BLM roads or 
they will be closed by way of weather. On the forest, you would 
not be able to see the popular Dixie National Forest without 
our road maintenance program. So we are maintaining those roads 
as we speak at our expense.
    Mr. Grijalva. I think the last one--and I appreciate that--
do you recognize BLM's authority to enforce Federal law on the 
public lands and in Garfield County?
    Mr. Pollock. OK. Where they run into trouble with us as far 
as us recognizing that authority is if they affect the health, 
welfare, and public safety of our citizens. If they do so, then 
it is my job and the sheriff's job to protect the health, 
welfare, and public safety of the citizens in our county.
    And believe me, this is protection that our citizens need. 
And it does not matter what the adversary is. If they are being 
threatened in any way, it is our job--when we were sworn in, we 
took an oath to protect the health, welfare, and public safety 
of the citizens of our county. So in that sense, we need to 
protect our citizens. That is our job.
    Mr. Grijalva. But there is an acknowledgment, I hope--or 
that is my own preference--there is an acknowledgment that the 
enforcement of Federal law is BLM's prerogative?
    Mr. Pollock. It depends on the situation. And I am telling 
you right now--I am telling you right now----
    Mr. Grijalva. OK. Thank you.
    Mr. LaMalfa. We have to stop here. We are going to recess 
for--I hate to guess time on the House of Representatives on 
real time. It looks like we made up 30 seconds on the clock 
here, but approximately 35, 40 minutes to get through the votes 
we have on the Floor.
    So please stay if you can, and then we will finish up this 
first round of questions, then have our second panel. So thank 
you for your indulgence. We will recess for a little while.
    [Recess.]
    Mr. LaMalfa. We will resume with the hearing of the Public 
Lands Subcommittee. Thank you for your patience, you all, as we 
conducted our Floor business. It always seems to take longer 
than you would hope. But anyway, thank you for staying. We were 
in the middle of our first round of questions for Panel I, so I 
would now recognize the gentleman from California, Mr. 
McClintock, for 5 minutes.
    Mr. McClintock. Thank you, Mr. Chairman.
    The stories you have told are similar to stories that my 
office is constantly receiving. I have the Sierra Nevada of 
California. Some of our counties--Alpine, for example--96 
percent of the land area of that county is administered by the 
Federal Government.
    Mr. Gerber, the change in attitude that you reported over a 
generation is very similar to what I have observed as well in 
my time in California. The frustration that we have for some 
very good reasons. Our Constitution is founded on a separation 
of powers. Congress has the sole authority to make the law, but 
the President has the sole authority to enforce it.
    So my question of you, in speaking of essentially the 
administration of these agencies and the administration of the 
law, that is beyond our powers as a Congress. Our power is to 
enact legislation. What changes do you believe need to be made 
in order to right this wrong?
    Let me throw out a couple of suggestions. One of them is, I 
do not understand why land managers have to be armed. Should 
not the law enforcement on these lands be left to local law 
enforcement agencies?
    Mr. Gerber. Without question, Congressman. The sheriff is 
and should be respected and be the chief law enforcement area 
of a county. He is elected locally. That was the purpose of the 
Revolution in the first place, is to have local control.
    As a result of what has occurred, the Federal Government 
continues to increase its position in every one of these 
states. And so at the end of the day, the only solution, the 
only solution big enough, is to transfer the BLM and Forest 
Service lands to the states so we get back to what the Founding 
Fathers intended.
    Mr. McClintock. Are you suggesting transferring the entire 
lands to the states, or law enforcement responsibility to the 
states?
    Mr. Gerber. The land itself. Six states have passed 
legislation that has begun taking us in this area, Montana, 
Wyoming, Utah, Idaho, Nevada, and Arizona, and it appears that 
Alaska is going to be next. We have made significant strides in 
the eastern states and in the southern states because they are 
beginning to realize that they should not be sending their tax 
dollars out there to waste money on these fires that would not 
occur if the locals had control.
    If the locals had control, we would have it grazed. We 
would be logging. And as a result, millions of animals would be 
saved because these fires kill millions every year. And then 
all the easterners would benefit because the pollution would 
not be coming this direction.
    So we are in a position where things can change, and that 
is why we are here. We want that change to occur, and we think 
that the western states should have the same freedoms as the 
eastern states. And we believe that the enabling acts of the 
western states are exactly the same as the enabling acts of 
these eastern states.
    In Illinois and Indiana and Missouri, they had 90 percent 
of their land controlled by the Federal Government in the 
1820s, and they got it changed because they banded together. So 
hopefully we can get that done, sir.
    Mr. McClintock. It is interesting to note that, as I said, 
I have a county where 96 percent of the land is controlled by 
the Federal Government. Overall, I believe about 42 percent of 
California is controlled by the Federal Government.
    It is interesting to note that the Federal Government only 
controls 25 percent of the land area of the District of 
Columbia. Here is the national capital, a Federal district, 
with all of the national malls and buildings and other public 
works. That amounts to about 25 percent of the land area of 
Washington, DC.
    Mr. Gerber. Well, at the time that was set up, the Founding 
Fathers were still in charge.
    Mr. McClintock. Thank you. I yield back.
    Mr. LaMalfa. The gentleman yields back.
    I will recognize the gentleman from Colorado, Mr. Tipton, 
for 5 minutes.
    Mr. Tipton. Thank you, Mr. Chairman. I would like to thank 
our panel for taking the time to be able to be here. For 
Members out of Utah, I am out of Colorado. We probably have 
some very common experiences that are there.
    Commissioner Gerber, I would like to question you. We had 
Secretary Jewell before the Natural Resources Committee, and we 
have had a lot of issues in Colorado, as I believe we have 
probably in Nevada, certainly over into Utah, with road 
closures, which have been noted in some of the testimony.
    The Department of the Interior, the BLM, the Forest 
Service, have they ever approached you in any type of 
consultation in regard to road closures?
    Mr. Gerber. Elko County met with the Forest Service over a 
hundred times during the period that the Forest Service was 
going through its travel management plan, and at the end of the 
day Elko County got nothing that they asked for, and they have 
closed hundreds of miles. In the West, they have closed 
thousands of miles of road, and the local people were just 
ignored.
    So roads are being closed, and that also results in 
increased fire. Millions of animals killed. It is an 
intolerable situation, sir.
    Mr. Tipton. This might be a question for the entire panel. 
Given some of the road closures--we have a vast expanse of 
public lands throughout the West--from a sheriff's standpoint 
in terms of public safety, when we are responding to a forest 
fire or if there are other problems that are going on, have 
these road closures impacted your ability to be able to service 
your communities public safety-wise?
    Sheriff Perkins. Absolutely. Let me answer that. 
Absolutely. I had a search and rescue just last year where an 
elderly gentleman had been gone for over 24 hours. This man was 
in his 80s. Southern Utah is big and vast, like Colorado. A lot 
of this area, there were old ATV trails that had been closed 
off. We were using the helicopter, with no avail.
    But I actually had to go open personally--I went and opened 
these trails for my search and rescue to get in and save this 
man's life.
    Mr. Tipton. So it is a matter of actual safety?
    Sheriff Perkins. Yes.
    Mr. Tipton. And Sheriff, just by way of a little bit of 
background, how long have you been in law enforcement?
    Sheriff Perkins. I have been around for a long time. At the 
end of this year, I will have 28 years--8 years as sheriff, 20 
years before that as a deputy.
    Mr. Tipton. Great. Twenty-some-odd years, basically, of 
experience. Growing up, we dealt a lot with the BLM. Dealt a 
lot with the Forest Service. And effectively, they were 
community members. But it seems from your testimony that we are 
starting now to see changes in terms of some of the 
administrative policy that is coming out.
    Do you see this as a systemic, out of Washington, top-down 
sort of an approach, or is it more at the local level?
    Sheriff Perkins. Well, I will tell you, I am not sure 
because like with the Forest Service, I am here to tell you 
that a couple of years ago I had the very same problems with 
the Forest Service as I do with the BLM today. They just would 
not work with me.
    But after some personnel changes and after the director 
came to not only the Utah Sheriffs Association but Western 
States Sheriffs, and eventually to Garfield County, I've seen 
some good changes. And I have an extremely good working 
relationship with the Forest Service now, like I always have 
had with the DEA and the FBI and Immigration.
    In fact, I have a contract sitting on my desk. I am going 
to deputize two Forest Service law enforcement officers for 
Garfield County. Last Friday we just had a mission where we had 
a shooting suspect that was up in our hills, and I sent a 
deputy along with this Forest Service officer for backup.
    So the BLM, I do not know where it stems from. I wish it 
was that easy. I think, and I am being candid here, and maybe 
that is kind of a fault I have, but there need to be some 
personnel changes. There have been so many bridges burned, I do 
not know if they can ever be repaired.
    I want to work with these people. You people, please, go 
through these letters that I have provided you from other 
agencies, other sheriffs, and these people, they want to work 
with the BLM. They really do. But they need the BLM to 
recognize their law enforcement authority.
    Mr. Tipton. So is this a communication problem or is it 
more to the point you simply are not being heard?
    Sheriff Perkins. I think that they just do--the people that 
I have in my area, and I am speaking as Garfield County 
Sheriff, they have a problem with recognizing the sheriff as 
the chief law enforcement agency.
    And you need to understand that if they have operations 
that involves a drug eradication program where they bring 
helicopters in my county, they need to go through me with that, 
on that kind of stuff, because--and this has happened--I have 
other situations that are going on that I may not want a 
helicopter over a certain area at a certain period of time 
because it could actually put people's lives in danger on other 
operations.
    So they need to coordinate things with the sheriff. The 
sheriff is like Congressmen and Senators and all the other 
elected people. We are the people's representative, and it is 
our responsibility to oversee the law enforcement in our 
counties.
    The FBI, when they come through my county, I get a phone 
call if they have something going on. The DEA, they are my 
right hand when it comes to big drug seizures and these cartel 
gardens that we have dealt with. I respect the Federal 
Government agencies, and they have a place. But the sheriff is 
the chief law enforcement officer of the county.
    Mr. Tipton. Thank you, sir.
    Mr. LaMalfa. Thanks, Mr. Tipton.
    We have completed the first round of questioning by those 
available on the panel here, so I will recognize myself in a 
brief second round of questioning here as well.
    Sheriff Perkins, I do not imagine you are the only sheriff 
that is experiencing these activities and actions in your state 
or maybe even neighboring states. Do you know of other 
jurisdictions or other sheriffs that feel the same way?
    Sheriff Perkins. Once again, when you folks get a chance to 
go through the packet that I have provided you, there are going 
to be letters from a Nevada sheriff. There are going to be 
letters from western states sheriffs. There are going to be 
letters from several other sheriffs throughout Utah.
    Yes. It is a problem in the western United States, not just 
in Garfield County. This is not just a Garfield County problem. 
This is a western United States issue.
    Mr. LaMalfa. Other sheriffs you have talked to express 
concern?
    Sheriff Perkins. Oh, absolutely. They will pour their 
hearts out in these letters. If I may, I just want to read one 
paragraph from a sheriff in Lincoln County, Nevada, I think 
that is where he is from. And this is the problem. This pretty 
much says it all:
    ``Over the past few years I have continued to try to work 
with the BLM on issues in Lincoln County, but tensions have 
been very high. A few months ago, I had occasion to speak to a 
BLM employee and was discussing issues between counties and 
Federal agencies. The BLM employee pointed to a flagpole that 
was near to us and said, `See that American flag? It is above 
the Nevada flag, and you need to remember that'.''
    That is the problem.
    Mr. LaMalfa. Interesting. Well, the BLM had guidelines and 
rules that they are supposed to follow, and they have a 
handbook that their officers are supposed to use. So what do 
you think is in that handbook as far as their interaction with 
the state and local laws on that?
    Sheriff Perkins. First of all, and I have talked to the BLM 
and they recognize that they have--and I recognize that they 
have--proprietorial jurisdiction. And this is the definition of 
that. It's in the Eisenhower Report. It has been around for a 
while. ``The United States has acquired some right or title to 
an area within a state, but has not obtained any measure of the 
state's authority over the area.'' That's what it is.
    Now, in their own handbook, in their own rules, let me read 
you this, if I can find it. ``BLM law enforcement must not 
enforce state and local laws without a written law enforcement 
agreement with the state and local agencies that has authority 
to grant state law enforcement authority to Federal law 
enforcement officers.'' That is in their own rule book.
    Mr. LaMalfa. OK. Thank you. That is very telling.
    Commissioner Pollock, what has your relationship been like? 
Have you engaged them? Have you dialoged very much with these 
folks in order to come to an agreement as gentlemen instead of 
perhaps the heavy hand of the Federal law?
    Mr. Pollock. Thank you, Mr. Chairman. You are talking about 
the law enforcement side of it?
    Mr. LaMalfa. Yes.
    Mr. Pollock. Yes. In fact, the entire State of Utah 
convened a special hearing during the legislative session. The 
Lieutenant Governor, myself, and several others had the 
Director of Law Enforcement of BLM--I think he is over Nevada 
and Utah--in that meeting, and there was Utah State legislative 
leadership, Attorney General Sean Reyes, and many of the 
leaders of the State of Utah. And we were up----
    Mr. LaMalfa. How did that go? My time is running short. How 
was the dialog, or was it a useful dialog?
    Mr. Pollock. Not good. It was very, very petulant coming 
from the Director of Law Enforcement. In fact, there was no one 
in the room, including the Lieutenant Governor of the State of 
Utah, that could get along with this guy.
    So yes, that is a great question. And we have had problems 
that we cannot get through. And that is why we are asking, the 
only solution that we can see is a personnel change.
    Mr. LaMalfa. OK. Thank you. We have heard that already a 
couple times.
    Commissioner Gerber, the terminology, ``voluntary non-
use,'' is one that has come up and can be used in certain ways. 
Why do you not expound upon that for a moment in my remaining 
time?
    Mr. Gerber. It is supposed to mean that the holder of the 
grazing right voluntarily relinquishes his grazing for a year 
or 2 years.
    Mr. LaMalfa. Why would they do that?
    Mr. Gerber. Most of the time they do not want to do that. 
But what happens is that in the case of Mr. Furtado, he went to 
them and said, ``Look. I want you to reduce your grazing by 50 
percent,'' in some cases 75 percent. And they said, ``Well, 
what happens if we do not?'' And he said, ``Well, I will reduce 
you 100 percent, then.''
    So with a gun at their head, they say, ``OK, we will accept 
that because we have to.'' And then when you ask them about it, 
they do not want to talk about it because they voluntarily 
relinquished it.
    Now, other districts--and I represent lots of ranchers and 
have over the years--they do not want to ever take that. But in 
subtle ways, the agencies in other districts do it, too, but 
none of them with the heavy-handed approach that Mr. Furtado in 
the Battle Mountain District has done.
    Mr. LaMalfa. Thank you. My time is up on that.
    I recognize Mr. Grijalva for 5 minutes.
    Mr. Grijalva. Thank you.
    Sheriff Perkins, thank you for the--I guess you deputized 
me. Right?
    Sheriff Perkins. Well----
    Mr. Grijalva. No. I am just kidding. Scared you for a 
second.
    [Laughter.]
    Sheriff Perkins. You need to have 20 hours of training 
before I can legally do that.
    Mr. Grijalva. And I understand, having been a county 
supervisor and commissioner in Pima County in Arizona, the 
tension that is inevitable between the Federal agencies and the 
county agencies and state agencies.
    But I thought your point was well taken in terms of law 
enforcement, search and rescue, first responder activities, 
that there has to be a level of cooperation, memorandums of 
understanding, whatever is necessary to make that part of the 
service that is provided to the public excellent like you want 
it. And it requires not only good working relationships but to 
the point of even memorandums of understanding that have to be 
developed.
    I say that because we had a tragedy in one of our national 
parks. A ranger was killed by drug runners. Very unfortunate. 
But what was discovered was one of the reasons was that we did 
not have the frequencies, the intermodal frequencies, between 
the communications between the county sheriffs, the state 
police, and the National Park Service rangers that were also 
responsible for patrolling that part of it.
    From that came many better understandings, intermodal 
communications where everybody can talk to each other. So 
Sheriff, for myself your point is very well taken. I think that 
level of cooperation, if it does not happen voluntarily, should 
be required in terms of that response that you have to have for 
the public. Thank you.
    Commissioner Gerber, I was just going to ask you a 
question. This whole controversy that happened, did you support 
Bundy through that whole process?
    Mr. Gerber. I did not go to it down there. I know Mr. 
Bundy. I know the Bundy family. Back in the 1980s, when they 
began eliminating all the other ranchers, Mr. Bundy was the 
only one that finally said, ``Hey, I have had enough.''
    Mr. Grijalva. Physically. But as a Commissioner, did you--
--
    Mr. Gerber. No.
    Mr. Grijalva [continuing]. Because you made public comments 
that it was--``I truly honor his courage and desire to protect 
his rights'' ? I mention that because part of the situation in 
being able to work with any agency--we saw some pictures, 
isolated pictures, of the heavy-handedness of law enforcement 
under the Park Service or BLM. But there were also very graphic 
pictures of militia folks supporting Bundy on the highway, 
pointing weapons at U.S. Marshals.
    That kind of a confrontation, I think, is something none of 
us want. And there was a court ruling that was being 
effectuated that he owed $2 million worth of grazing fees. And 
99 percent of all other grazing permits are paid for, and I 
would suggest that if that is the level of the rhetoric, then 
opening up the doors to BLM and having a discussion--I think 
both sides would be very cautious.
    Mr. Gerber. And I agree with you, Congressman. It is a 
terrible situation. But I want to make it clear that in the 
1980s, Mr. Bundy was paying the BLM, and it was not until they 
in effect were eliminating all of his neighbors' grazing and 
eliminating his grazing that he finally said, ``I am not 
leaving.'' And so the history on that is not necessarily 
correct out there because he tried to pay, and they would not 
accept it.
    Mr. Grijalva. Yes. I know. But the point is, as you said, 
the Founding Fathers--the point being that in their wisdom, to 
be three divisions of government, the judicial, who is just the 
important arbitrator on the law, the key arbitrator, ruled 
against that argument you just had.
    I do not want to make this an argument about Bundy. Some 
people do not pay their bills. So with that, let me yield back.
    Mr. Gerber. The ranchers that--could I answer that?
    Mr. Grijalva. I yield back, but it is up to you.
    Mr. LaMalfa. The gentleman may respond.
    Mr. Gerber. The ranchers that I am here speaking for have 
always paid their grazing fees, have always done everything the 
BLM asked them to do, until he said, ``This year you have to 
take all your cattle off,'' and they recognized it was going to 
destroy them. They have still followed the rule.
    So the point I make is that we cannot allow the BLM to 
destroy the livelihoods of all these people on the whim of a 
BLM bureaucrat that is not even following his own rules.
    Mr. LaMalfa. Thank you for finishing.
    Mr. McClintock.
    Mr. McClintock. It seems to me whether Mr. Bundy was right 
or wrong, the question occurs, was the BLM response reasonable? 
I think anyone who watched that unfolding fiasco can answer it 
was completely insane.
    It seems to me that a local law enforcement agency that 
knew the circumstances, knew the people involved, would 
exercise much better judgment 9 times out of 10 than we saw out 
of the BLM. So I ask again, why are we arming land managers? 
Should that not be the responsibility of local law enforcement? 
Sheriff Perkins?
    Sheriff Perkins. You are absolutely right, 100 percent 
right. If that would have been turned over to the county, it 
would be done today. There would not even be an issue. We would 
not be talking about it.
    And I have had situations with the Forest Service just 
recently where we did have some issues on the Forest Service 
with some stolen timber. And they come to me, and I helped them 
solve that case, and it ended up not being a big horrible thing 
like you have seen on TV with the Cliven Bundy thing. You are 
absolutely right. I agree 100 percent.
    Mr. McClintock. Is there anything that you can see that 
would advise us not to simply contract out law enforcement 
duties on the Federal lands to the local law enforcement 
agencies?
    Sheriff Perkins. Now, ask me that again? I'm sorry.
    Mr. McClintock. Is there any reason why we should not 
contract out law enforcement on Federal lands to the local law 
enforcement?
    Sheriff Perkins. There is every reason why you should. You 
are going to get better law enforcement, and it is going to be 
a lot cheaper.
    Mr. McClintock. Say that again?
    Sheriff Perkins. You are going to get better, more 
effective law enforcement, and it is going to be cheaper.
    Mr. McClintock. I am quite sympathetic to Mr. Gerber's 
concern that the best way to resolve these issues is to divest 
surplus land that the Federal Government has done an absolutely 
terrible job managing.
    And I have the Rim Fire area in my district, 400 square 
miles destroyed by forest fire because we have not thinned the 
forests in that region in 30 years. We have seen an 80 percent 
decline in timber harvests across the Federal--the National 
Forest lands. And in those 30 years that we have seen an 80 
percent decline in the timber harvest, we have seen a 
concomitant and proportional increase in acreage destroyed, 
utterly destroyed, by forest fires.
    So it is quite clear to me the Federal Government is not 
properly managing the vast bulk of the lands that it holds and 
divestment is certainly advisable. But on those lands that we 
do not divest, it seems to me that at least we ought to restore 
local control over law enforcement decisions to the agencies 
that are directly responsible to the people in the community.
    Sheriff Perkins. Well, I agree. And I would take that 
responsibility on if it was, you know, absolutely. I do it now 
anyway.
    Mr. McClintock. Thank you. I yield back.
    Mr. LaMalfa. Thank you. Are there any other questions of 
our Members of the dais here? OK, we will bring in our next 
panel, our Panel II. But I would like to have just a quick 
follow-up. The gentleman from Utah please feel free to be 
excused. I want to ask Mr. Gerber one more thing for about 90 
seconds while the other panel comes on up. So thank you, 
gentleman.
    Mr. Gerber, we were talking about the voluntary non-use 
before I ran out of minutes a little bit ago. It did not sound 
very voluntary. That was Battle Mountain, you mentioned?
    Mr. Gerber. Yes, in fact, it is all over the state but in 
Battle Mountain it is so egregious that when they--when Mr. 
Furtado goes to one of those and says, ``We want you to reduce 
your grazing,'' if they say, ``No,'' he gives them a 100-
percent cut.
    Mr. LaMalfa. Do you have that in your written testimony 
that you have submitted?
    Mr. Gerber. Yes.
    Mr. LaMalfa. OK. We would love to have any more follow-up, 
Chairman Bishop here, or my office as well, specifying some of 
this treatment.
    Mr. Gerber. And most of those ranchers know that they have 
to deal with Mr. Furtado again next year, so they are really 
afraid to say anything because he will cut them further. But 
the six ranching families that I have been involved with on 
this issue this last 3 or 4 months, they got 100 percent cut so 
they had no fear anymore of him cutting them further. Otherwise 
they would not have fought.
    Mr. LaMalfa. OK. Mr. Gerber, thank you again to our first 
panel here. Let's please seat the second panel that had been 
introduced earlier by our colleague, Mr. Pearce. So we will 
proceed.
    Here again we are going to be up against another Floor 
vote. They are saying approximately at 4:40, but we will stick 
with this panel and get through the opening round of testimony. 
And we will see where we are at that time.
    OK, very good. Panelists, thank you for joining us here. I 
will go ahead and recognize for 5 minutes the Commissioner from 
New Mexico, Otero County, Mr. Ronny Rardin.

STATEMENT OF THE HON. RONNY RARDIN, COMMISSIONER, OTERO COUNTY, 
                           NEW MEXICO

    Mr. Rardin. Thank you, Mr. Chairman and committee members. 
We are kind of losing our committee up there, dwindling down. 
But I am going to go a little different----
    Mr. LaMalfa. Well, reminded, this will all be on the record 
and all available for the permanent record. So that makes that 
important, so thank you.
    Mr. Rardin. I am going to go in a little different 
direction. As an elected official, I have been two terms, two 
full terms almost. I am going on my 15th year this year, and I 
will finish out in 16 years as a commissioner. And what I want 
to say to the committee, and to Washington as a whole, is there 
is an old saying my dad used to teach me. He goes, ``Figures do 
not lie, son, but liars use figures.'' And it took me a long 
time to figure what he really meant by that, but what he meant 
was we really need to stand back and look at the issues this 
country is facing. We can point names and say this one is a 
bully and this one is not.
    And I have seen that change from 1992 to 2000 when I was a 
commissioner, the first 8 years. I took office again in 2008. 
And in my testimony, I tell you the first 8 years, we did not 
have to raise taxes ever. We worked with the BLM and things got 
done. And RS-2477 roads were recognized. And we really had a 
good working relationship.
    When I came back in 2008, different faces, different names, 
same rules. I love FLPMA. And I think it is a great Act of 
Congress, but it is not being imposed properly in New Mexico, 
especially in Otero County and in all these other places.
    And so the problem has become, in my opinion, an oversight 
of an elected official over the employees. And what I like to 
think about is if the Commission--and my Commission is only 
three men, actually one lady and a man, three persons, if we 
went down and set policy and just left and never came back, a 
year later we would have total chaos within our little county 
because we deal with the public on an everyday issue all the 
time.
    And that is what I see going on here is I really wish the 
Congress would look back and see where the weak spots are. And 
I believe it is the oversight. I do not believe being elected 
you have to go back to your constituents, as I do, and convince 
them that you are doing a good job. And then when you are, you 
get re-elected. If you are not, you do not. And what I see 
happening is there is no oversight out there. So these 
agencies, they will get their feelings hurt. They will not like 
what we are doing or they have an agenda of their own that is 
not a multiple-use agenda, not a multiple serving everybody, 
but it serves one person.
    And I will give you an example. The Agua Chiquita that was 
mentioned earlier by Congressman Pearce, they are keeping out 
180 cattle, but they are letting 10,000 non-indigenous elk jump 
the fence, which causes 10 times more damage than walking into. 
And there are not 10,000 in that area but there are 10,000 in 
the whole area. So we do not know how many, 200, 500 head can 
come in there at night and water. They are letting them get in 
the same area, and saying we are managing, when they have 
forest fires that are the number one threat to this mouse.
    And then the second threat is the animals. And they are 
letting the animals that can threaten destroy it, but the ones 
that they can manage, they are kicking out. And to me as a 
commissioner, it kills us because we have a very small budget. 
We do not say federally owned because there are really only two 
parcels of land that the Federal Government owns in Otero 
County. There is 88 percent of it which is managed by the 
Federal Government. But when I checked with the GSA here in 
Washington, they gave me a book and showed how much land the 
Federal Government owns. They own Holloman Air Force Base. It 
has been ceded to them. And they own 40,000 acres on a bombing 
range. The rest of it, they just manage.
    It is still the proprietary right that we have over law 
enforcement. We do not have that problem in our county with law 
enforcement because we know that our understanding of law 
enforcement is through that situation, but what I am saying is 
when these managing agencies come in, and they take away even 2 
percent of a budget that is only 12 percent that manage a $30 
million budget a year, it hurts us dreadfully. So we have to--
we have to do multiple use.
    Could I hand my FLPMA down there, please, my book? I am 
sorry, I forgot to get that. I handed out a FLPMA book to you. 
And I know you all read FLPMA, and you understand FLPMA, but 
what I try to tell our director for the state, I give him Title 
7 of FLPMA. And you have it, and it is tabbed on yours and it 
is even highlighted. I highlighted yours. But Title 7 of FLPMA 
says, the act of FLPMA, it says, ``Nothing in this Act, or in 
any amendment made to this Act,'' this is Congress made this, 
``shall be construed as terminating any valid lease, permit, 
patent, right-away or other land use or authorization existing 
on the date of approval of this Act.'' Which we all know is 
1976.
    And the second--(b) says, ``Nothing''--``Notwithstanding 
any provision of this Act, in the event of conflict with, or 
inconsistency between the Act, the Act of August 28, 1937, 
insofar as the related management of the timber resources and 
disposition of revenues of the lands and resources, the latter 
Act shall prevail.'' And this is what has happened. They are 
not prevailing.
    [The prepared statement of Mr. Rardin follows:]
  Prepared Statement of Ronny Rardin, Commissioner, Otero County, New 
                                 Mexico
    Chairman Hastings, Subcommittee Chairman Bishop, and members of the 
committee: I am an elected official at the county level and have been 
elected and re-elected by my constituents 10 different times with an 
opponent in each race. When I finish my term in 2016, I will have had 
the privilege of serving the public for a total of 16 years.
    I remember a time when the BLM and Forest Service worked together 
with local officials and parties of interest to use the current laws 
and regulations to make Otero County and this country a better and 
safer place to live. Today I long for those days to come again.
    Sadly I am here today to testify of what I have witnessed over the 
past 20 years. Instead of growing together under the current laws such 
as FLPMA, those laws have had the opposite effect. The Federal 
Government agencies (BLM, FS) have evolved into the problem we face 
today, instead of the solution we can turn to.
    The 1976 FLPMA was passed and introduced to America and since then 
it has been many things to many people.
    FLPMA, when followed correctly, can be a useful tool to assure 
local government and groups a part of management of their lands within 
their said county. However, let me assure you that what FLPMA has 
become is a tool for the agencies to use and hide behind with no 
oversight from any elected officials, Congress included. This has 
become the normal day-to-day way the bureaucracies control and 
devastate the local government's ability to do our job, destroy the 
very Customs and Cultures of the people who elect us, and in the name 
of ``Preservation'' cause total devastation. If this is not corrected 
soon, there will be irreversible damage to this country as a whole.

    Here are two examples of what has happened in Otero County in just 
the past 4 years:

    1. In southern Otero County, we are blessed with minerals, oil and 
gas, resources that have never been developed in Otero because we have 
always had plenty in the logging, cattle and agriculture industry.
    During my first 8 years in office, (1992-2000) the Board of County 
Commissioners never had the need to ask one time for a tax increase.
    During my second 8 years in office (2008-2016) the Board of County 
Commissioners has had to raise taxes twice to just maintain the 
services we have to the public.
    Approximately 2 years ago, a company called Gulf Coast Mining came 
to the Commission and laid out a plan that would create 150 jobs by re-
opening an existing Oro Grande mine. All they planned to do was to 
clean up the tailing of Oro Grande that was left over from the mining 
done at this site in the 1800s.
    David Davidson, an owner of Gulf Coast Mining Company, has produced 
an 1897 grant signed by the President giving this mine, Iron Duke, a 
right of way to cross Territorial Property. This grant has been shown 
to the BLM with no resolve. BLM refuses to recognize any grant to this 
day.
    Furthermore, the leadership of BLM, State Director Jesse Juen and 
the District Manager Bill Childress, as well as other employees of the 
agency, not only refused to allow this company access to their private 
property, but to this day has refused to settle with them and allow 
Gulf Coast to use a ``DIRT'' road that had existed 80 years before 
FLPMA became law.
    BLM is currently in a lawsuit with Gulf Coast for an alleged 
trespass that occurred on vested private property right of way owned by 
both the county and the mine.
    At first BLM stated that if Gulf Coast paid a $250,000 trespass 
fee, then they would allow a permit to be issued to allow them to use 
this road. When Gulf Coast chose to challenge their decision, the BLM 
tried to coerce Gulf Coast by raising the trespass fine to $750,000 if 
they lose.
    Otero County took a bold stand and we forced the BLM to give us a 
permit for the road recognizing and preserving our existing vested 
rights. However, it wasn't until we took heavy equipment out to the 
road and started to fix our road that BLM decided to made a deal where 
Otero County could allow whoever they wanted to cross the road, but not 
without restriction from BLM. True to form, the first time the county 
went to maintain the road, BLM stopped the crew and changed the rules 
again.
    I have some maps of the area if the committee would like to see and 
get a better understanding of the situation they can be supplied later.
    The bullying did not stop there. There is a section of land in this 
area, which the road crosses also, that is managed by the State Land 
office. The BLM seemed to have settled down, but the State Land office 
refused to issue a permit for their area until Gulf Coast paid the BLM 
the $750,000 in fines. BLM claims they knew nothing about this, but it 
fits in with what these agencies have become and what we have to deal 
with every day.
    Had FLPMA been followed, Gulf Coast would have been exempt and we 
would now have 150 new high paying jobs in Otero County. Instead we 
have no jobs and Otero County tax payers are out thousands of dollars 
spent on attorneys trying to resolve an issue that should have been 
handled at the local level within 30 days.

    2. Forest Service: the Forest Service has evolved into a machine 
that is totally controlled by Washington and they use the Endangered 
Species Act to force an ``agenda'' that has obviously taken an attack 
on the ranching community in our country.
    They have ignored the voice of the local people to force on us a 
management scheme that has cost the people of New Mexico and this 
country dearly. In the name of FLPMA and ESA, they have taken away 
thousands of jobs, burned millions of acres, become one of the biggest 
contributors of pollution in our country, and killed millions of 
animals in forest fires, some which are on the ESA list, all the while 
calling this good government.
    Now they are taking private water rights away from local citizens 
by fencing off their water and calling it conservation for wildlife. 
However, the FS was never given any authority to manage wildlife, and 
in doing so, they are going against our Constitution and the very 
rights this Nation has fought to protect.
    Agua Chiquita is a small area in the Sacramento Mountains where 
ranchers have grazed since before the 1900s. This small spring, called 
the Barrel Springs, has served the cattle and animals for hundreds of 
years. There are times it runs dry and times it has plenty, and for 
years there has been a wire fence around it, which had gates that could 
be closed if need be, but have always been reopened to allow all 
animals to use the waters.
    Recently the Forest Service went up and fenced off the area with 
metal pipe fence and the only animals unable to obtain any water is the 
cattle of the local rancher who have used this water for years and 
years.
    Please understand that we have over 10,000 head of non-indigenous 
elk in the area, thousands of mule deer, bears, and feral hogs, and 
hundreds of species of smaller animals who all water at places like 
these. The rancher in this area only has, at the most, 180 head of 
cattle.
    Elk will easily jump 6 foot, as will deer, and the hogs can go 
through the fence, but the cattle are fenced out of water that 
rightfully belongs to the rancher according to the history and laws of 
this Nation.
    When the elk and deer jump into this protected area, they now will 
destroy much more than by simply being able to walk in and walk out. 
The FS says they are protecting the habitat for the New Mexico jumping 
mouse, but this makes no sense.
    Now, before the New Mexico jumping mouse was even listed, the FS 
was being funded by the NM Game and Fish to put this fence up, but the 
NM Game and Fish decided to withdraw on this issue and they pulled 
their funding. So the FS went out and solicited private money to build 
this fence and it is now a reality. The New Mexico jumping mouse was 
listed and the gates were shut by the FS. All of this is 
unconstitutional and should never have been what the FS spends their 
time on.
    The County Commission became involved and tried to find a solution 
to this situation. After running into a brick wall with Travis Mosley, 
the local supervisor, we were invited to meet with the U.S. attorney's 
office.
    We hoped to solve this by simply allowing the gates to open until 
the local rancher could go into the ``protected area'' and pipe their 
water out so both sides could be served. However, all the U.S. attorney 
wanted from the county was for us to go back and settle down the people 
and make sure the Federal Government employees were protected while 
they did their job. We asked if they could just open the gates for 30 
days until we could get this water piped outside the fenced area and 
the answer was NO. Further, they also made it a point to exclude 
Congressman Pearce from the meeting stating that there would be no 
meeting if the Congressman chose to try to attend. The reason for the 
meeting was simple, they wanted to threaten the county and its sheriff 
not take action or we would be facing criminal prosecution and lawsuits 
for any action to allow a private citizen to access their private 
property.
    After this I decided to break all working ties with any Federal 
agency. I made that in form of a motion at our regular County 
Commission meeting this July and only part of it passed, but my point 
is we have a broken system. I truly don't believe it started off that 
way nor was FLPMA or the ESA ever intended to do what it has done to 
this Nation, but it has devastated us in its present form. Unless and 
until we can receive proper oversight from Congress for these Federal 
employees that act maliciously or our citizens can be given the tools 
to stand up to the bullying themselves we are fighting a losing battle.
    Mr. Chairman and members of the committee, you have the power and 
the duty within your elected offices to hear the citizens of this 
country and to take action and fix what is an obvious problem that is 
plaguing our Great Nation. This will certainly be the destruction of 
the greatest Nation on earth if you don't act now.
    I pray you will take this testimony to heart and act accordingly. I 
look forward to working with you to resolve this and put this Nation 
back on track.

    Thank you.

                                 ______
                                 

    Mr. LaMalfa. We are going to go on time here.
    Mr. Rardin. I am sorry, I apologize.
    Mr. LaMalfa. So we will follow-up on a later round, OK.
    Alright, Mr. Blair Dunn, you are up next, please, for 5 
minutes.

   STATEMENT OF BLAIR DUNN, ATTORNEY, ALBUQUERQUE, NEW MEXICO

    Mr. Dunn. Mr. Chairman and members of the committee, thank 
you. I would like to start by discussing some agreement and 
disagreement with what the Ranking Member started out with. 
This is about relationships. It is not about disagreements over 
policy. This is about inability of Federal employees, Federal 
agencies, Federal bureaucrats not following the laws.
    I am going to refer back to the Agua Chiquita matter that 
has been in the news so much. And by way of background, I do 
represent Otero County, but I also represent farmers and 
ranchers across the state of New Mexico and in the western 
United States. I also represent non-profit organizations 
concerned with property rights and environmental issues, such 
as Protect Americans Now, people like the cattle growers, who 
are also represented here on the panel. So this is not a 
singular issue. It is one that is very widespread across the 
western United States, affecting lots of communities and lots 
of individuals.
    But when you look at the Agua Chiquita, one of the major 
things that has happened is the Forest Service even knowing 
what the law is in New Mexico concerning water rights ignores 
that. I have had previous hearings. We have had previous legal 
disputes with the Forest Service. They understand that in New 
Mexico that these water rights in question are actually what we 
would call pre-1907 water rights. It does not mean that they 
have to be on file with the state engineer's office, but they 
are still vested private property rights.
    And the deal in the Agua Chiquita, what they got everybody 
so stirred up there was that the Forest Service came--despite 
the fact that these private property rights exist--and fenced 
around them.
    Now, there was some discussion from Congressman Pearce 
about whether or not the access was reasonable. And the county 
felt that the access was not reasonable. I think the ranchers 
felt that the access was not reasonable. But at the end of the 
day, it was still their private property. It was still the U.S. 
Forest Service ignoring the laws of the State of New Mexico 
when it comes to water, which they are supposed to follow, and 
coming in and ignoring those laws in order to trample private 
property rights.
    What we are here today is not to discuss whether or not the 
Endangered Species Act is proper or functioning as it should. 
What we are discussing is when they do not follow that, when 
they do not follow NEPA, what is the recourse to local 
governments, to private individuals when a Federal agent or 
Federal employee tramples their rights? That is the issue 
today.
    And, unfortunately, when the Forest Service and other 
Federal agencies do not follow these laws, the effects are more 
far-reaching than just one instance. In a minute you are 
probably going to hear discussion about people picking on the 
Forest Service, but that is really not the case. It is a matter 
of when the Forest Service puts out mis-information or they 
mis-use the law, it tends to mis-lead other members of the 
public into believing that somehow it is the ranchers doing 
something wrong or it is the county picking on the government, 
Federal Government. That is not the case. These are private 
property rights, and the Forest Service sometimes tramples 
them. The BLM sometimes tramples them and takes them.
    What we are looking for is a solution that would enable 
oversight to come from something other than just Congress. You 
guys have a lot of work to do, and the Federal Government is 
expansive and broad. We need a solution that empowers the 
people, empowers local governments when we have a bad apple to 
step in and take some action to hold them accountable. That 
oversight is one of the things that Congress is supposed to do, 
and they cede that back to the private individuals and give 
private individuals the ability to go to court to protect their 
rights or to re-gain or remedy some of what has happened to 
them.
    There are a host of other instances that we could cite to 
and discuss, some of which are in my written testimony. But at 
the end of the day, that is what we are talking about--
oversight and providing an alternative so that the public can 
take matters into their own hands and take it to court if need 
be.
    I will yield now.
    [The prepared statement of Mr. Dunn follows:]
 Prepared Statement of A. Blair Dunn, Esq., Attorney, Albuquerque, New 
                                 Mexico
    Chairman Hastings, Subcommittee Chairman Bishop, and members of the 
committee: my name is A. Blair Dunn. I am an attorney and a fifth 
generation agriculturist in southern New Mexico. My family, to this 
day, raises cattle and horses on a ranch that includes private land, 
Bureau of Land Management (``BLM'') land and New Mexico State Land. My 
law practice focuses on assisting those involved in agriculture, 
natural resource use, and conservation. My family has long been 
involved in the legislative process and active in government. My 
grandfather, a long time legislative finance chairman for New Mexico, 
would have told you that the business of government is much like the 
business of tending to the apple orchard, where myself and many of my 
family were raised. Growing apples consists of watching out for the 
good and the bad, and getting rid of the bad apples so the good ones 
don't spoil; government should consist of watching for the good ideas 
by getting rid of the bad ones, allowing the good employees to thrive 
while getting rid of the rotten ones that destroy the whole bushel.
    This applies to what we are here today to discuss, overseeing the 
business of Federal agencies and their employees. One of my clients is 
Otero County in New Mexico. You just heard from one of their 
commissioners regarding the trouble that their county is subjected to 
as a result of those within the Federal bureaucracy that would use 
their power in a heavy handed or malicious way that violates civil and 
constitutionally guaranteed rights. Otero County has sent pleas to this 
very committee for congressional inquiry and oversight into what is 
happening in their county, and what is happening in their county is far 
from an isolated incident.
    Otero County, like many others, is crying out for congressional 
oversight into the harms caused by those bad apples that misuse the 
power of the executive in a way that harms or interferes with private 
property rights. Such oversight of executive agencies is a crucial 
component of ensuring a well-run government. Such oversight has long 
been held to be an implied authority of Congress derived from the rest 
of the legislative functions of Congress, as delegated by the U.S. 
Constitution.
    To say that our Federal Government is large and extensive is an 
understatement, and would not do justice to the state of our affairs. 
To that end congressional oversight into the activities of the few bad 
apples runs counterintuitive to reality. Without a doubt, it must be 
agreed that the majority of Federal employees are dedicated and 
hardworking individuals that are trying to do their jobs to the best of 
their abilities in keeping with the direction and mandates of U.S. 
Constitution and Federal laws. However, a well-crafted tool to assist 
Congress in overseeing and addressing those that would abuse their 
power to violate the civil and constitutional rights of the citizens of 
the United States is sorely missing. Some would say that such a tool 
does already exist, and has existed for many decades, in the form of 
The Civil Rights Act of 1871, which prohibits governmental employees, 
``acting under the color of state law,'' from proximately causing the 
depravation of certain constitutionally guaranteed rights. However, The 
Civil Rights Act of 1871 only applies to state officials.
  i. background on case history and effects of previous decisions on 
     current interactions between the public and federal employees
    This committee has previously heard testimony from Ms. Karen Budd-
Falen. I have reviewed her testimony and the cases to which she cites. 
I concur with her analysis of both Bivens v. Six Unknown Federal 
Narcotics Agents, 403 U.S. 388 (1971) and its role in Wilkie v. 
Robbins, 551 U.S. 537, 577 (2007). For purposes of this testimony I 
will not belabor the important work of this committee by again reciting 
that analysis, but would respectfully offer that I incorporate her 
legal analysis in my testimony and adopt her legal opinion as 
concurring with my legal opinion.
    Ms. Budd-Falen offered in her testimony that the Robbins case ``now 
acts as a complete bar to the judicial branch of government, regardless 
of the extreme nature of the Federal officials actions,'' and I would 
for the most part agree, certainly inasmuch as it does act as a 
complete bar to actions seeking to address conduct by Federal employees 
using the authority of their offices to violate private property rights 
outside of the mandates of the Fifth Amendment. But I would 
respectfully offer to the committee that her analysis falls short of 
the full effect of the decision without the subsequent action that the 
Court offered Congress should undertake:

        We think accordingly that any damages remedy for actions by 
        Government employees who push too hard for the Government's 
        benefit may come better, if at all, through legislation. 
        ``Congress is in a far better position than a court to evaluate 
        the impact of a new species of litigation'' against those who 
        act on the public's behalf. And Congress can tailor the remedy 
        to the problem perceived, thus lessening the risk of a rising 
        tide of suits threatening legitimate initiative on the part of 
        Government's employees.

551 U.S. at 562. Citations omitted. Thus, instead of acting as a 
complete bar, such precedent now serves to embolden Federal employees 
to reach even further in abusing their power to violate private 
property rights absent oversight and legislation from Congress. An 
overreaching or maliciously acting employee runs little risk of 
retribution from their acts. Behaviors of threatening or cajoling, as 
you have heard about from others here testifying today, are allowed to 
proceed under a stronger cloak of immunity.

    For example, one of my clients, El Capitan Precious Metals, Inc., a 
mining company in southern New Mexico that is seeking to utilize new 
technology to create industry and jobs in the local communities, has 
been subjected to threats and cajoling by the U.S. Forest Service 
employees. El Capitan is seeking to rework and reopen the mining claims 
on private property that they now own, some of which are hundreds of 
years old. Incidental to the claims to patented lands are vested rights 
of ingress and egress to their fee simple property that is surrounded 
by National Forest lands. Pursuant to the laws of this country, their 
predecessors owned a vested private property easement across forest 
service lands to access their private property. Now after 100 years of 
use on the \3/4\-mile road, upon which their vested easement runs, they 
are being told that they have no right, that they must go thru the NEPA 
process and they must purchase a special use permit to use the road. 
The road has literally been in use since 1914 and the Forest Service is 
telling them they must go through a lengthy and expensive NEPA process 
to continue use of the \3/4\-mile road from the highway to their mine. 
At one point they were threatened with charges of criminal trespass for 
mine employees utilizing their private property easement. They have 
repeatedly been cajoled to abandon their private property rights and 
just take a special use permit for the road. Such actions, if done by a 
state employee, would certainly have prompted a civil rights claim for 
the attempt to deprive them of their private property right. Instead, 
they are left seeking other less immediate remedies of pursing Federal 
litigation for a taking and hopefully a short term remedy to provide 
them continued access to their private property, but in the mean time 
they run the risk of the loss of their business or even criminal 
prosecution for using their vested easement. I can point to other 
examples from clients seeking Federal grants of inspection harassed 
only because the Federal employee disagreed with the species of animal 
they intended to harvest. All of these types of actions harm not only 
the specific individual or companies, but also harm local rural 
economies and cost communities much needed jobs.
    The public trust in government should be a sacred thing to Federal 
employees. I think that to most of them it is. But for those that would 
abuse the power they have been given, the public deserves an avenue to 
provide oversight, the public deserves a ticket to the door of the 
court house to seek a remedy for their damages. As has been previously 
cited, the Robbins's dissenting opinion discussed the merits of a 
narrowly tailored cause of action to provide and found merit to such an 
action:

        Adopting a similar standard to Fifth Amendment retaliation 
        claims would ``lesse[n] the risk of raising a tide of suits 
        threatening initiative on the part of Government's employees.'' 
        Discrete episodes of hard bargaining that might be viewed as 
        oppressive would not entitle a litigant to relief. But where a 
        plaintiff could prove a pattern of severe and pervasive 
        harassment in duration and degree well beyond the ordinary 
        rough-and-tumble one expects in strenuous negotiations, a 
        Bivens suit would provide a remedy. Robbins would have no 
        trouble meeting that standard.

551 U.S. at 582. Internal citations omitted.

    I can say without reservation that three of my current clients 
would directly fall into this category of people maliciously harmed by 
an abuse of power by Federal employees, and I can say with absolutely 
the same lack of reservation that all three of them would never reach a 
point of needing to file a cause of action. I say that without 
reservation because I firmly believe that such options as are being 
discussed here by this committee would serve to deter many instances of 
abuse of power and would incentivize the agencies to ensure that the 
proper checks and balances were in place to prevent such an abuse of 
power.
    An argument can be made that the creation of new causes of actions 
would cause a flood of Federal litigation, burdening the Courts and 
costing tax payers money. But such an argument leaves aside the fact 
that these causes already exist against the state employees. Further, 
one must give weight to the simple argument that if the harm is not 
occurring, then citizens will have nothing to bring a claim on.
    A claim (similar to a Section 1983 claim) must include the 
components of a right that is possessed by a person that has suffered a 
deprivation of said right by an action carried out by a government 
employee acting under the color of the law. The deterrence policy of 
Section 1983 operates through the mechanism of compensation of the 
actual damages suffered by the victim. See Carey v. Piphus, 435 U.S. at 
256-57 (1978); Memphis Community School Dist. v. Stachura, 477 U.S. 
299, 307, 106 S.Ct. 2537, 2543, 91 L.Ed.2d 249 (1986) (``deterrence is 
also an important purpose of this system, but it operates through the 
mechanism of damages that are compensatory'') (emphasis in original). 
As the Supreme Court noted in Carey, ``[t]o the extent that Congress 
intended that awards under Sec. 1983 should deter the deprivation of 
constitutional rights, there is no evidence that it meant to establish 
a deterrent more formidable than that inherent in the award of 
compensatory damages.'' 435 U.S. at 256-57. Tinch v. City of Dayton, 77 
F.3d 483 (6th Cir. 1996) See also Medina v. Pacheco, 161 F.3d 18 (10th 
Cir. 1998) (recognizing the deterrent value of section 1983 of the 
Civil Rights Act).
                         ii. proposed language
    I have also reviewed the following proposed language for a statute 
that could be enacted to protect private property owners from 
intimidating or cajoling behaviors by Federal employees acting under 
the color of law:

        The attempted taking of private property or private property 
        rights by means of governmental employee harassment or 
        intimidation, under color of law, is hereby declared to be a 
        violation of Civil Rights Act. Harassment or intimidation 
        against the owners of private property or private property 
        rights constitutes such violation when (1) a property owner's 
        relinquishment of his property or property rights is made 
        explicitly or implicitly a term or condition of receipt of a 
        permit or license from a governmental agency, (2) submission to 
        or rejection of such conduct by a property owner is used as the 
        basis for the grant of or conditions included in a permit or 
        license, or (3) the conduct of the governmental employee has 
        the purpose or effect of unreasonably interfering with an 
        individual's private property or private property rights. An 
        attempted taking of private property or property rights under 
        this section can be composed of a series of separate acts that 
        collectively constitutes a significant deprivation of the 
        ownership or use of private property or property rights. In 
        determining whether the activities of a governmental employee 
        are actionable under this section, consideration can be given 
        to the frequency of the discriminatory conduct, harassment or 
        intimidation, its severity, and whether such governmental 
        action interferes with the ownership, use or legitimate 
        investment backed expectations of the property owner.

    Such narrowly tailored language would serve as a much needed 
guidance post to Federal agencies. Imagine if, in considering fencing 
around private property water rights, threatening local governments 
with trespass for using vested easements, or cajoling a fifth 
generation agriculturist to go along with a plan or lose his grazing 
permits, the Federal employees also had to consider whether their 
desired actions and behavior resulted in liability to the government 
for damage to private property rights. Arguably they should already be 
doing so in their oaths to uphold the Constitution, but in reality some 
of them are not, with no fear of retribution for acting badly. I would 
respectfully request that the committee consider what added 
deliberation decisionmakers and supervisors would make when considering 
a proposed action or statement made to a private land owner if they 
must first consider the liability of violating a citizen's civil and 
constitutional rights. Section 1983 claims under the Civil Rights Act 
have been proven to encourage constitutional policing by local law 
enforcement officers around the country; wouldn't it make sense to 
encourage constitutional regulating and land managing by our Federal 
agencies employees?
  iii. the amount of bad apples versus good and giving the public the 
   tools to help congress provide oversight to federal agencies and 
                               employees
    By and large, these examples of Federal employees acting 
intentionally to violate the private property rights of American 
citizens are the exception, not the rule. But as you have heard from 
testimony today, and will continue hearing well into the future, should 
Congress fail to act to remedy this issue, the problem will continue to 
grow. The Federal Government is broad in size, with thousands of 
Federal employees; sorting through all of the employees to root out the 
bad apples is a task that is beyond the capabilities of Congress to do 
one oversight committee hearing at time. Congress should open the door 
of the courthouse to the everyday citizens to help shoulder the burden 
sorting out the bad apples and remedying the damages done by those that 
would abuse their power.

                                 ______
                                 

    Mr. LaMalfa. Thank you.
    Our next panelist is Mr. Jose Varela Lopez.
    Five minutes, please.

  STATEMENT OF JOSE VARELA LOPEZ, NEW MEXICO CATTLE GROWERS' 
               ASSOCIATION, SANTA FE, NEW MEXICO

    Mr. Lopez. Mr. Chairman, members of the committee, thank 
you for the opportunity to come before you today. My name is 
Jose Varela Lopez. I live on my family ranch, southwest of 
Santa Fe, New Mexico. I am the 14th generation of my family to 
do so, and I pray daily that I will not be the last.
    I am president of the New Mexico Cattle Growers' 
Association, the executive director of the New Mexico Forest 
Industry Association, immediate past president of the New 
Mexico Soil and Water Conservation Commission, vice chairman of 
the Santa Fe-Pojoaque Water Conservation District, and a former 
Santa Fe county commissioner.
    As you know, we are here today to talk about bullying and 
abuse of citizens at the hand of the Federal Government. 
Unfortunately, this is a story that is all too familiar, 
ranging from the IRS scandal to the mistreatment of veterans, 
the failure to protect dignitaries in foreign lands, the 
protection of private information, the collapse of security on 
the Mexican border, and most recently the failure of the CDC to 
protect their own employees. And you can add to that the 
treatment of Americans by the U.S. Forest Service, the U.S. 
Fish and Wildlife Service, the Bureau of Land Management, the 
Army Corps of Engineers and others.
    I am not here to tell you that every employee of these 
agencies is rogue, but I can tell you that the agencies are 
permeated with employees who wantonly violate the rights of the 
rural citizens of this country and their small businesses, 
entities that provide economic stability to the majority of the 
counties in our great Nation.
    As Cattle Growers' president, we are dealing daily with 
individual and collective efforts to remove families like mine 
from the land. The worst part is that we have no recourse. New 
Mexico has been a hotspot not only for catastrophic wildfires 
resulting from lack of management by Federal agencies but also 
for species listings which affect natural resource users.
    Endangered species protection is the biggest culprit. At 
the moment, the Fish and Wildlife Service is considering 
critical habitat for the Lesser-Prairie Chicken, the New Mexico 
meadow jumping mouse and two varieties of garter snakes. 
Expansion of the Mexican wolf habitat is expected as early as 
tomorrow.
    We have had 764,000 acres in New Mexico and Arizona 
recently designated critical habitat for the jaguar, although 
only a few male jaguars have been sighted in the United States 
over the last 60 years. We are awaiting the listings and 
designations for the Canadian lynx and the wolverine even 
though those species do not exist in our state.
    But that is just half the story. New Mexico has been a 
hotbed for land use designations. The most recent transgression 
is the Organ Mountain-Desert Peaks National Monument, 
encompassing some 550,000 acres in the southern part of the 
state bordering Mexico. Add to that the recent Rio Grande del 
Norte National Monument of 250,000 acres and the Rio Mora 
National Wildlife Refuge and Conservation Area of 800,000 
acres. There are also proposed designations for national 
monuments and wilderness expansion of 1.3 million acres.
    Each of these listings and designations provide the 
opportunity for Federal overreach and the violation of our 
rights as citizens. And there is no recourse. Federal agents 
are literally taking the food out of the mouths of rural 
families and Americans as a whole. I believe my civil or 
constitutionally guaranteed rights are violated by a local--if 
I believe my civil or constitutionally guaranteed rights are 
violated by a local or state agent, I have the right to my day 
in court where a judge and a jury will have the opportunity to 
hear both sides of the story. If those agents have crossed the 
line, they are held personally liable.
    Not so with Federal agents. Under current law, Federal land 
management employees hold the same immunity from the law as 
diplomats and are above any law. That is patently inequitable, 
can be discriminatory and violates the humanitarian ethics we 
strive to live by. There is no accountability for those who use 
the power of their employment against people like me.
    A report done by the U.S. Department of Agriculture in June 
of 2013 documents the fact that the U.S. Forest Service 
employees in Regions 2 and 3 routinely violate the civil rights 
of allotment owners in New Mexico and Colorado. The report 
states that a detailed corrective action plan must be developed 
within 60 days of receipt of the report. As of today, to my 
knowledge, nothing has happened.
    In closing, our government agencies are punishing natural 
resource users through unnecessary land use designations and 
restrictions prompted mainly by radical environmental groups. 
The preservationist mentality is making it difficult, if not 
impossible, for renewable resource users to make a living and 
is in effect extinguishing the customs and culture of our 
country's land-based people.
    Thank you for your time and attention. We look forward to 
working with you to resolve these issues so our families can 
continue to feed ourselves and the rest of the world.

    [The prepared statement of Mr. Lopez follows:]
Prepared Statement of Jose J. Varela Lopez, on behalf of the New Mexico 
                      Cattle Growers' Association
    Chairman Bishop, members of the committee, thank you for the 
opportunity to come before you today. My name is Jose Varela Lopez. I 
live on my family ranch southwest of Santa Fe, New Mexico. I am the 
14th generation of my family to do so and I pray daily that I will not 
be the last.
    I am president of the New Mexico Cattle Growers' Association, the 
executive director of the New Mexico Forest Industry Association, the 
immediate past chairman of the New Mexico Soil & Water Conservation 
Commission, vice chairman of the Santa Fe-Pojoaque Soil & Water 
Conservation District and a former Santa Fe County Commissioner.
    We are here today to talk about the bullying and abuse of citizens 
at the hands of the Federal Government. Unfortunately, this is a story 
that is all too familiar ranging from the IRS scandal, the mistreatment 
of veterans, the failure to protect dignitaries in foreign lands, the 
protection of private information, the collapse of security on the 
Mexican border, and most recently the failure of the CDC to protect 
their employees.
    You can add to that the treatment of Americans by the U.S. Forest 
Service, the U.S. Fish & Wildlife Service, the Bureau of Land 
Management, the U.S. Army Corps of Engineers and others. I am not here 
to tell you that every employee of these agencies is rogue, but I can 
tell you that the agencies are permeated with employees that wantonly 
violate the rights of the rural citizens of this country and their 
small businesses, entities that provide economic stability to the 
majority of the counties in our great Nation.
    As Cattle Growers' President, we are dealing daily with individual 
and collective efforts to remove families like mine from the land. The 
worst part is that we have no recourse.
    New Mexico has been a hot spot not only for catastrophic wildfires 
resulting from the lack of management by Federal agencies but also for 
species listings which affect natural resource users.
    Endangered species ``protection'' is the biggest culprit. At the 
moment the Fish & Wildlife Service is considering critical habitat for 
the lesser prairie chicken, the New Mexico meadow jumping mouse and two 
varieties of garter snakes. Expansion of the Mexican wolf habitat is 
expected as early as tomorrow. We have had 764,000 acres in New Mexico 
and Arizona recently designated critical habitat for the jaguar 
although only a few male jaguars have been sighted in the United States 
over the last 60 years. We are awaiting listings and designations for 
the Canadian lynx and the wolverine even though those species do not 
exist in our state.
    Additionally, the Fish & Wildlife Service is taking their power to 
a whole new level directing their employees in Region 8 NOT to follow 
the current law, but rather to direct their resources to a program 
created by a secretarial order issued in December 2010. We have not yet 
located similar orders for the rest of the Nation, but are confident 
they are out there.
    But that is just half the story. New Mexico has been a hot bed for 
special land use designations. The most recent transgression is the 
Organ Mountains/Desert Peaks National Monument encompassing some 
550,000 acres in the southern part of the state bordering Mexico. Add 
that to the recent Rio Grande del Norte National Monument of 250,000 
acres and the Rio Mora National Wildlife Refuge and Conservation Area 
of 800,000 acres.
    There are also proposed designations for a national monument on 
Otero Mesa of up to a million acres, the La Bajada National Monument of 
about 130,000 acres, Hondo/Columbine Wilderness at 60,000 acres, Pecos 
Wilderness expansion of approximately 120,000 acres and the transfer of 
the 89,000 acre Valles Caldera National Preserve from a multiple use 
property to the National Park Service. Add to that existing wilderness 
designations and wilderness study areas of 2.8 million acres and 4.6 
million acres of inventoried roadless areas, areas of critical 
environmental concern, special management areas and national 
conservation areas.
    In my own case, the BLM has been buying up private lands near my 
family ranch within the boundaries of an Area of Critical Environmental 
Concern that they designated as part of their Resource Management Plan. 
They now refer to our ranch as an in-holding, meaning that we are now 
surrounded by federally managed land and ostensibly the next ``willing 
sellers.'' What this designation has done is de-valued our land and 
effectively prohibits any type of future development on the ranch that 
is not consistent with the BLM's Area of Critical Environmental 
Concern. My takings protest to their headquarters was to no avail.
    Each of these listings and designations provide the opportunity for 
Federal overreach and the violation of our rights as citizens. And 
there is no recourse. Federal agents are literally taking the food out 
of the mouths of rural families and Americans as a whole.
    If I believe my civil or constitutionally guaranteed rights are 
violated by a local or state agent, I have the right to my day in court 
where a judge and/or a jury have the opportunity to hear both sides of 
the story. If those agents have crossed the line, they are held 
personally liable. Not so with Federal agents.
    Under current law, Federal land management employees hold the same 
immunity from the law as diplomats, and are above any law. That is 
patently inequitable, can be discriminatory and violates the 
humanitarian ethics we strive to live by. There is no accountability 
for those who use the power of their employment against people like me.
    A report done by the U.S. Department of Agriculture in June of 2013 
documents the fact that U.S. Forest Service employees in Regions 2 and 
3 routinely violate the civil rights of allotment owners in New Mexico 
and Colorado. The report states that a detailed Corrective Action Plan 
must be developed within 60 days of receipt of the report. As of today, 
to my knowledge, nothing has happened.
    The hierarchy of the Forest Service and the BLM is such that it 
seems nearly impossible for there to be justice for natural resource 
users. In the case of the Forest Service there is no recourse. A 
district ranger is generally the prosecution, judge, jury and 
executioner. Decisions go up the chain of command, but are rarely 
overturned.
    The BLM does provide at least some way to appeal to higher levels, 
but allotment owners go to those higher levels at their own peril 
because retaliatory action at the field level is a real and constant 
threat.
    In closing, our Government agencies are punishing natural resource 
users through unnecessary land use designations and restrictions, 
prompted mainly by radical environmental groups. This preservationist 
mentality is making it difficult if not impossible for renewable 
resource users to make a living, and is in effect extinguishing the 
customs and culture of our country's land based people. Besides, how do 
you preserve a renewable resource?
    Thank you for your time and attention. We look forward to working 
with you to resolve these issues so our families can continue to feed 
ourselves and the rest the world.

Attachments

                              ATTACHMENT 1

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            ATTACHMENT 2

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            ATTACHMENT 3
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



.epsConsecutive years of reduced funding for the Ecological Services 
Program have had a meaningful impact in Region 8. Workload associated 
with sections 4, 7, and 10 of the Endangered Species Act (ESA) is 
greater than our resources can address. To compound this problem, we 
anticipate the demand for ESA permitting, listing, and recovery work 
will increase in the coming years as the housing market improves, 
natural resource needs increase, and listing petitions rise. We expect 
this increase in workload to occur while renewable energy permitting 
remains a high priority for the Administration and Department of 
Interior. Given decreased staff resources and budgets, it behooves us 
to craft a strategy for prioritizing workload. Ultimately, we need a 
long-term strategy which may entail shifting resources throughout our 
region to ensure that staffing is commensurate with our priority 
assignments. As we formulate this long-term strategy, this memorandum 
will guide deployment of our resources in the short term.

Regionally, our top priorities include Department of Interior 
initiatives, preservation of health and human safety, and workload 
required to meet our legal mandates. Our highest priorities also 
include continued implementation of Landscape Conservation Cooperatives 
and the surrogate species concept. Specific priorities encompass Tribal 
trust responsibilities, Klamath water operations projects (including 
the hydroelectric settlement agreement), the Desert Renewable Energy 
Conservation Plan, the Bay-Delta Conservation Plan, the Central Valley 
Project Operations and Criteria Plan, issues of national security, 
projects related to flood prevention, projects related to fire risk 
reduction, and communicating with the public through external affairs. 
While these priorities comprise our regional focus, they do not provide 
the fine-scale sideboards to determine how offices should prioritize 
projects, and they do not all apply to each office within Region 8. 
Thus, each office will need to prioritize its own workload within their 
specific geographic priorities, and using surrogate species as the 
measure of success.

Among the remaining workload, we will focus on projects with a high 
conservation benefit. Whenever possible, we will place the highest 
priority on projects where big conservation gains can be achieved with 
relatively little effort through the solid work of our partners. When 
conservation value and programmatic priority are equal, projects will 
enter a queue to be addressed on a first-come, first-served basis. 
Streamlined, programmatic approaches (landscape scale) will be 
prioritized ahead of individual projects.

Action agencies and applicants can reduce permit processing time frames 
by producing well-prepared biological assessments and habitat 
conservation plans. For priority projects we cannot accomplish due to 
budget shortfalls, reimbursable dollars may enable us to hire temporary 
or term employees to work on the project from start to finish. 
Reimbursable dollars should only be accepted when a project would 
otherwise be a priority, but would go unfunded due to budget 
shortfalls.

Based on limited staff resources, we anticipate that we will not be 
able to meet regulatory time frames with some degree of frequency. This 
includes ESA section 7 time frames for issuing biological opinions (135 
days) and time frames for issuing ESA section 4 findings (e.g., 90-day 
findings and 12-month findings). Finally, there are a number of items 
we simply won't be able to do. These items are discussed below, by 
Ecological Services Program.
Section 7 and Section 10
Our primary focus will continue to be Departmental and agency 
priorities, as well as projects where we foresee having the biggest 
conservation benefit. Departmental and agency priority projects include 
the DRECP, high-profile renewable energy projects, Klamath, BDCP, and 
OCAP as well as projects necessary for health and human safety or 
national security and those for which we have court-ordered or 
settlement obligations. Among section 10 projects, we will prioritize 
those regional HCP development efforts for which we think the 
applicants are committed to expeditiously completing the plan and which 
are most promising in terms of positive conservation outcomes. Our 
section 7 priorities will focus on those projects that are designed 
with species conservation in mind and projects where we can achieve the 
greatest conservation outcome for the resources expended in working on 
the project. We will pursue programmatic consultations if there are 
expected long-term conservation and workload benefits.

To focus our efforts and attention on priorities, we foresee rarely or 
not doing Safe Harbor Agreements, general technical assistance, and 
CCAAs and CCAs. We will step away from the lead role on most intra-
Service consultations for non-Ecological Services programs. Those 
programs have been delegated the authority to complete their own 
section 7 consultations; we are committed to providing those programs 
with the tools they need to support their own determinations.

As the economic recovery continues, we anticipate that HCP and 
consultation workload associated with urban development will increase. 
We must be prepared to prioritize projects. We will not be able to 
complete all projects in a timely manner. Sometimes our partners have 
assisted with funding, which helps us complete these requests in a more 
timely manner (streamlined MOU with FS, agreements with Caltrans and 
the Corps). To enable Federal land management agencies to reduce the 
risk of catastrophic wildfire, we will continue to engage these 
partners on fire-related consultations. We have recently reaffirmed our 
commitment to the Streamlined Consultation process in the Northwest 
Forest Plan area, and will continue to seek consensus and efficiencies 
in these consultations.
Listing and Recovery
Our primary (and perhaps only) focus will be on meeting court-ordered 
and settlement deadlines for findings, including findings for 
reclassifications. We will also put resources toward completing 
litigation-driven recovery plans, and for other recovery plans we will 
continue to implement our work activity guidance for FY13-FY17, 
ensuring that the pace of plan development is commensurate with 
staffing levels. Recovery implementation will be focused on critically 
imperiled species and will be primarily in the form of Service staff 
working with partners to identify and fund recovery actions.

With few exceptions, we do not plan to carry out the following 
activities: uplisting rules, downlisting rules, post-deli sting 
monitoring plans, petition responses, CNORs, non-MDL findings and 
proposed rules, or recovery plan revisions. Five-year reviews will not 
be done, although abbreviated reviews may be completed if sufficient 
resources are available.
Contaminants
Our main priority will be maintaining spill response planning and 
preparedness capabilities with our field offices as well as our Federal 
and State partners. Another priority will be to ensure new case 
development and support in our Natural Resource Damage Assessment & 
Restoration (NRDAR) program. For restoration activities of our on-going 
existing NRDAR cases, implementation and support will continue as these 
funds are non-appropriated and derived from settlements.

With the exception of our current On-Refuge Investigation program 
activities, all contaminant investigation activities are no longer 
being implemented (unless funding/support is provided to us from our 
partners or stakeholders). In addition, technical assistance provided 
on contaminant issues to other Service Programs (i.e., Consultation, 
Recovery, Listing, Refuges, Fisheries, etc.) will be significantly 
reduced. Some technical assistance may be provided on a case-by-case 
basis for high-priority issues, and in such cases cost-sharing with the 
requesting program will be sought. Specific Service issues that will be 
affected include:

    <bullet> Clean Water Act regulatory reviews (water quality 
            standards, TMDLs, etc.)
    <bullet> Listing support reviews (five-factor analyses, 90-day 
            reviews, deli sting, etc.)
    <bullet> Mining-related NEPA reviews
    <bullet> Pre-acquisition Environmental Site Assessments (Level II 
            and Level III)
    <bullet> Recovery support reviews (recovery plans, 5-year reviews, 
            etc.)
    <bullet> Refuge Pesticide Use Proposal reviews
    <bullet> Refuge Cleanup reviews (EECAs, PASIs, etc.)

Conservation Planning Assistance
We will continue to focus our efforts on Departmental and agency 
priorities, including the Secretarial Determination for the Klamath 
settlement agreement, and water operations associated with the Klamath 
hydroelectric facilities and the Central Valley Project Improvement 
Act. Our field offices have been and will continue to rely on 
reimbursable funding from our Federal partners for work on Fish and 
Wildlife Coordination Act reports. It is imperative that these funds be 
sufficient to fully support staff, and we will prioritize projects 
based on the amount of funds, Departmental and agency priorities, and 
conservation benefit. We will continue work on FERC reviews insofar as 
the available funding allows, which will likely entail stepping away 
from involvement with some FERC projects (except Klamath).

We will not or rarely be reviewing and commenting on other agencies 
NEPA documents, unless we have agreed to be a Cooperating or 
Participating agency. Our involvement with Bald and Golden Eagle Act 
permitting will be minimal, and will largely depend on the priority 
given to individual projects.

cc: R8 All ES Project Leaders

                                 ______
                                 

    Mr. LaMalfa. Thank you. Real quick, 14 generations, what 
year does that go back to?
    Mr. Lopez. 1600, sir.
    Mr. LaMalfa. Incredible. OK, thank you. Mr. Mike Lucero? 
OK, we are changing the order, I am sorry. We need to go to Mr. 
Garrett VeneKlasen. Is that in the ball park, VeneKlasen? Go 
ahead and say it your way so we will pronounce it correctly.
    Mr. VeneKlasen. It is Garrett VeneKlasen.
    Mr. LaMalfa. VeneKlasen, thank you. Alright, 5 minutes, 
please.

  STATEMENT OF GARRETT O. VENEKLASEN, EXECUTIVE DIRECTOR, NEW 
        MEXICO WILDLIFE FEDERATION, SANTA FE, NEW MEXICO

    Mr. VeneKlasen. Mr. Chairman and members of the committee, 
my name is Garrett VeneKlasen. I am a native New Mexican, and I 
have spent my entire life hunting and fishing throughout the 
Southwest. Before taking my position with the New Mexico 
Wildlife Federation, I was the Southwest Director for Trout 
Unlimited, working on cold water restoration and public land 
protection projects, including Rio Grande del Norte and the 
Organ Mountains-Desert Peaks designations throughout New 
Mexico, Arizona and Colorado.
    Hunting and fishing combined contribute $93 billion to the 
Nation's GDP. It is a massive industry. Like all western 
states, hunting and fishing in New Mexico is a thriving and 
rapidly growing, yet sustainable industry that enhances and 
greatly diversifies rural economies west-wide.
    Eighty-nine percent of New Mexican sportsmen and women 
utilize public lands to hunt and fish. And even though we are a 
sparsely populated state, New Mexican sportsmen spend $579 
million, support $258 million in salaries and wages and 
contribute $58 million to state and local taxes and support 
7,695 jobs annually.
    It is also important to note that in New Mexico, hunting 
and fishing are more than just sport. They are the oldest of 
our core cultural land use values with a 10,000-year-old 
tradition. This vibrant industry and our cultural values and 
lifestyle are dependent upon two things: expansive, viable 
habitat for our fish and wildlife and large undeveloped tracts 
of public lands in which our rapidly growing community can 
recreate.
    A tiny spring and its riparian area in the Lincoln National 
Forest known as Agua Chiquita has gotten a lot of attention 
lately. The Agua Chiquita offers crucial riparian habitat used 
by elk, which are native to the area, turkey and other wildlife 
for water, food and breeding. The riparian areas have been 
fenced with gaps for cattle for more than 20 years to mitigate 
livestock damage. Such cattle exclosures have been used by 
virtually all state and Federal land management agencies to 
protect critical habit for more than 50 years west-wide.
    The original barbed-wire fence around Agua Chiquita was cut 
so often that the Forest Service replaced it with a welded pipe 
rail fence. It is 4 feet high and roughly encompasses 23 acres 
of land. It encloses less than 23 acres of riparian habit 
within a 28,000-acre grazing allotment.
    It was not the Forest Service that paid for the fence. 
Hunters and anglers did using $104,000 from New Mexico's 
Habitat Stamp Program, which is paid for with hunter and 
fishing license dollars, and $11,000 from the New Mexico 
members of the National Wild Turkey Federation. It was a 
sportsmen-generated project that was designated by the 
Southwest Habitat Stamp Program. It was not generated by 
extreme environmentalists or anybody else.
    Some of those who were offended by the Agua Chiquita 
project said water rights were being ignored or taken away, but 
the U.S. Forest Service told our organization that when they 
checked with the New Mexico agency that monitors water rights, 
the Office of the State Engineer, that the database showed that 
the only recorded water rights in that portion of Lincoln 
National Forest belonged to the U.S. Forest Service.
    This issue of habitat protection goes far beyond the 
Lincoln National Forest. It extends wherever important wildlife 
habitat is threatened in New Mexico and other states. Stream 
exclosure projects offer tremendous benefit for game and non-
species alike, both aquatic and terrestrial.
    Outdoorsmen like me are primarily interested in trout, elk, 
turkey and other game, but what is good for little creatures 
like meadow jumping mice are also great for trout, waterfowl, 
upland birds and big game, for which New Mexico is known 
worldwide.
    The discussion in New Mexico, and now in this hearing, is 
focused on fencing projects around critical wildlife habitat. 
But the discussion should broaden and acknowledge the impact of 
livestock grazing on our western landscapes and watersheds. 
Hundreds of years of grazing have transformed entire western 
landscapes and compromised the function of our water head. This 
is a fact, and it is high time that both state and Federal 
policymakers and land management agencies recognize this.
    Grazing practices affect the fish and wildlife, but the 
general public has also felt the impact. Our watersheds have 
been degraded and they are dysfunctional. And the downstream 
users, municipalities and larger agricultural interests, are 
the ones that are really feeling the brunt of this. Our western 
watersheds are broken and need to be fixed.
    The good news is that our watersheds are restorable and 
that sustainable grazing can and should continue alongside 
proactive habitat restoration. But as a Nation, we need to 
start thinking of better ways to protect and restore degraded 
watersheds and riparian habitat while at the same time allowing 
our grazing community to thrive. Sportsmen have already shown 
they are ready to chip in and do our share.
    The Agua Chiquita incident reflects the feeling by some 
that Federal agencies, such as the Forest Service and BLM, have 
somehow overstepped their authority. They have not. They are 
abiding by law laid down through 200-plus years of democratic 
action. Sportsmen have had to learn to share our public lands 
and to take responsibility for protecting them. We urge others 
who use and profit from our Federal public lands to do the 
same.
    Thank you very much.

    [The prepared statement of Mr. VeneKlasen follows:]
 Prepared Statement of Garrett O. VeneKlasen, Executive Director, New 
                       Mexico Wildlife Federation

    Chairman Rob Bishop, Ranking Member Raul M. Grijalva, members of 
the committee: thank you for giving me the opportunity to present my 
perspective on ``Threats, Intimidation and Bullying by Federal Land 
Managing Agencies,'' especially as it pertains to cattle exclosures on 
Federal lands in New Mexico.

    My name is Garrett VeneKlasen. I am a native New Mexican and have 
spent my entire life hunting and fishing throughout the Southwest. 
Before taking my current position as the Executive Director of the New 
Mexico Wildlife Federation, I was the Southwest Director for Trout 
Unlimited, working on coldwater restoration and public land protection 
projects throughout New Mexico, Arizona and Colorado.

    Hunting and fishing combined contribute $93 billion to the Nation's 
Gross Domestic Product. Like all western states, hunting and fishing in 
New Mexico is a thriving and rapidly growing yet sustainable industry 
that enhances and greatly diversifies rural economies west wide.

    Eighty-nine percent of NM sportsmen and women utilize public lands 
to hunt and fish. New Mexico sportsmen alone spend $579 million, 
support $258 million in salaries and wages, contribute $58 million to 
state and local taxes and support 7,695 jobs annually (Outdoor Industry 
Association, Boulder, Colo.)

    It is also important to note that in New Mexico, hunting and 
fishing are more than just ``sport.'' They are the oldest of our core 
cultural land use values with a 10,000-year tradition.

    This vibrant industry and our cultural values and lifestyle are 
dependent upon two things: expansive, viable habitat for our fish and 
wildlife and large, undeveloped tracts of public lands in which our 
rapidly growing community can recreate.

    The tiny spring and its riparian area in Lincoln National Forest 
known as Agua Chiquita have gotten a lot of attention lately. A small 
group of ranchers claims the U.S. Forest Service is trampling their 
rights. They make it sound like they're the victims, but there's far 
more to the story.

    The Agua Chiquita offers crucial riparian habitat used by elk, 
turkey and other wildlife for water, food and breeding. The riparian 
area has been fenced--with gaps for cattle--for more than 20 years to 
mitigate livestock damage. Such cattle exclosures have been used by 
virtually all state and Federal land management agencies to protect 
critical habitat for more than 50 years.

    The original barbed-wire fence around the Agua Chiquita was cut so 
often that the Forest Service replaced it with a welded pipe-rail 
fence, 4 feet high and roughly a mile long on both sides of the stream. 
It encloses less than two dozen acres of riparian habitat within the 
28,000-acre grazing allotment. Cattle have access to the stream through 
two ``water lanes'' built into the fence.

    But it wasn't the Forest Service that paid for the fence. Hunters 
and anglers did, using $104,000 from New Mexico's Habitat Stamp Program 
and another $11,000 from New Mexico members of the National Wild Turkey 
Federation. It was sportsmen in southeast New Mexico that manifested 
the Agua Chiquita project and made it a top priority because riparian 
habitat is a precious thing in our arid state.

    Some of those who were offended by the Agua Chiquita project said 
water rights were being ignored or taken away. But the U.S. Forest 
Service told our organization that when they checked with the New 
Mexico agency that monitors water rights, the Office of the State 
Engineer, the database showed that the only recorded water rights in 
that portion of Lincoln National Forest belonged to the U.S. Forest 
Service.

    There were also complaints that the cattle in that grazing 
allotment were being denied water. But in fact, there are two places 
along the Agua Chiquita project where cattle can reach the stream. The 
Forest Service has excellent photographs if you would like to see them 
for yourselves.

    But this issue of habitat protection goes far beyond Lincoln 
National Forest, however. It extends wherever important wildlife 
habitat is threatened, in New Mexico and other western states.

    Stream exclosure projects offer tremendous benefits for game and 
non-game species alike, both aquatic and terrestrial. Outdoorsmen like 
me are primarily interested in trout, elk, turkey and other game. But 
what's good for tiny creatures like the meadow jumping mouse is also 
great for the trout, waterfowl, upland birds and big game for which New 
Mexico is known worldwide.

    The discussion in New Mexico and now, in this hearing, has focused 
on fencing projects around critical wildlife habitat. But perhaps the 
discussion should broaden and acknowledge the impact of outdated 
livestock grazing practices on our western landscapes and watersheds. 
Hundreds of years of overgrazing has literally transformed entire 
western landscapes and greatly compromised the function of our 
watersheds. This is a fact and it's high time both state and Federal 
policymakers and land management agencies recognize and address this 
issue head on.

    Grazing practices have affected fish and wildlife, but the general 
public has also felt the impact in many western states. Degraded 
watersheds--especially upland watersheds--do not properly hold and 
dependably deliver our precious and limited water reserves. In the end, 
the biggest losers are municipalities and downstream agricultural 
interests who can and should be receiving more water if the upstream 
systems functioned as they should. The economic impacts to these water 
dependent economies--especially in times of extreme drought as we're 
seeing in much of the West--should be carefully considered by this 
committee.

    The good news is that our watersheds are restorable, and that 
sustainable grazing can and should continue alongside proactive habitat 
restoration. But as a Nation we need to start thinking of better ways 
to protect and restore degraded watersheds and riparian habitat while 
at the same time allowing our grazing community to thrive. Sportsmen 
have already shown they are ready to chip in and do our share.

    It is ironic that the title of this hearing is ``Threats, 
Intimidation and Bullying BY Federal Land Managing Agencies.'' I would 
ask this committee to also consider ``Threats, Intimidation and 
Bullying OF Federal Land Managing Agencies,'' by certain members of the 
public lands grazing community as well as by select county 
policymakers. More than once I have witnessed county commissioners 
publicly verbally abuse and ridicule land managers in their meetings.

    I believe the tension under discussion today boils down to one 
thing: communication. I suspect that if Federal land managers were 
treated with more respect, the public lands grazing community, county 
officials and the land managers could start working out their issues on 
a local, mutually respectful level.

    The Otero County Commission's actions and behavior certainly has 
not represented the best interest of their sportsmen constituents, but 
instead follows a flawed ideological agenda of rejecting America's 
public lands legacy. It is also contrary to the best of human traits--
collaboration and cooperation.

    Public lands are democracy in action. They are worth fighting for. 
They are an American birthright that belongs equally to all citizens 
both born and unborn. Proximity bestows neither privilege nor special 
entitlements, only a heightened responsibility of localized 
stewardship.

    But as misguided incidents like the Agua Chiquita in New Mexico, 
the Cliven Bundy standoff in Nevada and the ATV trespass fiasco in 
Utah's Recapture Canyon show, there is a move afoot to ignore these 
fundamental public property rights. To some, it may not matter. To 
public lands sportsmen and women, it does.

    The Agua Chiquita incident reflects the feeling by some that 
Federal agencies such as the Forest Service and the BLM have somehow 
``overstepped'' their authority. They haven't. They are abiding by the 
law laid down through 200-plus years of democratic action. Sportsmen 
have had to learn to share our public lands and to take responsibility 
for protecting them. We urge others who use and profit from our Federal 
public lands to do the same.

Attachment

                               ATTACHMENT
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             

    Mr. LaMalfa. Thank you.
    OK, Mr. Mike Lucero, you are the closer here, so 5 minutes.

  STATEMENT OF MIKE LUCERO, RANCHER, JEMEZ PUEBLE, NEW MEXICO

    Mr. Lucero. Mr. Chairman, members of the committee, I 
appreciate your time. First off, my name is Mike Lucero. I was 
born and raised in New Mexico as well as my family. My family, 
friends and I ranch in northern New Mexico, as do many.
    I am here today to inform you on some of the issues that we 
are having with our Federal agencies, the Forest Service and 
the Fish and Wildlife Service.
    We feel that when it comes to these agencies, they take the 
``take it or leave it'' stance with us, as they have now for 
many years due to the budget issues, low staffing and lack of 
training, to name a few. But the most recent one that I will 
not stand for is, ``This is to avoid a lawsuit, that is why 
this is happening to you.'' By saying that, I feel that they 
are telling us, ``This is the land of opportunity until 
somebody does not like what you are doing.''
    We have always wanted to work well with the Forest Service, 
and I think that our records will show that. And even now, we 
are respectfully disagreeing with what is going on though we 
are growing tired of trying to get answers and talk about 
compromise and being shut down because of the threat of lawsuit 
by a non-governmental agency.
    Remember, our tax dollars are being spent to keep out 
cattle that have been grazing--that occurs only 45 days a year 
in these areas. And to my knowledge, are not the only grazing 
animals that use this area. And by doing so, we feel that our 
rights are being violated. Cattle have been grazed on this land 
for generations. Forgive me, my emotions, because this is dear 
to me, OK, for generations, long before the Forest Service took 
over.
    The Fish and Wildlife talk about ecosystems. How long does 
something have to be in place for it to become part of the 
ecosystem? Is 100 years not part of that? And how does it 
change the ecosystem by changing what is going on now and what 
has been for over 100 years?
    Somehow I feel that they have not done their studies and 
found an effective way to spend this money that has somehow 
been set aside for New Mexico jumping mouse habitat.
    Now, we have been asking for compromise. We have been 
wanting to work out alternatives to what is going on up there. 
The ranchers there are tired of asking questions and never 
getting answers. Every time we have a question, there is always 
a thread of ``if you question what is going on, you are going 
to lose your permits.''
    The majority of these men that are ranching in these areas 
are elderly. This is their sole source of income. And these 
agencies need to realize that when this--when people come to 
this table, and they sit across from the Forest Service or the 
Fish and Wildlife and they ask and answer, they expect the 
respect that we give them when we do our daily job up there and 
manage the way we have been for 100 years. The problem is we do 
not get answers ever. And if we question more than we are 
supposed to, we are always threatened.
    Now, I sit before you today to let you know what is going 
on up there. And I hope that we can come to some kind of 
agreement on what needs to be done and move forward with it 
because enough is enough when it comes to bullying people that 
have been on this land for generations. Remember, this was a 
land grant before the Forest Service took it over. And my 
family ultimately has been the stewards of this land for as 
long as they have. And the reason we are in the situation we 
are now with poor watershed and wildfires is mismanagement by 
the people that are taking care of it now, the Federal 
agencies.
    Thank you.
    [The prepared statement of Mr. Lucero follows:]
     Prepared Statement of Michael Lucero, Jemez Pueble, New Mexico
    Mr. Chairman and members of the committee, thank you for allowing 
me to tell you what is going on in New Mexico at the hands of the U.S. 
Forest Service and the U.S. Fish & Wildlife Service.
    My name is Michael Lucero, I was born and raised in New Mexico. I 
am an allotment owner in the Santa Fe National Forest, as is my father. 
I currently serve on two boards; the Jemez Valley School Board of 
Education and the Union Board at work.
    My family and I ranch on the Santa Fe National Forest, and have for 
many generations. My great grandfather started off on foot with 1,000 
head of sheep when the Forest Service was not even in existence. This 
was then passed down to my grandparents, then to my father.
    Our allotment originally started as the San Diego Land Grant which 
eventually was taken by the government and became Forest Service land. 
Land grants were issued to settlers by the king of Spain when the land 
was part of Mexico. The land was taken from us to create the 
bureaucracy in place today. Now that government is driving us 
completely from the land.
    We feel that the government has taken away and are still trying to 
take away what is rightfully ours, from our grazing rights to our water 
rights. It seems that every year it gets more difficult to continue 
with our way of life and keep our heritage alive as the government is 
continually putting obstacles in our path.
    My mother's family was driven out of the logging business when the 
Spotted Owl became an endangered species. They left the valley that 
they grew up in to find work elsewhere.
    Since the drought took over New Mexico, the Forest Service has used 
the ``drought'' to reduce our herd numbers. We always did as we were 
asked and cut our herds. Even though we cut our numbers for a 
particular year, we still paid the full payment due for the permit. 
When we looked at the drought maps and the formula they were using with 
the Forest Service, we were able to prove to them that their formula 
was incorrect. We were then allowed to come in with full numbers for 
our herds. Now that that issue has been resolved, here we are again 
with another issue, an endangered species threatening to shut us down.
    Two years ago in 2011, our range conservationist gave us a handout 
which talked about the New Mexico Meadow Jumping Mouse. In that meeting 
he stated that if it was listed, that it would be the end of grazing on 
Forest Service Lands.
    This mouse hibernates about 9 months a year and requires a 24-inch 
stubble height of dense grass. If we were not already providing the 
appropriate conditions, how can the mouse be there?
    Another puzzling fact is that the mouse can apparently detect 
property lines. The proposed critical habitat goes right to the fence 
line to the Valles Caldera National Preserve and stops.
    That was all we heard on the issue until the fall of 2013. The 
comment period in the Federal Register would open and the Forest 
Service told us how important it was to comment. That being said we did 
make comments when the notice was posted in the Federal Register. We 
then were called into another meeting with the Forest Service where 
they told us that they had no control over what was going happen if it 
was listed.
    The local ranchers had many questions about the New Mexico Meadow 
Jumping Mouse, like where it was found. How many were found? What would 
be done to protect it and where it would be done? The Forest Service 
had no answers about the mouse. They told us that the Fish & Wildlife 
Service made all those decisions.
    We then asked the Forest Service to call a meeting with the Forest 
Service and the Fish & Wildlife Service. In that meeting the Fish & 
Wildlife Service told us that the listing of the mouse would not affect 
grazing and that the Fish & Wildlife Service had not told the Forest 
Service to put up fences of any kind; we were told that all the Fish & 
Wildlife Service does is list the species.
    The Forest Service was present at this meeting. Eric Hines from the 
Fish & Wildlife Service told us that we would still have our 
opportunity to be involved in a Section 7 consultation. We asked the 
Forest Service about that and they had no clue what we were talking 
about. All this being said we have been in the dark since day one.
    The science used to list the mouse is disputable. Why are there no 
lists of areas that were studied? And if there is a list, why was it 
not provided to us when we asked for it? In the meeting with the Forest 
Service, they stated that the only reason for the fence was to avoid 
being sued by the WildEarth Guardians.
    Why is the Forest Service making these decisions that will affect 
the local economy, the ranching industry and the culture, and well 
being of rural communities? It appears that they are not taking into 
account the local comments on these issues based on a lawsuit by a non-
governmental party.
    Since when is America not a democratic country? Why is the Federal 
Government not giving every citizen its due process on issues that 
affect so many different aspects of their lives? In every meeting with 
the Forest Service, they are always telling us that we are closer to NO 
RANCHING ON FOREST SERVICE LANDS! When we asked how we can work out a 
compromise with the Forest Service on issues like this, the Forest 
Service personnel always answer, ``It's not me, I was told that this is 
the way the upper staff wants it.''
    I personally asked about alternatives fencing us off water and then 
out of our pastures but always hit road blocks, such as, no money or 
more studies needed. But somehow there is now money to build fences? At 
about $20 per linear foot, where did the money come from and why now, 
when we have been asking for alternatives for the past year. The 
expense of putting up this fence does not make sense since we only 
graze our cattle 2 months out of the year in these areas.
    We were told in the meeting with the Forest Service and Fish & 
Wildlife Service that nothing would be done without first the NEPA 
process and a meeting with all of the ranchers and the Forest Service 
to come up with a plan together. Next thing we hear is that they are 
going to put up an 8-foot fence spanning 117 acres to keep animals and 
humans out of the critical habitat for the mouse. That is just my 
allotment. There are 10 others who are being similarly affected. Seems 
that we skipped a couple of steps and their words are just empty 
promises. Moving forward like this is a clear picture of GOVERNMENT 
BULLYING. They tell us one thing and do the opposite. They are never 
truthful with us and we are living in constant fear of what comes next.
    After the media got involved around the 4th of July camping season, 
the Forest Service changed their tune. They are now proposing a 5-foot 
fence covering the same area that may impact dispersed camping. Why are 
we told about an 8-foot fence and 2 weeks later it becomes a 5-foot 
fence? Why are humans and wildlife, particularly elk, not harmful to 
the mouse?
    The money being used to erect these fences is from taxpayers. That 
being said, it appears that the Forest Service is using my tax dollars 
to fence my family and numerous other families OUT OF BUSINESS! Tell me 
how that makes sense? Why would our concerns and comments not be heard, 
when we have been using these lands since it was our ancestors Land 
Grant?
    Every time that there are compromises to be made, it is always us, 
the ranchers, who have to compromise on our end. We are told that if we 
do not compromise and agree with the decisions being made by the Forest 
Service that we risk losing our grazing allotments.
    How are we supposed to work with the Forest Service when we all 
know that they do not listen to our concerns? We want to work with the 
Forest Service for the benefit of us all. It is in our best interest to 
take care of the land and help manage it properly. If we were not 
managing properly, then how is it that my family has been in business 
for over 100 years? It's because we love the land and our tradition and 
hope to pass it down for many generations to come.
    I feel that Agriculture is very important to America, if you've 
seen the price of beef in the grocery stores lately, the more they cut 
herds the higher the price goes up for all American People.
    I don't get how the environmental groups work with the Federal 
Government; what gives them so much power that they dictate what the 
Federal Government does with other people that use government lands? If 
you look at the WildEarth Guardians Web site, it states exactly what 
the U.S. Forest Service is going to do.
    They want to protect one endangered spices and do everything in 
their power to get it done, they don't take into consideration that 
land management is so important for example: the Spotted Owl that was 
listed years ago. Many people (most of my family) from the logging 
industry lost their jobs which cased them to move out of the area to 
find work.
    Through the years, now from the lack of managing the land correctly 
the Santa Fe National Forest is overgrown and we have had several 
forest fires with so much fuel they are out of control and the American 
Tax Payers spend so much more money on these forest fires than they 
would have if the land was managed properly. People would still have 
jobs. The Spotted Owl would not have a burned forest and not only that 
species, but all the other listed species on the Endangered Species 
List. In the ecosystem how do you protect one species and throw it off 
for the other endangered species?
    Fencing off the river would dramatically affect our culture, 
economy, and our local community. Our local community businesses thrive 
on the business generated by ranchers, campers, fishermen, hunters and 
hikers. If we fence off all of the proposed rivers, it would have a 
detrimental effect on these local businesses.
    I don't understand how people from other states get jobs at these 
Federal agencies that don't understand the way you manage a ranch in 
New Mexico. The way we manage a ranch in northern New Mexico is 
completely different than you would manage a ranch in a place like 
Wyoming or Montana.
    The ranchers in this area don't have a lot of money; there are not 
a lot of big cattle operations like everyone thinks there are. I bought 
my own cattle and allotments and I bought it for a reason. It was an 
investment to put my two kids through college and so I could have 
something to hand over to my children that they have known their whole 
lives. My father inherited his small operation from my grandpa, which 
helps pay for my elderly grandmother's care: medical insurance, daily 
caretaker, and anything she may need. Because of these cows, grandma is 
not in a state paid or Federal paid nursing home. This is how we take 
care of her, it's how our community works; this is a part of what we do 
as a ranching family and community.
    It saddens me to sit in a meeting where the head Forest Ranger 
(Linda Riddle) is telling us ``I could care less if they got rid of all 
the cows on the Forest, that would make my job that much easier.''
    This statement coming from a Federal Government employee! Robert 
Trujillo, Deputy Director of the USFS stated in a local newspaper that 
he feels that the forest is overgrazed, however if the USFS was to pull 
the allotment management records, it would show that this is and never 
has been the case. The areas used by the ranchers are NOT OVERGRAZED! 
We have never been in violation of the Federal regulations governing 
ranching.
    The opposite is true for the Forest Service personnel because they 
are not following the Federal regulation that says they are to protect 
the heritage and culture of ranching families that are allotment owners 
on the USFS. The Federal regulation states that they are to always get 
input from the allotment owners when making decisions that would affect 
them.
    Rumors are floating in our communities that the Forest Service is 
planning to use eminent domain to obtain private land that is within 
what is believed to be jumping mouse areas. We cannot document them, 
but this is the fear we are living under.
    The government and environmental groups are making it almost 
impossible for us to do what we love (our culture/heritage). In my 
opinion cattlemen are the caretakers of the land, if it wasn't for 
cattle grazing these lands we wouldn't have an environment for a 
jumping mouse or most other creatures. We are the ones who manage the 
lands and wildlife also benefit from our watering systems.
    The media has accurately shown how our land looks. This is how we 
have taken care of this land, a part of our culture is an understanding 
that you have to take care of the land, in order for the land to take 
care you.
    We are trying to do the right thing, but what we see for doing the 
right thing is we better go along with this or you are going to lose 
your permits! Ultimately the government is losing its caretaker, 
because that's what we do.
    Thank you for your time. We pray that you can help us.

              Timeline on New Mexico Meadow Jumping Mouse

    <bullet> February 27, 2014--Official meeting about the NMNJM, the 
            Forest Service told us they were going to start the NEPA 
            process
    <bullet> March 4, 2014--The Forest Service told us NO NEPA; Forest 
            Service talked about the fence and taking 300 feet on each 
            side of the river
    <bullet> March 28, 2014--Forest Service sent letter on mouse 
            fencing
    <bullet> April 2, 2014--We called a meeting with the Forest Service 
            to ask questions
    <bullet> April 8, 2014--Meeting with the Forest Service; we looked 
            at other options, but no money
    <bullet> April 9, 2014--Meeting in El Rito NM with Cal Joyner; NO 
            ANSWERS
    <bullet> April 25, 2014--Meeting with the Forest Service and Fish 
            and Wildlife Service
    <bullet> May 9, 2014--Forest Service sends letter retracting the 
            March 28, 2014 letter
    <bullet> June 25, 2014--Meeting with the Forest Service; they 
            showed us a map of fencing areas and they told us about 
            categorical exclusion
    <bullet> July 2, 2014--Forest Service and Fish & Wildlife canceled 
            meeting
    <bullet> July 10, 2014--Received comment notices from Forest 
            Service

                                 ______
                                 

    Mr. LaMalfa. I want to thank you, Mr. Lucero. OK, we are 
still doing OK on time. Let's move to our first round of 
questions here. I will recognize myself for up to 5 minutes 
here.
    Let me come back to you, Mr. Lucero. In your dealings, you 
felt that decisions are made by Federal managers not because 
maybe it is the best practice or the most neighborly one but a 
fear of lawsuits by other outside sources. Could you dwell on 
that a little bit, please?
    Mr. Lucero. Exactly. We have asked--we have asked them, OK, 
``What is the alternative to putting a fence up that excludes 
cattle out of these riparian areas?'' And they said, ``If we do 
not put this up, we are going to be sued.''
    Mr. LaMalfa. By who?
    Mr. Lucero. By the WildEarth Guardians. And with their 
permission, I videotaped the meeting because I knew this was 
going in this direction. And for years, it has been. And I am 
fed up with it. So if anybody wants to question what was said 
by them, I have it on videotape.
    Mr. LaMalfa. You should put that on YouTube then.
    Mr. Lucero. Yeah, I guess.
    Mr. LaMalfa. It would be easily accessible.
    Mr. Lucero. But, yes, their answer is, ``The reason we are 
doing this is because we are going to be sued.'' As a Federal 
agency, that is not how you manage what is going on in this 
forest.
    Mr. LaMalfa. It is all too prevalent over a lot of the West 
where decisions are made by various entities, and I have run 
across it too.
    In my part of the state, there is becoming a larger and 
larger elk problem in northern California where people are 
looking for remedies, and they are not getting them. They are 
told, ``Hey, put up a fence, keep the elk out.'' Well, an elk 
is a very powerful animal. And so putting aside the idea of the 
expense of the fence or you having to change your operation for 
something that perhaps should be managed, how effective do you 
see fencing as far as just affecting an elk population and 
preventing elk grazing, for example?
    Mr. Lucero. The fence they originally proposed was 8-feet 
high, and it would exclude elk, cattle, hunting, fishing, 
hiking, everything. The Fourth of July weekend went by, and for 
some reason they came back to us with a letter. And I provided 
the letter to you guys. They came back to us with a letter, and 
now they are proposing a 5-foot high fence that would just 
exclude cattle. Now, tell me that makes sense when we are 
talking about 45 days worth of cattle grazing versus 365 days 
of elk grazing.
    Mr. LaMalfa. So the fences are not preventing over-grazing, 
it sounds like?
    Mr. Lucero. No. And to go back to the over-grazing, the 
term has been thrown around loosely. And I provided some 
pictures here. And if I could point to these pictures real 
quick, I would like to. This is in a drought. This is the 
actual meadow that we are talking about. This is in a drought 
before the rain started, and we have already grazed that 
pasture. And this is over-grazing to them.
    Mr. LaMalfa. This is post-grazing?
    Mr. Lucero. Yes. Also, I would like to add the fact that if 
we have over-grazed it, why have they never told us we have?
    Mr. LaMalfa. OK, thank you. I go to Mr. Dunn. What 
recommendations do you have to allow individuals to seek 
recourse for the abuses by some of these employees? Have you--
--
    Mr. Dunn. Mr. Chair, yes, I have. There is some proposed 
language that was part of my written testimony. One alternative 
is to make that an addition to the Civil Rights Act and 
essentially create a cause of action similar to a Section 1983 
civil rights claim. As you are probably aware, Section 1983 
claims can be brought against state and local authorities that 
exceed the law and harm somebody's individual rights. But that 
is not a remedy that is available to private citizens against 
Federal employees.
    One way to gain some accountability would be to make that 
kind of a cause to action available. And I honestly believe 
that it would act as a deterrent. I think if there was some 
accountability, and the Forest Service, the BLM had to think 
about the fact that their actions might cause liability, they 
might take a little bit more care in not abusing the law.
    Mr. LaMalfa. OK, thank you. I am going to come back on the 
second round. I will yield now and recognize Mr. Grijalva, our 
Ranking Member.
    Mr. Grijalva. Yes, thank you very much. Mr. Lucero, I want 
to thank you for your testimony. What are the disadvantages of 
not having the agencies that we are talking about here today is 
they cannot respond to some of the points that you make. And I 
think they need to be responded to. It is my understanding that 
nothing has been finalized because we asked about that, in 
particular up in northern New Mexico. I asked your Congressman 
about that, and the Forest Service said nothing had been 
finalized. Leaving that aside, but it would have been good to 
get a direct answer,----
    Mr. Lucero. Can I speak on that real quick?
    Mr. Grijalva. Let me finish my question, Mr. Lucero, and 
then you can----
    Mr. Lucero. OK.
    Mr. Grijalva [continuing]. Wrap it up. Breaks in the fence 
that would allow cattle to be able to go into those 23 acres, 
is it?
    Mr. Lucero. This is a completely different area----
    Mr. Grijalva. OK.
    Mr. Lucero [continuing]. That you are talking about.
    Mr. Grijalva. That is the other one?
    Mr. Lucero. Yes.
    Mr. Grijalva. Breaks in there so they could go--cattle 
could have access, the pumping of water even if it is 
necessary, those were two points that I think I had also heard 
in a letter that I received from one of your colleagues, one of 
the ranchers up there. And those are questions we are going to 
pursue with the Forest Service because there is no way to get 
an answer right now. You have your point of view and your 
opinion and what you taped. And I do not deny that, but I want 
to hear from the agency as to how they are working with and 
what mitigating steps they are making to try to draw something 
cooperative with the ranchers in the area because I think that 
is the important way to go.
    I know you will be advised that litigation is the only way 
to fly, but if this can be worked out cooperatively, I think it 
would be to the best benefits of everybody.
    So we will pursue with the agency the points that you 
brought up because I think they deserve answers. And I 
certainly want those answers as much as you do.
    Mr. Lucero. OK. I think I kind of gave you what you are 
asking for. Categorical exclusion is what they told us they are 
using on this, which does not give us our option for a NEPA or 
an environmental assessment. We have asked for that in an 
official letter.
    Mr. Grijalva. Well, see, that is the point. The agency 
being here, I would have asked those questions of the agencies.
    Mr. Lucero. Yes, well, I provided you the paperwork so you 
have it in front of you.
    Mr. Grijalva. Well, I would still need to the talk to the 
agency, Mr. Lucero,----
    Mr. Lucero. Yes, sir.
    Mr. Grijalva [continuing]. And get that point of view. 
Thank you. I was going to ask Mr. Dunn, the argument that I 
have heard you make is that the Federal grazing permits are, if 
I am not mistaken, a form of private property or should be 
recognized by the Federal Government?
    Mr. Dunn. Ranking Member, I was actually discussing water 
rights. I had not talked about whether or not grazing rights 
were private property.
    Mr. Grijalva. Is it in the written testimony? Well, I 
thought it was in your written testimony as well as we read it. 
Is it?
    Mr. Dunn. I believe all I discussed at this point was 
private water rights.
    Mr. Grijalva. But is it in your written testimony or is it 
not?
    Mr. Dunn. I do not believe it is, sir.
    Mr. Grijalva. Well, then that question is moot then if it 
is not in there, but if it is, we will get back to that 
question, OK? Because I think I am not the constitutional 
scholar that you appear to be, but I do have a constitutional 
question.
    Mr. Dunn. OK.
    Mr. Grijalva. The other point is, Mr. VeneKlasen, in the 
first panel, we heard about transferring all the Federal public 
lands to the states. We also heard a little bit about let the 
local communities be the decisionmakers and the state just pays 
the--and the Federal Government just pays the bills. But all 
the policy decisions are going to be made by the state. What 
does that mean for the sportsmen you represent?
    Mr. VeneKlasen. Well, I mean it sounds good on paper but it 
is sort of a gilded----
    Mr. Grijalva. Lily?
    Mr. VeneKlasen. It is gilded. One of our biggest concerns 
is we have had some catastrophic wildfires in New Mexico, the 
cost of which are in excess of $150 million. There is no way on 
earth the state could even begin to pay for fighting a 
catastrophic wildfire, for example.
    We have a 100,000-acre thinning project in the Jemez 
Mountains right now. The Federal Government has donated $80 
million to thin that 100,000 acres of forest.
    And so the idea of state management sounds good on paper, 
but what we would also see is in our state, for example, you 
cannot camp on state land. And the lands are regulated in a 
very different way. So, you know, the idea of the state 
managing lands is a--it is a pipe dream is what it is.
    Mr. Grijalva. And the states charge a much higher grazing 
fee than the Federal Government and for other uses?
    Mr. VeneKlasen. The average AMU in New Mexico on private 
land is $13, and the Federal lands, it is a $1.34. And so, you 
know, those are big things that would impact the grazing 
community.
    Mr. Grijalva. But state land does not have the 
constitutional issues that have been raised today as to----
    Mr. VeneKlasen. No. And one of the other concerns we have 
is the thing we like about Federal management is there is a 
standard that is followed across the board that will make sure 
that these lands and the habitat are----
    Mr. Grijalva. And I agree. I think the point that Mr. 
Lucero brought up about northern New Mexico that I am not real 
familiar with, but I got real lucky and married a young lady 
from Penasco, so I know--I got very lucky, is there is unique 
historical, there is unique cultural issues that while there is 
a general standard, sometimes those nuances have to be part of 
the decisionmaking. I think that in particular in northern New 
Mexico, that might be the case. In some of the other areas, I 
do not think they have that nuance.
    Anyway, I yield back.
    Mr. LaMalfa. Alright, thank you. Mr. Tipton, 5 minutes, 
please.
    Mr. Tipton. Thank you, Mr. Chairman. And, by the way, Mr. 
Lopez, that looks like a great field to graze in from the one 
you have got up there, a lot of feed.
    But I would like to start with Mr. Lopez. We have a real 
issue it seems. The Federal Government keeps trying to acquire 
more land. And I found it incredibly curious when we have had 
the Forest Service before us, even the BLM, they do not have 
the resources to currently manage the lands they have, but are 
now acquiring more land. Now, they have been acquiring land 
near your homestead, is that correct?
    Mr. Lopez. Mr. Chairman and Mr. Tipton, that is correct. In 
my written testimony, I provided you with a map that was 
attached there. And basically the BLM has been purchasing small 
tracts of lands that were parts of old ranches that were around 
me until the point that I am considered an in-holding.
    Mr. Tipton. Yes.
    Mr. Lopez. Which they gleefully tell me that I am an in-
holding. And to me that means that I am going to be the next 
willing seller because I am completely surrounded by Federal 
land now.
    Mr. Tipton. Now, what type of notice did you receive, Mr. 
Lopez, in regards to the acquisition of that land? Did the BLM 
notify you that they were making those acquisitions?
    Mr. Lopez. Mr. Chairman and Mr. Tipton, they did not notify 
me. It is my understanding in talking to them recently that 
normally they do not notify the adjoining landowners because 
when they make agreements with certain nonprofits, like Trust 
for Public Land and others, it is usually a hush-hush deal. 
They do not want anybody to know what they are doing. And so 
when I found out about all these things was after the fact.
    Mr. Tipton. But the fact of the matter is that may have 
been an economic decision on the BLM's part to be able to get 
the land at a lower price. But how has that impacted your land 
price now that you are now labeled as an in-holding?
    Mr. Lopez. Well, apart from being an in-holding, Mr. 
Chairman and Mr. Tipton, I also happen to be in what the BLM 
created a few years ago called an Area of Critical 
Environmental Concern. The BLM tells me that I am not in that 
area, although I am surrounded by the area. But since I am not 
Federal land, it does not impact me. The problem is that it 
actually does impact me because if I went to use any of my 
mineral rights or anything else or do any development on my 
property being inside that zone, I would have a very difficult 
time getting anything through the county because they recognize 
the Area of Critical Environmental Concern.
    Mr. Tipton. So effectively this had a negative impact in 
terms of your holdings, ability to be able to re-sell the 
property. Do you not believe that adjacent landowners at a very 
minimum should at least be notified of these acquisitions 
because of the potential challenges that you are describing?
    Mr. Lopez. Mr. Chairman and Mr. Tipton, I certainly do. And 
it would have been nice if they had advised me because now that 
they have purchased all this land, I have a lot of trespass 
issues on the property because my property is in between two 
pieces of BLM land. And so I get trespassed all the time. If I 
had known about this before this happened, we could have come 
to some agreement in doing a land exchange or something like 
that that would have benefited both of us.
    Mr. Tipton. You know, I just introduced some legislation, 
it was H.R. 5074, the Land Adjacency Notification Disclosure 
Act, which would actually require that you be notified. Would 
that be of benefit to you?
    Mr. Lopez. Mr. Chairman and Mr. Tipton, that certainly 
would be of benefit, maybe not in my case now but for many 
others, it certainly would be.
    Mr. Tipton. I thank you for your time and for being here 
and certainly understand some of the challenges that you are 
facing.
    Mr. Dunn, I would like to be able to visit with you for 
just a moment if we may in regards to the company that you 
represent. In their vested private property easement across 
these Forest Service lands that they have had for 100 years, 
were they notified that it no longer existed and is now subject 
to a lengthy NEPA analysis?
    Mr. Dunn. Yes, they have been.
    Mr. Tipton. OK. And was the company ever consulted or 
afforded any opportunity to be able to respond to the Forest 
Service in regards to these actions?
    Mr. Dunn. They did. They had discussions with the Forest 
Service. They were in negotiations with the Forest Service. 
Ultimately, what the Forest Service said was, we will issue you 
a special use permit for that road you have already--well, that 
they believe that they already hold a vested right to, but we 
do not recognize, the Forest Service does not recognize vested 
private property right easements across our ground. So 
therefore without a special use permit, you have nothing.
    Mr. Tipton. Even with that ability to be able to have that 
easement, is this effectively a taking?
    Mr. Dunn. Yes, it is. One of the things I did disclose is 
that that is what the company is considering is--and has filed 
a takings litigation on that basis.
    Mr. Tipton. Right, and no compensation was offered. The 
Federal Government took it?
    Mr. Dunn. No, they just wanted them to give up their 
easement.
    Mr. Tipton. This puts the company in kind of a difficult 
position of take it or leave it really, doesn't it, with the 
Federal Government?
    Mr. Dunn. Absolutely. The ``take it or leave it'' attitude, 
not only are they potentially losing their right, but they are 
trying to start a company and reopen a mine, bring people to 
work, startup, get community--get the community involved, get 
going. And without that certainty that that road is going to 
continue to be there, and that they will continue to be able to 
access that, you are talking about a publicly-traded company 
that might lose millions of dollars when they get shut down by 
the Forest Service over a \3/4\-mile section of road.
    Mr. Tipton. Thank you. I am out of time, Mr. Chairman. I 
yield back.
    Mr. LaMalfa. Thank you, Mr. Tipton. Votes are up. We have a 
little time I think for one additional round. Would you like an 
additional round, Mr. Tipton? OK, alright. Thank you.
    I would follow up with one for Mr. VeneKlasen. I was 
curious, again, you had in your statement that fencing off the 
particular creek was done in order to protect a trout habitat. 
According to the Watershed Protection Section of the New Mexico 
Environmental Department, the only trout present in that stream 
at that time were brook trout, which are native to the East 
Coast, and rainbow trout, native to the Northwest. So what is 
the logic in cutting off access to protect non-native fish as 
well as non-native elk and even feral pigs that are non-native 
to that area? It seems that that is an overreach.
    Mr. VeneKlasen. Mr. Chairman, regardless of the species of 
trout that exists in the particular watershed, and I think we 
are talking about the Sequoia River because Agua Chiquita does 
not have trout in it. The trout do have a great deal of 
economic value because people come and fish for those fish, not 
only people that live in the area but a lot of out-of-state 
people come and fish there.
    Mr. LaMalfa. But you are using basically environmental law 
to cut people off with longstanding generational access to that 
for someone else's economic benefit. It almost sounds like an 
imminent domain taking in a way.
    Mr. VeneKlasen. I don't think you are taking away--if we 
are talking about the Sequoia instance, we are talking about 
101,000-acre grazing allotment.
    Mr. LaMalfa. I was talking about the Agua Chiquita.
    Mr. VeneKlasen. Agua Chiquita does not have trout in it.
    Mr. Dunn. Mr. Chairman?
    Mr. LaMalfa. Yes, sir.
    Mr. Dunn. I might be able to add to that. Part of why the 
Agua Chiquita fencing originally started back in the mid-1990s 
was because there was a hatchery in that area at that point. 
That hatchery has long since gone away in the last 10 years. It 
is no longer there. So the reason that Sikes money was used, 
and I believe a lot of the--we will call it the environmental 
money was used on those projects was originally because there 
was a fish hatchery in that area. Since that time, it has gone 
away. And now they have without going through the NEPA process 
converted this to mouse habitat. And this riparian area is now 
about mouse habitat even though they have never actually gone 
through the NEPA process to study the effects of making it 
mouse habitat.
    Mr. LaMalfa. Good. OK, thank you for the clarification. We 
have run across this again where we have non-native species 
that all of a sudden become protected species where they are 
introduced by other means, mankind, et cetera.
    Mr. Lucero, you look like you would like to add to that?
    Mr. Lucero. Yes, I would like to add the fact that Mr.--I'm 
sorry?
    Mr. VeneKlasen. VeneKlasen.
    Mr. Lucero. VeneKlasen stated that it is only 127 acres out 
of this allotment. I get that. I have a 2,800-square foot 
house. My kitchen sink where I drink my water is very small but 
without that, how am I supposed to use my home?
    Mr. LaMalfa. Because that is the water source?
    Mr. Lucero. Yes, sir.
    Mr. LaMalfa. Yes, sir. OK. Alright, one final one. Mr. 
Dunn, I was intrigued by something you were talking about 
earlier as a type of a civil rights action for people in 
dealing with their Federal Government there, especially western 
landowners and those that regulate them. Would you expand upon 
that a little bit?
    Mr. Dunn. Mr. Chairman, I believe an expansion of that 
would be that while a cause of action already exists against 
state employees that would harm your property rights, what we 
are talking about is expanding that to Federal employees that 
would use the color of authority to infringe upon a person's 
constitutional and civil rights, namely, to interfere with 
their constitutionally guaranteed property rights.
    For instance, the mining company that I described in my 
written testimony, where the Forest Service came in and 
threatened and cajoled them to give up their vested property 
rights easement and used the color of law to do so, if this 
language were adopted, it would enable that company to bring a 
Section 1983 claim in effect against the Forest Service where 
they have used their authority improperly.
    Mr. LaMalfa. Interesting. I am interested in that concept.
    So at this point, there are no other further questions from 
the committee. I would like to thank all of you for your 
travel, for your patience as we come back and forth from votes, 
and we have them up right now. So much appreciated that you 
would take your time and come speak with us and inform us here.
    So for those members of the subcommittee that may have 
additional questions in reviewing this or their staff, we would 
ask to submit those questions. And then we could ask you to 
respond to those in writing at a later date.
    The hearing record will be open for 10 days to receive 
those responses. So if there is no further business, as we are 
lonely here now, without objection, the subcommittee will stand 
adjourned.

    [Whereupon, at 5:15 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

  Prepared Statement of Drew O. Parkin, Escalante, Utah, regarding a 
 November 2009 incident at the Circler Cliffs, Garfield County, within 
            the Grand Staircase-Escalante National Monument
    My name is Drew O. Parkin. I am a resident of Escalante, Utah. I am 
a natural resource policy analyst and planner with 40 years of 
professional experience in 30 states spanning from Maine to Hawaii. In 
2009, I was Assistant Manager for the BLM's Grand Staircase-Escalante 
National Monument and field station manager for the northern portion of 
the National Monument, including all of the monument in Garfield 
County, Utah. In this capacity I had responsibility for overseeing 
management of field-level management on the northern half of the 
monument including recreation, wildlife, range, and road management. At 
the monument I reported to a monument-wide manager named Rene 
Berkhoudt.
    I did not have authority over law enforcement, as that element is 
managed through a stove-pipe operation where a state-level BLM law 
enforcement officer directly oversees field-level law enforcement 
officers (LEOs). However, I did have authority over all of the 
activities for which an LEO could issue a citation or make an arrest, 
and for identifying the priorities for LEO involvement within the 
Escalante Field Station area. Jeffrey Lauersdorf was the LEO assigned 
to the Escalante Field Station.
    In 2009 my office had arranged for the Utah Division of Wildlife 
Resources (DWR) to hold a special elk hunt in an area called the Circle 
Cliffs in eastern Garfield County, some 50 miles east of Escalante. We 
requested the hunt on the advice of the Monument's wildlife biologist 
to decrease grazing pressure by elk on a large area that had recently 
been reseeded by the BLM. To participate in the hunt, hunters had to 
draw a permit. There was high interest in the hunt due to the 
reputation of the area as a high quality hunting area.
    At 4:30 p.m. on November 6, 2009--the day prior to the start of the 
hunt--I received a telephone call from a DWR manager in Wayne County, 
Utah. He was concerned because his staff had visited the site of the 
impending hunt and discovered that carsonite posts with official ``no 
motor vehicles'' posters on them had been placed on several spur roads 
and undeveloped camping areas, allegedly by ``someone from the BLM.'' I 
informed him that I had no knowledge of this and committed to 
investigate. Immediately after I terminated the call I received another 
call, this one from the Garfield County Engineer, who called with the 
same concern. He called after hearing complaints from county residents 
who were planning to participate in the hunt. He was particularly 
concerned given the county's assertion of RS 2477 rights to several 
roads in the area in the Circle Cliff area. Again, I promised to 
investigate. I immediately drove to the area in question. I drove a 
government-licensed truck and wore an official BLM uniform. When I 
arrived at the Circle Cliffs I confirmed the accuracy of the DFW and 
county telephone calls. Most of the side roads were blocked by newly 
installed carsonite ``no motor vehicle'' signs. Also signed were many 
areas historically used as undeveloped vehicle-accessed campsites.
    I was also approached by several prospective hunters camped near 
the main road concerned that they could not access their usual and 
accustomed hunting and camping areas. They confirmed that the signs had 
been placed by a uniformed LEO from the BLM. From their descriptions I 
concluded that the LEO was Jeff Lauersdorf, an LEO out of the Escalante 
Field Office, who had a history of rouge enforcement actions, 
principally aimed at hunters, ranchers, and ATV enthusiasts.
    In preparation for this hunt I had given no thought to closing 
either roads or camping areas. Mr. Lauersdorf had not consulted with me 
concerning his plan to close roads, and law enforcement officers have 
no authority to unilaterally close roads. That is a management 
decision, and I was the field-level management authority for the Circle 
Cliffs area. At no time did I ask Mr. Lauersdorf to engage with the 
Circle Cliffs hunt. In fact I had asked staff, including Mr. 
Lauersdorf, to leave management of the hunt to DWR, as it was their 
responsibility.
    Given the situation I concluded that leaving the road and camping 
area closure signs in place would be extremely disruptive to the next 
day's hunt. It was also illegal, and I already knew that both DWR and 
Garfield County were very concerned. It was now past 6 p.m. and, as 
this was early November, nighttime was fast approaching. As it would 
have been impractical to obtain assistance at this time of day I 
proceeded to remove the signs, which I did by wrapping a chain around 
the sign, hooking the other end of the chain to my vehicle's trailer 
hitch, and pulling the signs using my vehicle. I did not count the 
number of signs that I pulled, but it was certainly over 20. By the 
time I had finished it was dark and past 10 p.m.
    At a location near the Lamp Stand, a prominent rock outcropping at 
the northeast end of the Circle Cliffs where I had pulled the last 
sign, I saw headlights coming toward me from the south. I assumed it 
was a hunter coming to set up camp. When the vehicle reached my 
location I saw that it was Mr. Lauersdorf, driving his BLM vehicle and 
wearing his uniform. He stopped his truck abruptly and walked directly 
to me. He looking in the bed of my truck, saw the signs, and angrily 
challenged my decision to remove the signs. I informed him of my reason 
and of the fact that signs are not to be placed in the Escalante Field 
Station area without my permission. Without comment he proceeded to 
transfer the signs from my truck to his. I did not intercede as I was 
aware that (1) we were miles away from the closest person, (2) he was 
agitated, (3) he was armed with at least three firearms and a knife, 
and (4) he had a history of impulsive and irrational behavior. In 
short, I was concerned for my safety. After transferring the signs he 
came up to me, placed his hand around the handle of his holstered 
pistol, and, at very close distance, told me the he ``was arresting me 
for destruction of government property.''
    Fearing for my safety, I pointed my finger at him and told him to 
back off. He backed up a step or two. I bolted for my vehicle, jumped 
in, and proceeded to leave by driving through the sage brush to the 
nearest unimproved road. He followed me, with both of us moving at 
fairly high speed for this type of road. He followed me for less than a 
mile and then stopped.
    I returned the next morning to observe how the hunt was proceeding. 
I stopped at the larger camps. I was informed that a BLM LEO had 
visited the camps earlier in the morning, and that the officer had 
asked occupants for their hunting and driver's licenses. They 
questioned why a BLM officer was asking for this information. I met one 
hunter who informed me that earlier that morning he had been driving 
his UTV down a Circle Cliffs secondary road and was pulled over by Mr. 
Lauersdorf, who proceeded to ask for his licenses. After the hunt I 
spoke with a gentleman from Kanab. The gentleman, who was a disabled 
hunter participating in the hunt, had been pulled off the road by Mr. 
Lauersdorf on the morning in question. He told me that the officer had 
shocked him with his abrupt manner of approach and, as a result, the 
hunter pulled his vehicle off of the roadway and onto the adjacent sage 
brush. Mr. Lauersdorf proceeded to threaten to give a ticket for 
driving off of the road. Mr. Lauersdorf then asked for his hunting 
permit. After reading it Mr. Lauersdorf told the man that his permit 
did not cover this hunt and ordered him to leave. He was informed that 
if he left he would not receive the ticket for being off road. The man 
left and, after the fact, was informed by DWR that his permit was, in 
fact valid for this hunt. I was particularly concerned with this 
situation as the man was disabled, and had gone to considerable effort 
to participate in the hunt.
    The next Monday morning I informed the monument manager, Rene 
Berkhoudt, of the weekend's events. Concerning the placement of signs, 
Berkhoudt suggested that he had not spoken to Mr. Lauersdorf before the 
hunt and had no knowledge of the plan to sign the roads and camping 
areas. Concerning Mr. Lauersdorf's threat to arrest me, Berkhoudt said, 
and I quote, ``Jeff sometimes gets excited. I will have a talk with 
him.'' I was never informed that such a talk took place.
    This is a true depiction of the events that took place, to the best 
of my knowledge. I am quite certain of the date of Friday, November 6 
but do not have records to verify the date. It may have been Friday, 
November 13. I know that it was a Friday evening in early November 
2009.

                                 ______
                                 

                                     State of Utah,
                         Office of the Lieutenant Governor,
                                                     July 17, 2014.

Hon. Rob Bishop, Chairman,
House Subcommittee on Public Lands and Environmental Regulation,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Bishop:

    Thank you for convening a committee hearing of the Public Lands and 
Environmental Regulation Subcommittee to consider issues related to 
Bureau of Land Management (BLM) law enforcement activities within the 
State of Utah. Before addressing our concerns, let me state that we 
enjoy a very positive and productive relationship with the BLM State 
Director Juan Palma. He has been consistently attentive to matters that 
interest the state and swift to respond to requests for meetings, phone 
conferences, or information. We are fortunate to have him at the helm 
of the agency that manages more than half of Utah's land. 
Unfortunately, I cannot extend the same compliments to BLM law 
enforcement operations in Utah that, regrettably, do not fall under 
Director Palma's supervision.
    To give you some background, I came to my position as Lieutenant 
Governor after having served as Sanpete County commissioner and as an 
elected representative in the Utah Legislature. I have deep roots in 
our rural culture; and am proud of the integrity and self-reliance of 
our local elected officials. Over the past several years, I have heard 
an increasingly loud chorus of voices expressing concerns on the 
intrusion of Federal law enforcement officers into matters that fall 
clearly within the jurisdiction of our county sheriffs and a lack of 
cooperation in those areas which traditionally have involved common 
Federal-local concerns. Examples include the issuance of traffic 
violations on county roads both on and off the BLM lands and 
confrontation and intimidation of local residents accusing them of 
minor civil infractions of BLM protocols.
    Another matter of concern is how the BLM law enforcement handled 
the arrest and charges relating to possession of Indian artifacts 
allegedly taken from BLM lands in southwestern Utah. The BLM law 
enforcement executed that operation in an unnecessarily aggressive 
manner. It was an ``invasion'' of a small town involving an unusually 
large number of officers. The SWAT team approach to non-violent crimes 
reflected the arrogance and insensitivity of the law enforcement team 
involved.
    The BLM approach at the Bundy Ranch, in which Utah's BLM Agent in 
Charge was heavily involved, further demonstrates a lack of judgment. 
The near disaster at the ranch was brought on by the massive BLM 
response to a situation involving unlawful grazing and failure to pay 
fines and fees. This could have been avoided by a reasoned, balanced 
approach. Yet, overkill seems to be the default response of Utah's BLM 
Agent in Charge.
    Another very troublesome issue is cooperative law enforcement 
contracts with our county sheriffs. The Federal Land Policy Management 
Act (FLPMA) states that the Secretary shall contract with local law 
enforcement to the greatest extent possible for law enforcement 
services on public lands. Historically, BLM has delegated law 
enforcement authority to county sheriff departments to enforce state 
and local BLM's laws on Federal lands. Such contracts are in place on 
Forest Service (FS) lands in Utah. Yet, recently, these same contracts 
have been difficult and in some cases impossible to negotiate due to 
resistance from the BLM Utah Law Enforcement Chief.
    In March of this year, I convened a group of county commissioners, 
sheriffs, legislators, and the law enforcement agents in charge for 
both the BLM and the FS to discuss these issues and seek resolution. At 
that time, we explained our concerns and constructively discussed them 
concluding with a ``next steps'' proposal. The BLM Agent in Charge 
stated that he did not approve contracts out of a concern for lack of 
``deliverables.'' He agreed to give us a written description of what he 
meant by deliverables and provide additional documentation explaining 
his refusal to renew these contracts. Regrettably, he has not provided 
the requested information, nor have we seen improvement in the 
attitudes and performance of Federal law enforcement officers working 
in the state.
    I am hopeful that as you consider our concerns in the course of the 
hearing, the BLM will respond appropriately to ensure that Utah enjoys 
the same productive partnership with the Federal law enforcement 
operations within the state that we have with the BLM State Office.

            Respectfully,

                                            Spencer J. Cox,
                                               Lieutenant Governor.

                                 ______
                                 

                                     State of Utah,
                            Office of the Attorney General,
                                                     July 23, 2014.

Hon. Rob Bishop, Chairman,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

    Dear Chairman Bishop:

    I appreciate your convening a committee hearing of the Public Lands 
and Environmental Regulation Subcommittee regarding law enforcement 
activities by the Bureau of Land Management (``BLM'') within the State 
of Utah. I have read the letter dated July 17, 2014 submitted by Utah 
Lieutenant Governor Spencer J. Cox to you. I agree with the both the 
content and concern expressed by the Lieutenant Governor and 
incorporate by reference much of what he communicated.
    I, too, would underscore the fact that Utah has had a long and 
often productive relationship with the BLM over decades and that the 
current approach and implementation of policies under the BLM State 
Director, Juan Palma, has been both positive and productive. Just 
recently, on his own initiative, Mr. Palma took me and a member of my 
staff on an in-depth tour of his office to increase working 
relationships and understanding between his office and mine. It was 
educational and helped build further trust between a Federal and state 
agency. Also, one of the past national directors of the BLM, Kathleen 
Clarke, is from Utah and works closely with our office daily in her 
role as head of Utah's Public Lands Office.
    In contrast to the relationship with Director Palma and former 
Director Clark, the level of trust and respect for law enforcement 
under the BLM, seems marginal at best throughout my state. Like our Lt. 
Governor, I have heard consistent and repeated concerns from the ranks 
of well-respected and reasonable county commissioners, county attorneys 
and sheriffs, among others, from counties across my state, regarding 
what they perceive to be strong-arm tactics, overstepping of authority 
and attitudes dismissive of county interests by the BLM.
    I understand the difficulties facing the Agent in Charge (``AIC'') 
of law enforcement in Utah. As a fellow law enforcement executive, I 
manage a state agency with hundreds of employees, including dozens of 
investigators/peace officers. I understand the complexity and many 
competing interests at play in making every policy decision. I am loath 
to judge any other executive without knowing all of the considerations 
facing that leader. Moreover, the AIC has also demonstrated 
professionalism in our limited personal interactions and been cordial 
and responsive to me. Nevertheless, I can judge the effect of his 
decisions on those in my state and, in this case, his decisions have 
created a void of trust from too many in Utah.
    While I have expressed to him my absolute belief, that despite 
political or personal differences, law enforcement officers at the 
Federal, state, county and city level need total solidarity in the 
field (a philosophy to which I continue to hold strongly), the lack of 
trust toward the BLM law enforcement arm has deteriorated to such a 
degree, that I am afraid investigators, agents or other law enforcement 
from his agency, the Utah Attorney General's Office and other law 
enforcement agencies are not as safe or effective as they could be in 
multi-agency situations or cases due to such strained relationships.
    I hope this perspective provides some assistance to the committee 
as it hears testimony and deliberates in this matter.

            Respectfully,

                                             Sean D. Reyes,
                                             Utah Attorney General.

                                 ______
                                 

                Mohave County Board of Supervisors,
                                      Lake Havasu City, AZ,
                                                     July 29, 2014.

Hon. Rob Bishop, Chairman,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

    Dear Chairman Bishop:

    My name is Buster Johnson and I have been a Supervisor for Mohave 
County, AZ for 17+ years. I am also retired from Los Angeles County 
Sheriff's Department. Over the years, I have had a mostly good working 
relationship with BLM enforcement officers in both jobs. This year is 
the first time that I have had to question as to how Mohave County will 
work with BLM officers. It has nothing to do with the officers 
themselves; it is the leadership in BLM.
    The Bundy incident in Nevada, which borders our county, caused us 
great concern due to the handling of the situation. I believe we saw 
the incident escalated to a dangerous level by BLM leadership or lack 
thereof. We teach our local law enforcement people to defuse situations 
which may arise, not to throw gas on the fire.
    The Federal Government is, from time to time, inexplicably guilty 
of bullying and in the process of serving arrest warrants on some 
involved in the Bundy incident which we believe will once again flame 
the fires of discontent. Clearly, Mr. Bundy needs to pay his grazing 
fees, and I believe the BLM was within their legal right to try to 
collect grazing fee arrearages. However, no one in their right mind 
would design and carry out such a heavy handed, ham-boned raid which 
sets a bad precedent and places the safety people living near public 
lands in jeopardy. I agree with the pending arrests but believe the 
issuing of a summons would work better to keep the possible violence to 
a minimum. Waiting until after the first of 2015 might also help. 
Mohave County signs an agreement to allow the feds to enforce Arizona 
state law in our county. To date that agreement has not been signed due 
to our concerns over BLM's use of its police powers.
    I wish to express my empathy for other counties across the Nation 
trying to work with BLM law enforcement officials--it is crucial that 
we work this out and the sooner the better.

            Sincerely,

                                         Buster D. Johnson,
                                          Mohave County Supervisor,
                                                      District III.

                                 ______
                                 

                         Custer Battlefield Museum,
                                        Garryowen, Montana,
                                                     July 22, 2014.

    To Whom It May Concern:

    My name is Christopher Kortlander. I own and operate the historic 
town of Garryowen, Montana, the only town inside the perimeter of the 
Custer Battlefield. I am also the founding director of the Custer 
Battlefield Museum in Garryowen.
    In 2005 a small army of Federal law enforcement agents descended on 
Garryowen with drawn fully automatic machine guns. Federal agents 
pointed guns at Garryowen employees and museum interns while executing 
a search warrant that was obtained by deceit and the twisting of truth.
    This `raid' was conducted as a military style assault on a domestic 
terrorist cell. The Federal agents had not received any information 
stating that the target(s) of their assault were in any way violent. In 
addition, there were a number of civilians/tourists present who were 
also put in harm's way during this raid at Garryowen, which was and 
remains a historic site and popular tourist destination, as well as a 
state-recognized informational center, housing a U.S. post office, a 
gas station, convenience store, museum, Subway sandwich shop and a 
retail trading post selling souvenirs.
    For 8 hours, the BLM agents conducting the `raid' at Garryowen, 
continually threatened me with never again seeing my special needs son, 
stating that I was facing decades in a Federal prison. BLM Federal law 
enforcement agents verbally harassed me, accusing me of being a baby 
killer, a swindler and a con man, and asserting that I was going to be 
charged with nine Federal felonies.
    After a day terrorizing all the civilians they encountered, and for 
the following 4-plus years, they continued to threaten me through the 
U.S. Attorney's office, and retained seized property that was 
unassociated with any crime whatsoever. I was forced to expend hundreds 
of thousands of dollars and nearly every waking moment, as well as 
countless sleepless nights, dealing with the legal threats thrown at 
me, evidently because I needed to be rolled over to advance an agenda 
that benefited only the BLM and the Federal agents involved.
    When the U.S. Attorney announced that there would be no charges 
filed against me, I sued the 24 Federal agents involved in prosecuting 
me, and found that I could not legally engage them because of the 
quasi-immunity that protects Federal law enforcement agents and 
prevents them from being held accountable for any wrongs they may 
commit. These men and women who had persecuted me in the 2005 raid--and 
those who came to conduct another raid in 2008--were beyond my reach 
and the reach of any non-agency review. They remained free to harass 
and attack me and others without any personal accountability or 
responsibility for their actions. The quasi-immunity enjoyed by BLM and 
Federal Fish and Wildlife law enforcement agents means that they are 
not accountable to me, the American public, the U.S. Court system, or 
the U.S. Congress. They are untouchables, protected no matter what they 
do.
    Following the end of the investigation and the numerous threats of 
prosecution made against me, I received--anonymously--a 52-page 
document which stated that the BLM raids on Garryowen, Gibson Guitar, 
and the Four Comers incident in Blanding, Utah, were all connected to 
the same agency and at least one Federal special agent who were on a 
mission to enhance their personal status and increase BLM funding from 
Congress. The actions of the law enforcement agents in the paramilitary 
raids on Garryowen, the Operation CERBERUS Action in Blanding, Utah, 
and the Gibson Guitar raids served only the political purposes of the 
BLM.
    At Garryowen, Federal machine guns were pointed at the head of a 
museum intern who had been forced to the ground spread eagle--not for a 
pat down consistent with the safety of the abusive law enforcement 
agents, but rather as a show of force to intimidate and threaten this 
uninvolved young citizen into fearfully accepting the government's 
`might makes right' posture.
    I was victimized as a criminal although I have no criminal history. 
I was denied constitutional protections because these apparently do not 
attach until charges are filed. The same Federal agents who executed 
search warrants pursued a fruitless investigation that served only to 
make me appear to be a criminal to family, friends, colleagues, and 
business associates, in the process destroying my personal reputation, 
my businesses and business relationships, together with other 
opportunities that I had spent more than a decade developing.
    Despite my obvious efforts to cooperate with the Federal agents 
involved, during the raid I was accused of being a baby killer, and had 
my private residence (which was NOT on the search warrant) forced open, 
entered, and searched. Hundreds of artifacts--personal and private--
together with tens of thousands of pages of documentation and other 
assets were seized, all of which were outside the scope of the search 
warrant used by the BLM.
    No items listed on the search warrant--four buttons and a suspender 
belt buckle--were taken. After more than 8 hours of scaring and 
intimidating me, my employees, and volunteer staff, this arrogant 
assembly of Federal agents departed. My business and philanthropic 
endeavors were laid to waste and I was left financially destroyed. All 
that was missing was Federal charges, but despite seizing a mountain of 
so-called evidence, no charges were ever filed.
    What had happened to me can only be described as a non-judicial 
prosecution, or more correctly, an extra-judicial persecution by BLM 
Federal agents. Federal charges were threatened for the next several 
years, but charges were never filed, and nearly 5 years after the 
`raid' the U.S. Attorney indicated that the investigation was completed 
and that NO charges were to be filed against me. Despite that fact, it 
is unreasonable to say that I had not been abusively prosecuted by the 
Federal agency involved.
    The BLM retained hundreds of artifacts until their so-called 
investigation had been completed nearly 5 years later, and they 
continued to hold dozens more after that time, initially alleging that 
these artifacts were absolute contraband and unlawful to be possessed 
even by a museum, and later insisting that the artifacts were 
derivative contraband based upon the manner in which they had been 
obtained or retained by me and the museum with which I am associated. A 
Federal claim for the return of these items was filed and just this 
winter (2014) all of the items sought were finally returned to the 
Custer Battlefield Museum in Garryowen, MT.
    Seized documents had been previously returned, but thrown about in 
such a manner that it is impossible to restore the organization that 
existed at the time the BLM agents carted them away. It is impossible 
for me to even know if what was returned is in fact ALL of the 
documentation that was seized. I have been unable to find a number of 
museum documents I know that I possessed prior to the BLM raid.
    It is important to note, once again, that no charges of criminal 
activity of any sort were ever filed in this matter. That action would 
have moved the matter into Federal court where constitutional 
protections against the actions of Federal law enforcement agents and 
the Federal agency they support would have arisen. However, without 
Federal court supervision, the ``800 pound gorilla'' that is the 
autonomous Federal agent, cloaked with the power and authority of the 
U.S. Government, remains free to use unrestrained, military-level 
tactics and weaponry and the threat of force to crush citizens--
frequently guilty of nothing--and in the process, destroy the 
businesses and lives of their victims with impunity.
    These Federal agents do not appear to answer to anyone other than 
possibly their peers--those also in agency law enforcement. Their 
methods are secret, their endeavors blacked out when pursued through 
Freedom of Information requests, and protected by judicial quasi-
immunity granted to any Federal law enforcement agent from the prying 
eyes of their victims, the press, and apparently the people's 
representatives in Congress. Even though the Supreme Court recognized 
the right of the citizen to hold the workers of the Federal Government 
personally accountable for their actions, the hurdle for a victim to 
get into court is generally impossible with ill-defined rules and 
standards, especially regarding Federal law enforcement agents.
    I remain fearful today--not because I am guilty of any criminal 
activity--but because the unrestrained power of Federal law enforcement 
agencies to use force and intimidation to strike fear into the hearts 
and lives of law-abiding citizens remains in place, allowing these 
reckless agents and agencies to destroy lives and livelihoods and seize 
personal possessions without reason or accountability to the citizens 
of these United States or to the letter and spirit of the laws that 
regulate their activities.
    It is time for the U.S. Congress to reign in this self-serving 
agency that uses Federal paramilitary force to further its own agenda, 
and believes itself to be beyond reproach or accountability. Thank you 
for your consideration and concern regarding this matter.

            Sincerely,

                                    Christopher Kortlander,
                                                 Founding Director.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Correspondence dated March 28, 2014 and May 9, 2014 from Jacob 
S. Lubera, District Ranger, U.S. Department of Agriculture, 
Forest Service, Santa Fe National Forest, Jemez Ranger District 
to Friends and Neighbors regarding a proposed riparian 
improvement project along the upper Rio Cebolla where it 
crosses Forest Road 376.

Correspondence dated July 9, 2014 from Allan R. Setzer, 
District Ranger, U.S. Department of Agriculture, Forest 
Service, Santa Fe National Forest, Cuba Ranger District to 
Friends and Neighbors regarding a proposed project along the 
upper Rio Cebolla where it crosses Forest Road 376.

                                 [all]
</pre></body></html>
